<html>
<title> - LEGISLATIVE EFFORTS TO COMBAT SPAM</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                   LEGISLATIVE EFFORTS TO COMBAT SPAM

=======================================================================

                             JOINT HEARING

                               before the

                            SUBCOMMITTEE ON
                COMMERCE, TRADE, AND CONSUMER PROTECTION

                                and the

          SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 9, 2003

                               __________

                           Serial No. 108-35

                               __________

      Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

88-428              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
----------------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                    COMMITTEE ON ENERGY AND COMMERCE

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL BILIRAKIS, Florida           JOHN D. DINGELL, Michigan
JOE BARTON, Texas                      Ranking Member
FRED UPTON, Michigan                 HENRY A. WAXMAN, California
CLIFF STEARNS, Florida               EDWARD J. MARKEY, Massachusetts
PAUL E. GILLMOR, Ohio                RALPH M. HALL, Texas
JAMES C. GREENWOOD, Pennsylvania     RICK BOUCHER, Virginia
CHRISTOPHER COX, California          EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                 FRANK PALLONE, Jr., New Jersey
RICHARD BURR, North Carolina         SHERROD BROWN, Ohio
  Vice Chairman                      BART GORDON, Tennessee
ED WHITFIELD, Kentucky               PETER DEUTSCH, Florida
CHARLIE NORWOOD, Georgia             BOBBY L. RUSH, Illinois
BARBARA CUBIN, Wyoming               ANNA G. ESHOO, California
JOHN SHIMKUS, Illinois               BART STUPAK, Michigan
HEATHER WILSON, New Mexico           ELIOT L. ENGEL, New York
JOHN B. SHADEGG, Arizona             ALBERT R. WYNN, Maryland
CHARLES W. ``CHIP'' PICKERING,       GENE GREEN, Texas
Mississippi                          KAREN McCARTHY, Missouri
VITO FOSSELLA, New York              TED STRICKLAND, Ohio
ROY BLUNT, Missouri                  DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MICHAEL F. DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       CHRISTOPHER JOHN, Louisiana
JOSEPH R. PITTS, Pennsylvania        TOM ALLEN, Maine
MARY BONO, California                JIM DAVIS, Florida
GREG WALDEN, Oregon                  JAN SCHAKOWSKY, Illinois
LEE TERRY, Nebraska                  HILDA L. SOLIS, California
ERNIE FLETCHER, Kentucky
MIKE FERGUSON, New Jersey
MIKE ROGERS, Michigan
DARRELL E. ISSA, California
C.L. ``BUTCH'' OTTER, Idaho

                   Dan R. Brouillette, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

        Subcommittee on Commerce, Trade, and Consumer Protection

                    CLIFF STEARNS, Florida, Chairman

FRED UPTON, Michigan                 JAN SCHAKOWSKY, Illinois
BARBARA CUBIN, Wyoming                 Ranking Member
JOHN SHIMKUS, Illinois               HILDA L. SOLIS, California
JOHN B. SHADEGG, Arizona             EDWARD J. MARKEY, Massachusetts
  Vice Chairman                      EDOLPHUS TOWNS, New York
GEORGE RADANOVICH, California        SHERROD BROWN, Ohio
CHARLES F. BASS, New Hampshire       JIM DAVIS, Florida
JOSEPH R. PITTS, Pennsylvania        PETER DEUTSCH, Florida
MARY BONO, California                BART STUPAK, Michigan
LEE TERRY, Nebraska                  GENE GREEN, Texas
ERNIE FLETCHER, Kentucky             KAREN McCARTHY, Missouri
MIKE FERGUSON, New Jersey            TED STRICKLAND, Ohio
DARRELL E. ISSA, California          DIANA DeGETTE, Colorado
C.L. ``BUTCH'' OTTER, Idaho          JOHN D. DINGELL, Michigan,
W.J. ``BILLY'' TAUZIN, Louisiana       (Ex Officio)
  (Ex Officio)

                                  (ii)

                                     

                                     

                                     

                                     

                                     

                                     

                                     

                                     

                                     

                                     

          Subcommittee on Telecommunications and the Internet

                     FRED UPTON, Michigan, Chairman

MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                      Ranking Member
CLIFF STEARNS, Florida               BOBBY L. RUSH, Illinois
  Vice Chairman                      KAREN McCARTHY, Missouri
PAUL E. GILLMOR, Ohio                MICHAEL F. DOYLE, Pennsylvania
CHRISTOPHER COX, California          JIM DAVIS, Florida
NATHAN DEAL, Georgia                 RICK BOUCHER, Virginia
ED WHITFIELD, Kentucky               EDOLPHUS TOWNS, New York
BARBARA CUBIN, Wyoming               BART GORDON, Tennessee
JOHN SHIMKUS, Illinois               PETER DEUTSCH, Florida
HEATHER WILSON, New Mexico           ANNA G. ESHOO, California
CHARLES W. ``CHIP'' PICKERING,       BART STUPAK, Michigan
Mississippi                          ELIOT L. ENGEL, New York
VITO FOSSELLA, New York              ALBERT R. WYNN, Maryland
CHARLES F. BASS, New Hampshire       GENE GREEN, Texas
MARY BONO, California                JOHN D. DINGELL, Michigan,
GREG WALDEN, Oregon                    (Ex Officio)
LEE TERRY, Nebraska
W.J. ``BILLY'' TAUZIN, Louisiana
  (Ex Officio)

                                 (iii)




                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Beales J. Howard, III, Director, Bureau of Consumer 
      Protection, Federal Trade Commission.......................    24
    Betty, Charles Garry, President and CEO, EarthLink...........    31
    Curran, Charles, Assistant General Counsel, America Online...    35
    Hirschman, Kenneth, Vice President and General Counsel, 
      Digital Impact.............................................    52
    Misener, Paul, Vice President for Global Policy, Public 
      Policy, Amazon.com.........................................    48
    Murray, Christopher, Legislative Counsel, Consumer Union.....    60
    Rubinstein, Ira, Associate General Counsel, Microsoft 
      Corporation................................................    41
    Selis, Paula, Senior Counsel, Washington State Attorney 
      General....................................................    57

                                  (iv)

  

 
                   LEGISLATIVE EFFORTS TO COMBAT SPAM

                              ----------                              


                        WEDNESDAY, JULY 9, 2003

          House of Representatives,        
          Committee on Energy and Commerce,        
               Subcommittee on Commerce, Trade, and        
        Consumer Protection joint with the Subcommittee    
                     on Telecommunications and the Internet
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 1:03 p.m., in 
room 2123, Rayburn House Office Building, Hon. Cliff Stearns 
(chairman, Subcommittee on Commerce, Trade, and Consumer 
Protection) and Hon. Fred Upton (chairman, Subcommittee on 
Telecommunications and the Internet), presiding.
    Members present, Subcommittee on Commerce, Trade, and 
Consumer Protection: Representatives Stearns, Upton, Cubin, 
Shimkus, Shadegg, Bass, Ferguson, Issa, Tauzin (ex officio), 
Schakowsky, Solis, Markey, Davis, Stupak, Green, McCarthy, 
Strickland, and Dingell (ex officio).
    Members present, Subcommittee on Telecommunications and the 
Internet: Representatives Upton, Stearns, Cox, Cubin, Shimkus, 
Wilson, Bass, Walden, Tauzin (ex officio), Markey, McCarthy, 
Davis, Boucher, Eshoo, Stupak, Engel, Wynn, Green, and Dingell 
(ex officio).
    Also present: Representatives Burr and Holt.
    Staff present: David Cavicke, majority counsel; Ramsen 
Betfarhad, majority counsel; Shannon Vildostegui, majority 
counsel; Will Nordwind, majority counsel; William Carty, 
legislative clerk; Gregg Rothschild, minority counsel; Jonathan 
J. Cordone, minority counsel; Peter Filon, minority counsel; 
and Nicole Kenner, minority research assistant.
    Mr. Upton. Good afternoon. Pleased to hold this joint 
subcommittee hearing today with my good friend Cliff Stearns, 
Ed Markey and Jan Schakowsky. Today's hearing is entitled, 
``Legislative Proposals to Combat Spam.''
    I would note that when I returned from our July 4 break, I 
found dozens of spam e-mails on my system last night, 3 or 4 
times the normal for not cleaning it up for a couple of weeks. 
This is a watershed moment for the Congress, and if we work 
together as a Congress, I am confident that after many years of 
fits and starts we may finally be in a position to respond to 
our constituents' plea for help in protecting their in-boxes 
from a flood of annoying junk e-mail and, more disturbingly, 
the offensive smut.
    Efforts in the last couple of Congresses have fallen short, 
particularly because of squabbles between committees of 
jurisdiction. At the end of the day, we have had some terrific 
debates about combating spam but the bills have just died. 
Meanwhile, spam has proliferated, consumers patience has worn 
thin, and the volume of spam threatens to clog the arteries of 
the Internet.
    I know every member of this committee and these 
subcommittees wants to combat spam. Vice chairman of this full 
committee, Mr. Burr, has introduced legislation, H.R. 2214, 
which would, at its core, empower consumers to opt out of 
receiving commercial e-mail. I would note that Mr. Burr's bill 
not only has the support of Chairman Tauzin, Mr. Stearns, 
myself and others but even more--well, maybe not more 
significantly but certainly important, the Judiciary Chairman, 
Jim Sensenbrenner. This is indeed a major development and bodes 
well for our efforts to once and for all move beyond the dead 
bills and committee squabbles of the past, get legislation to 
combat spam signed into law.
    I also want to commend Mr. Green and Mrs. Wilson for 
introducing their legislation, H.R. 2515. I was pleased to see 
that when this bill was unveiled it contained so much common 
ground between it and the Burr-Sensenbrenner-Tauzin bill. 
Indeed, both bills apply opt-out to all commercial e-mail. Both 
bills rely upon the FTC, the DOJ, State AGs and ISP private 
rights of action for enforcement. These bills are not that far 
apart, and I am convinced that the gaps can be bridged. Both 
bills got sequential referrals to the Judiciary Committee, so 
it is imperative that we avoid the inner committee pitfalls of 
the past if we are going to deliver for the American people. 
Based on the fine spadework of Mr. Burr, Tauzin and 
Sensenbrenner to reach significant accommodation between the 
two committees prior to the introduction of the bill, I believe 
to their credit we are much closer to the goal line than ever 
before. Mr. Green and Mrs. Wilson's proposal are very similar 
in many respects, which I view as a further good sign that Mr. 
Burr, Chairman Tauzin and Sensenbrenner came pretty close to 
hitting the sweet spot.
    Of course, like every other bill, H.R. 2214 was introduced 
with the expectation that it likely would be perfected along 
the way through the legislative process. That is what hearings, 
markups, and house floor consideration--not to mention the 
conference with the Senate--are for. Mr. Green and Mrs. 
Wilson's bill provides some suggestions on where we can improve 
our product, and I suspect that we will hear about some of 
those today. For instance, we can tighten definitions to ensure 
that we close down any potential and unintended loopholes.
    I also support expanding AG enforcement to cover not only 
the fraud provisions of the bill but also instances where 
marketers fail to put required inclusions in their e-mails and 
where marketers fail to honor consumer opt-out requests. I also 
think that we can beef up the monetary caps and aggregate caps 
on State AG recoveries, and I pledge to continue working with 
all members of this committee in a bipartisan manner to make 
these and other productive improvements upon the final product 
as we continue to work in a cooperative fashion with the 
Judiciary Committee.
    To paraphrase my old boss, Ronald Reagan, it is amazing 
what we can done if you don't worry so much about who gets the 
credit. When it comes to combating spam there is plenty of 
credit to go around in this committee on both sides of the 
aisle as well as in the Judiciary Committee too. Mr. Burr, Mr. 
Green, Mrs. Wilson, so many others deserve such credit. So if 
we can just learn from the past, work together, avoid the 
pitfalls, I am confident we will succeed in delivering anti-
spam legislation to the American people before too long. At 
this point I yield to my friend from Massachusetts--maybe I 
don't yield to him--Mr. Markey, for 5 minutes for an opening 
statement.
    Mr. Markey. I thank the chairman very much. This is the 
second round for me in a battle against spam, and the last 
round was very bitter, it was a multi-year fight, but, 
ultimately, I was successful. Because spam is to the Internet 
what Spam has been to culinary critics for years. For years, 
millions of little kids, and that was my brothers and I in our 
house in the 1950's, my mother was constantly serving 
unsolicited Spam to my brothers and I.
    And telling us it was good for us and telling us just 
because she had a monopoly and just because she controlled the 
capacity to Spam my brothers and I sometimes 3, 4 times a week, 
always unsolicited. And we as consumers had very little ability 
to protect ourselves successfully when we were 8 or 9, but by 
the time we were 11 or 12 and we were able to organize better, 
we ultimately were able to just stop the scourge of Spam. Now, 
once again, spam raises its ugly head and consumers out there 
are looking for relief from unsolicited invasions, especially 
in the privacy of their home where they should have more 
control over what it is that has allowed entry into that sacred 
domain.
    I want to salute the principal sponsors of the spam 
legislation that I have cosponsored which has been offered by 
Mrs. Wilson and by Mr. Green. I think it is important for us to 
work with the other members who are working on other approaches 
on this legislation, the chairman and others. This committee 
approved spam legislation authored by our two colleagues in the 
previous Congress, and I believe the bill they have introduced 
in this Congress is an improvement over previous versions. It 
is sensible regulation of certain Internet-based conduct and 
includes realistic but tough enforcement measures. It will help 
to preserve the best of what the Internet offers consumers and 
to businesses while helping consumers and industry stem the 
tide against the daily deluge of unsolicited commercial e-
mails.
    One issue I want to highlight that I believe the Committee 
ought to tackle as well is wireless spam. As wireless 
technology advances and becomes like the traditional phone 
networks and network for sending data, text and images in 
addition to voice services, it is predictable that spam will 
migrate to wireless services. When a computer user logs on in 
the morning and finds 150 spam e-mails and has to spend time 
deleting all of these items, it is a clear nuisance. Think 
about the prospect of driving home and having your wireless 
phone ring and buzz as all of these spam e-mails arrive. It 
will be spam that follows you wherever you bring your phone. It 
will be even more of a nuisance and more burdensome to 
consumers to the extent to which they may pay their wireless 
phone company based upon the number of text messages received 
or sent. This is a future that is right around the corner 
unless we act. It also has become the plague of millions of 
wireless users in Asia and other parts of the world. Our 
colleague, Rush Holt, has also introduced legislation that aims 
to address this issue. I believe that we can tailor a remedy 
for wireless spam that recognizes that spam to a wireless phone 
is even more intrusive than it is to a desktop computer.
    I look forward to working with all of my committee 
colleagues on addressing this issue as we attempt to reach a 
consensus committee position on the underlying issue. Again, I 
want to commend you, Mr. Chairman, Chairman Stearns, and I look 
forward to working with Chairman Tauzin and Mr. Dingell and the 
other members on this very important legislation.
    Mr. Upton. Okay. I now yield to the chairman of the 
Subcommittee on Commerce, Trade, and Consumer Protection of 
which we have having a joint hearing, Mr. Cliff Stearns from 
Florida.
    Mr. Stearns. I thank my colleague from Michigan and I 
welcome the witnesses and I am pleased to co-chair this with my 
colleague, Mr. Upton.
    I think no one disputes the great value of e-mail. It has 
brought efficiency and productivity to all of us and helped us 
in a short period of time, and it has become critical, 
ubiquitous, inexpensive and a very effective medium of 
communication. It is a communication medium that at least 
according to one survey 75 percent of us are not willing to 
forgo for even telephone service. The evidence that e-mail is 
indeed the killer application of the information and knowledge 
age can be found simply in our routines, our daily routines at 
work or play, where routinely, like Mr. Upton indicated, is 
going through our e-mails and deleting what we have to do.
    But, of course, a lot of this is filled, our e-mails are 
filled with unwanted e-mails asking us to buy certain products 
ranging from the real products to the absurd. I guess I 
personally don't have a problem with the marketing per say. 
After all, a consumer-based economy is highly dependent on 
marketing to differentiate the array of goods that we have and 
services to the consumers. But I think the problem is twofold 
after you look at it from there.
    First, the marginal cost of sending the additional e-mail 
is just about zero. Senders of commercial e-mail have no 
incentive to target their marketing. Thus, the networks and 
systems that support e-mail are flooded with these e-mails. 
Recent estimates suggest that as much as half of all e-mails 
are composed of such commercial solicitations. Now, someone 
bears the cost of this voluminous unwanted solicitations, and 
of course that someone, ultimately, is the consumer, the user 
of e-mail. We will pay, as the e-mail service providers buy 
more equipment. They will pass it on to us. We will also pay, 
all of us, in lost time and productivity--the time we have to 
go through and delete those all these e-mails.
    The second problem that I see is that e-mail communications 
make accountability a lot more difficult. Unscrupulous people 
use it to advance fraudulent and deceptive acts, and even good 
commercial actors are tempted to take advantage of this lack of 
accountability.
    So I think targeted legislation that can bring about a 
greater level of accountability to e-mail communications is 
good. I think H.R. 2214 is that bill. It enjoys the support of 
a lot of members, including the chairman of this committee as 
well as the chairman of the Judiciary Committee, which is very 
important. This type of cross-committee cooperation is very 
important. It is necessary in order for us to enact finally 
this legislation on spam. I am also pleased that some of the 
leading voices for anti-spam legislation, indeed pioneers in 
this effort, colleagues on my committee, are also interested in 
trying to work through and pass legislation finally. I am 
particularly talking about the gentlelady from New Mexico, Ms. 
Wilson, and my colleague, Mr. Green and Mr. Boucher. So we have 
an opportunity for a bipartisan bill.
    I believe that effective Federal legislation should bring 
about greater accountability as a bottom line. That greater 
accountability can be achieved by strengthening existing laws--
making sure that fraud and deception is prosecuted and 
subjected to severe penalties. In addition, I think that 
legislation should encourage accountability through adoption of 
certain best practices by e-mail marketers. I know a number of 
witnesses today have their own thoughts on this issue. I have a 
proposal that I think would advance best practices in the 
market and in turn inject greater accountability. So I hope to 
discuss this proposal later.
    In conclusion, with an observation I think that our witness 
will probably confirm, legislation is only one part of the 
solution. I think many of you on the witnesses out there could 
propose a technical solution. Technology, consumer education, 
industry cooperation, in my view, are the key tools in 
combating spam and injecting real and effective accountability. 
We must also consider the transnational dimensions of spam. It 
is an international problem that will require increased 
international cooperation to combat. So I hope to introduce 
bipartisan legislation before August recess that would 
strengthen the Federal Trade Commission's ability to address 
the growing problem of transnational fraud, including spam that 
is not home grown. Thank you.
    Mr. Upton. At this point, I would recognize the vice chair 
of the Subcommittee on Commerce, Trade and Consumer Protection, 
the gentlelady from Illinois, Ms. Schakowsky.
    Ms. Schakowsky. Ranking, actually, but that is good.
    Mr. Upton. I am sorry.
    Ms. Schakowsky. No, that is all right.
    Mr. Upton. I am sorry, the ranking member.
    Ms. Schakowsky. No. I thank----
    Mr. Upton. We thank you all on this side of the aisle. We 
will get that voter registration changed in Illinois.
    Ms. Schakowsky. I thank Chairman Upton and Chairman Stearns 
for holding this hearing today on spam. I wanted to ask 
unanimous consent to place in the record a statement by 
Congressman Rush Holt, which focuses on wireless spam.
    Mr. Upton. Without objection.
    [The prepared statement of Hon. Rush Holt follows:]

Prepared Statement of Statement of Hon. Rush Holt, a Representative in 
                 Congress from the State of New Jersey

    I am pleased that the Subcommittees have convened this joint 
hearing to explore ways to address the mounting problem of unsolicited 
e-mail advertising, or spam, which has become perhaps the biggest 
nuisance of the Information Age.
    I urge the committee to include in their legislation provisions to 
combat a related problem that has gotten out of hand in some countries 
and is growing ever worse in the U.S.--spam sent to wireless phones 
through text messaging.
    The Japanese are already fighting off a tsunami of cell phone spam. 
On one recent day, the 38 million customers of the largest Japanese 
wireless company, NTT DoCoMo, received 150 million pieces of spam. Even 
today, after passage of anti-spam laws in Japan, DoCoMo's subscribers 
still receive up to 30 million wireless spam messages each day. This 
has caused millions of Japanese wireless phone users to simply stop 
using their cell phone service.
    So far, U.S. cell phone users have been largely spared this torrent 
of annoying, unwanted messages. I presume this is because a lot of 
telemarketers don't believe there are enough text-capable cell phones 
in the country. Most new phones are text capable, however, and the 
number of text messages sent in this country has been rising rapidly, 
quadrupling from 250 million messages sent in December 2001 to 1 
billion messages sent in December 2002. 17% of cellular customers, 
about 23 million people, currently use text messaging--including 45% of 
cell phone users in the lucrative 18-to-25-year-old category. Direct 
marketers are already beginning to salivate.
    I have introduced the Wireless Telephone Spam Protection Act as 
H.R. 122. This bill is intended to launch what could be called a 
preemptive attack against wireless spam before it spins out of control 
in the United States. Congress too often acts once the fire is already 
lit. This time, we should put the fire out before it gets out of 
control.
    I want to emphasize that not only should anti-spam legislation 
incorporate wireless spam, it should also set stronger penalties and 
consumer protections. Under most wireless plans, consumers pay for each 
message they receive--they're paying to be spammed. That is why 
consumers should not have to opt out of text message spam after they've 
already received it, but instead should only receive those messages 
they choose to get.
    Mr. Markey has recognized the importance of addressing the wireless 
spam problem, and he has informed me that he intends to address it 
during markup. I want to express my appreciation to Mr. Markey for his 
efforts and for all of his leadership on telecommunications issues.
    I hope we can stop the wireless spam tsunami before it floods us 
all.

    Ms. Schakowsky. My constituents have contacted me about how 
much they hate spam, and it is important to note that spam is 
more, however, than just a time-consuming nuisance to people. A 
great deal of spam is fraudulent and obscene. According to the 
Wall Street Journal and Reuters, 50 percent with children with 
e-mail accounts receive e-mail with pornography. Under the 
current law, parents are virtually powerless to stop their 
children from receiving inappropriate and disturbing 
solicitations. We need to give parents the tools to protect 
their children. First Amendment rights need to be protected, 
but predators that target our children and grandchildren must 
be prevented from contacting them in the first place.
    Spam has also provided enormous opportunities for scam 
artists. Shamefully, many spammers take advantage of senior 
citizens and children. This past April the FTC released a 
report analyzing false claims made in spam. The FTC analyzed 
1,000 pieces of spam and found that 66 percent contained 
deceptive information. The FTC and State law enforcement 
agencies need broader enforcement authority to go after all bad 
actors regardless of where they make their pitch--from the 
Internet, on television or in the newspaper. Cyber criminals 
need to be held accountable.
    It is important to note that spam is a problem that extends 
far beyond fraudulent and obscene. We are all overwhelmed with 
solicitations for loans and various products and Viagra. 
Consumers do not want to receive e-mails from these businesses. 
Maybe some do but those who don't should be able to opt out of 
receiving future solicitations if they wish. Unwanted spam also 
hurts our economy. It clogs networks and it causes entire 
networks to crash. Experts estimate spam will cost U.S. 
businesses over $10 billion this year. The problem will only 
get worse over time. According to industry experts, the volume 
of spam rose from 8 percent of all e-mail in January 2001 to 45 
percent in 2003. Spam is likely to exceed 50 percent of all e-
mail by 2004. It is clear it is a major problem. The question 
is what can we do to help our constituents and stop spammers 
from sending unwanted solicitations while at the same time 
ensuring that e-commerce remain vibrant.
    Spam is a very difficult problem to solve partly because it 
is hard to track down many of the culprits. A great deal of 
spam is sent from abroad, and many spammers do not have fixed 
addresses, are difficult to track down. But I am glad that we 
are taking action. I am a co-sponsor of 2515, the Anti-Spam Act 
of 2003, and I support the bipartisan bill because it gives the 
FTC and State attorneys generals strong enforcement powers, has 
a comprehensive opt-out provision and has a clear definition of 
what types of commercial e-mail should be regulated. I want to 
just list a couple of concerns, though, that I have about 2214 
in its current form and hope that they can be worked out.
    One, it limits the amount of damages that an attorney 
general can pursue from the spammer that violates the law. 
Second, it prevents from States from enforcing the opt-out 
list. Third, it forces the FTC to establish a knowledge 
standard before issuing an injunction. Fourth, it applies only 
to e-mails that have a solicitation as a primary purpose, and I 
am afraid companies will be able to bury solicitations in their 
e-mail, that people will find the loopholes.
    So I look forward to working with all my colleagues on both 
sides of the aisle on this problem. We were able to do the do 
not call list and that helped the FTC and passed legislation 
that helped the FTC to implement it. We have gotten an 
overwhelming positive response and now it is time to tackle 
spam. It is clear that we need to take action before the 
problem gets worse. Thank you, both chairman.
    Mr. Upton. I recognize the chairman of the full committee, 
Mr. Tauzin from Louisiana.
    Chairman Tauzin. Thank you, Chairman Upton, and thank you, 
Chairman Stearns, for holding this important joint hearing 
today. I wish that Mr. Markey was still here because once again 
today I have to defend--oh, you are here, you are back--I have 
to defend someone against another unfair, unwarranted, 
unreasonable political attack, this time the mystery meat known 
as spam. I heard you, Mr. Markey, talk about how growing up you 
and your brothers were subjected to unwarranted and unwelcomed 
and unsolicited adventures with the mystery meat known as Spam. 
That never troubled me as a young man. Before there was trail 
mix, before there was power bars, as a young hunter and 
fisherman there was Spam, and we loved it and enjoyed it and 
still do. What upset us the most was powdered meat. Now, that 
really--I never could understand--I mean if you want meat, you 
should get meat, you should not get powder. I never understood 
that when I was a child.
    Mr. Markey. Yes. Well, we didn't have those cajun spices 
that kills the taste, you see. I mean in an Irish home you eat 
it straight. There is no extra----
    Chairman Tauzin. Yes, meat and potatoes, I know. And then 
the other thing that really got us was Vienna sausage, I mean 
unsolicited Vienna sausage. Why Vienna? I mean we had Aunt 
Doolie sausage, we had great venison sausage, we had every kind 
of sausage you can imagine.
    Mr. Upton. Did you have a cat or something?
    Chairman Tauzin. Huh?
    Mr. Upton. Didn't you have a cat or something that could 
eat some of that?
    Chairman Tauzin. I thought you were saying something else.
    Bottom line is we had other things to object to besides the 
mystery meat, Spam, and I want to defend it; it is still a good 
product. But when it comes to unsolicited e-mails spam is 
obviously a scourge.
    If our house is our castle, our castle is under siege right 
now, it really is. I mean we have gone after some who have put 
it under siege. We helped pass the telemarketing do not call 
list and Americans are calling like crazy to get on that list 
and to stop unwarranted, unsolicited telemarketing calls. We 
have allowed every citizen in the country to call the post 
office and stop the junk mail from hitting my mail box. We can 
say no to unwanted visitors, to unwanted telemarketing calls. 
We can say no to unwanted postal mailings into our mailbox. It 
is time we give Americans a chance to say no to unwanted e-
mails. It is that simple. And the bills we are working on are 
going to do that and give Americans a new right.
    And we have finally got concurrence with the Judiciary 
Committee, we are working on a common product. I really want to 
thank Mr. Burr and Mr. Upton and Mr. Stearns and all the 
members who worked to negotiate that product with the 
Judiciary. I want to thank Mr. Dingell, and I particularly want 
to thank Ms. Wilson for their assistance in these negotiations. 
They are still going on, we are still getting concessions. I 
think we are getting closer and closer to a final product that 
is going to join the Wilson-Green effort with the effort our 
two committees are making, and instead of having a product that 
is blocked at another committee from getting to the floor, now 
we will have a joint committee product. We will have a product 
on the floor, and the Senate is likely to pass the product. We 
are likely to get some real action on this issue this year, and 
I want to thank you all for it. I particularly want to commend 
Ms. Wilson for again being an outstanding leader on this issue 
as she was last year, last Congress, and to commend all of you 
for recognizing that this is not going to happen if we fight 
committee battles over it. It is going to happen when we all 
come together.
    I particularly want to point out the three features of this 
bill quickly. It creates consumer choice for the first time in 
this area, it has got huge new anti-fraud provisions. And by 
the way, we have been improving them in these negotiations, 
including new rights for the AGs of our State, strong 
enforcement provisions, and as Mr. Markey pointed out, it 
begins to do something now about a problem that has already hit 
Europe, already hit Asia, it is really big in the common market 
already, and that is the problem of wireless spam, which we 
expect is going to be a huge problem in this country if we 
don't cut it off in its tracks. And we have begun that process 
in this bill.
    So when you think about the fact that this bill is now 
coming together in such a great bipartisan way and more 
importantly between our two great committees of Judiciary and 
Commerce, we have got a real chance to give consumers a real 
chance to defend their Internet castle from this siege that so 
many are under.
    I have been asked is this an attack on the First Amendment, 
the free speech amendment? It is not. This is about the right 
to listen or not listen. Husbands understand that. We call that 
selective hearing, and wives get real angry with us when we do 
it. But Americans have always enjoyed the right to turn it off, 
not to hear, not to listen. That doesn't affect people's right 
to speak. They can speak all they want. You don't have to 
listen if you don't want. What we are talking about in this 
case is--on the Internet--your right not to receive information 
you don't want, particularly when it is egregious and offensive 
information, in many cases, into your home, the same way you 
can say no to those kind of products when people sought to 
deliver them over the mail or in a telephone conversation.
    So this is a great effort, and I want to thank our two 
subcommittees for working as closely as they have and for so 
many of you, Mr. Green, and for so many of you coming together 
and trying to find a common product. We are going to have one 
next week, and we will deliver a great victory to the floor, 
and eventually we will have the signature of the White House 
and Americans will be better off for it. God bless you. Thank 
you.
    Mr. Upton. Recognize the ranking member of the full 
committee, the gentleman from the great State of Michigan, Mr. 
Dingell, for an opening statement.
    Mr. Dingell. Mr. Chairman, I thank you, and I commend you 
and Chairman Stearns for holding this hearing today. Spamming, 
cramming, slamming, they are all unacceptable practices, and I 
want to say to my colleagues, the chairman of the committee, to 
the gentleman--rather to the gentlewoman from New Mexico, Ms. 
Wilson, to my two friends, the chairmen of the subcommittees, 
Mr. Green, and to the others, including my dear friend Mr. Burr 
who have worked on this matter. I commend them and I am 
appreciative of what it is they have done.
    I want to observe that this committee has made a 
significant effort to combat spam. During the past two 
Congresses we have reported legislation to protect consumers 
from the increasing amounts of commercial e-mail that fill in 
their in-boxes. Unfortunately, the legislation has yet to make 
it to the President's desk. I hope this year will be different. 
I would note that we are engaged in a discussion with members 
of the Judiciary Committee because of a rather unfortunate 
shared jurisdiction on this matter. I would note that the 
position of the other committee is one which strongly favors a 
much weaker and much less protective bill of the rights and the 
concerns of American consumers.
    As all of us are aware, the amount of spam clogging the 
information networks of this Nation has risen several fold 
since we last considered legislation on this matter. In fact, 
the volume has increased to such levels that it is degrading 
the usefulness of e-mail as a quick means of communication. For 
this reason, the call for action has constantly grown. Indeed, 
spam legislation now enjoys broad support across the political 
spectrum, even from industry groups that once opposed it. I am 
confident that the resolve of this House to pass strong 
legislation has increased and will grow as the people make 
their wishes and their concerns known.
    Today we find ourselves examining two bills. The first, 
H.R. 2515, is a strong bill put forward by two of the leaders 
on this issue: Mr. Green and Ms. Wilson. I am pleased to join 
with them and a bipartisan majority of the committee who are 
co-sponsors of the bill on which they are so well leading. The 
second, H.R. 2214, was introduced by my dear friend, Mr. Burr, 
along with Chairman Tauzin and Chairman Sensenbrenner. This 
bill has several unfortunate weaknesses. I remain hopeful that 
the competing bills can be reconciled into one strong bill. And 
I want to make clear my affection and respect for the sponsors 
of all of the legislation I discussed.
    Four criteria will tell us whether a compromise bill would 
provide immediate protection for consumers and would prevent 
network congestion. First, it must afford State attorneys 
general and the Federal Trade Commission, FTC, full enforcement 
authority over each provision in the bill. Lack of enforcement 
is simply to assure that we pass out nothing but a sham and a 
fraud. The Burr-Tauzin bill, and I say this with respect for 
its authors, fails to do this. It is unnecessary and wholly 
unprecedented to place arbitrary caps on the damages that State 
attorney generals may seek from serial spammers.
    And I have a couple of words to say about serial spammers 
and folk like that. We have a number of different things in 
this world for which we have no great affection. One is 
cockroaches and another is spammers. The Bible doesn't say what 
we can do about cockroaches, so we regard them as pernicious 
pests and step on them at every occasion. And it does tell us 
that we have to be kind to our fellow man. It doesn't say that 
we have to tolerate them clogging our in-boxes in our different 
electronic devices with the kind of nonsense and sometimes 
pernicious stuff that they dispense to their fellow citizens. 
And so we can step on them at least figuratively by bringing to 
a halt some of the more outrageous of their practices. I 
believe that the legislation that we are going to confront 
today has to address this fact.
    Second, the legislation should apply to all commercial e-
mail, and it should not contain limiting purposes or limiting 
primary purpose language that is found in the Burr-Tauzin bill. 
From a consumer's perspective, spam is spam, and in my 
experience, consumers find no distinction between good spam and 
bad spam. They call it all bad spam. The Burr-Tauzin bill would 
create a new category of legalized spam that would be exempt 
from the opt-out provision and from State regulation. I don't 
know anybody except those who would benefit from this that want 
this kind of arrangement. Smart marketers would seize this 
loophole to create spam that fits within this definition and is 
exempt from law.
    Third, the bill should also contain strong language 
protecting consumers, particularly children, from unwanted 
sexually oriented e-mail. Only the Wilson-Green bill ensures 
that consumers will not be required to view offensive material 
before opting out. This language is then critical and is 
crucial to a successful piece of legislation.
    Fourth, the bill must contain a sufficiently broad 
definition of affiliates so that consumers are not required to 
opt out of each affiliates' operation within a giant 
corporation. Let me take one for example: Citigroup has 
hundreds of affiliates, and Burr-Tauzin bill would require a 
consumer to individually opt out of each affiliate. These 
affiliates are functioning oft-times out of common mailing 
centers, are functioning together with coordinated operations, 
but the consumer will be propelled to submit to serial 
annoyances from each of them and to be like a fellow swatting 
flies to try and get a little bit of peace.
    In contrast, the Wilson-Green bill takes a much more 
sensible and consumer-friendly approach, one that the American 
people want. Simply stated, if affiliates can share a 
consumer's e-mail address, then they can also share that 
consumer's request to opt out of future spam. Very simple. If 
they can share it, they have to share two things: One, the 
address, and, two, the demand of a citizen which must be 
respected that they stop this nonsense.
    In crafting a compromise, we must remember that the twin 
purposes of this bill are to protect consumers from unwanted e-
mail and to help unclog our communications network. A bill that 
does not provide for strong enforcement or that creates a 
category of government-sanctioned spam will not achieve either 
of these important purposes which I strongly support. I would 
note that it will not stop the flood of filth on the Internet 
also. I, therefore, look forward to the witnesses' testimony on 
the two bills, and I urge my colleagues to make ready for a 
fight. Let us win this and let us stop this nonsense now. Thank 
you, Mr. Chairman.
    Mr. Upton. The gentleman's time has expired. I would note 
that we have three votes on the floor, which we will go for 1 
or 2 more speakers if we can. But I also remind members that if 
they defer their opening statement, they will get an extra 3 
minutes bonus for their first round of questioning. So let me 
just start that procedure. Mr. Shimkus?
    Mr. Shimkus. Thank you, Mr. Chairman. I am going to keep 
this short and I will take my opening statement. Two things are 
wrong. Spam delegitimizes the Internet as a viable marketing 
took, one. And worst of all, it exposes children to content 
that may be harmful for them to view or see, and that is one of 
the provisions in my colleague and good friend, Congressman 
Wilson and Congressman Green's bill that I would like to see 
become part of the law is that the Centers of Sexually Explicit 
Material include a warning label that lets the recipient know 
he or she will be going to a sexually explicit web site. This 
will help stop the brazen spammers who embed sexual material in 
the actual content of their e-mails.
    This gives me also an opportunity to talk about the dot-
kids-dot-us, which Congressman Markey and I and Congress Upton, 
which will come online we believe in September, which is a tool 
to help parents make sure that there is age-appropriate 
material for their kids when they are going through the web 
sites. So this is my opportunity to encourage all of you that 
don't know about dot-kids-dot-us or you companies in industry 
and interest groups, that is going to be a good opportunity to 
make sure your material is--if you want access to kids, that it 
is going to be suitable for children. So with that, Mr. 
Chairman, thank you for the time. I yield back.
    Mr. Upton. Okay. Mr. Boucher.
    Mr. Boucher. Thank you very much, Mr. Chairman. Spam is no 
longer just a nuisance to consumers. It has truly become an 
epidemic that carries a large economic cost. Today more than 40 
percent of all traffic on the Internet in terms of electronic 
mail is spam, and it is anticipated that very soon that number 
will exceed 50 percent. For example, AOL and Microsoft 
intercept each day more than 2 billion spam messages just 
between those companies.
    A solution is needed that will protect consumers and 
businesses and punish the abusers. Such a solution must include 
at a minimum three important factors: Vigorous enforcement, a 
workable definition of spam and strong consumer protections. 
First, spammers will not be deterred unless there is strong 
enforcement. I was recently pleased to join with 29 of our 
committee colleagues, a bipartisan majority, including 
Representatives Wilson, Green, Dingell, Markey and others, in 
introducing the Anti-Spam Act of 2003. Our legislation ensures 
that Internet service providers, State attorneys general and 
the Federal Trade Commission are given full authority to 
enforce vigorously all aspects of the Anti-Spam Act. 
Legislation without such enforcement is a tiger without teeth 
and will not stop spam abuse. Any legislation with strong 
preemption, which this bill, in fact both of these bills 
contain, must be matched by strong enforcement. Otherwise the 
States would lose their current authority to act in the 
consumer interest.
    Second, any legislation to reduce spam must define spam 
broadly enough to include what consumers normally considered to 
be junk mail. Common sense dictates that spam is commercial e-
mail that consumers do not want in their in-boxes. Accordingly, 
spam legislation must provide consumers with an ability to opt 
out of any e-mail with commercial content that they do not 
want. Alternative legislation takes a very narrow approach to 
the meaning of spam by defining spam as e-mail whose primary 
purpose is commercial, which, in effect, becomes a legal 
charter for companies to continue to flood in-boxes and burden 
ISPs.
    Third, the consumer opt-out must be simple and it must be 
effective. Out legislation does not require a consumer to opt 
out of each affiliate of a company in order to stop receiving 
unwanted e-mail. If a consumer does not want to receive a e-
mail from a company of all 100 of its affiliates, a single opt 
out should be effective. The alternative legislation would 
require the 100 opt outs.
    These three factors, vigorous enforcement, a common sense 
definition of spam and strong consumer protections, are 
essential as elements of legislation that will be effective in 
fighting spam. It is my hope that prior to committee markup we 
will be able to achieve consensus on these matters so that a 
broadly supported and truly effective measure can be presented 
to the House, and I look forward to working with our colleagues 
who are authoring both of these measures in order to achieve 
that goal. Thank you, Mr. Chairman. I yield back.
    Mr. Upton. Thank you. I would note that we have three votes 
that are pending. We have 9 minutes left in the first vote. 
Immediately when the three votes are done we will resume, which 
I would guess will be about 2:10. So we will stand adjourned.
    [Brief recess.]
    Mr. Stearns. The joint hearing of the Subcommittee on 
Telecommunications and the Internet and the Subcommittee on 
Commerce, Trade, and Consumer Protection will reconvene, and we 
will continue with the opening statements. The gentleman from 
California, Mr. Cox.
    Mr. Cox. Thank you, Mr. Chairman. I want to welcome back 
our panel and thank you for your forbearance during our floor 
votes. It is a very distinguished panel and we look forward to 
hearing from you. I want to thank you, Mr. Chairman, thank 
Chairman Upton as well for holding this important hearing on a 
maddening problem for all of us.
    Anyone who uses the Internet appreciates the time that our 
esteemed panel has devoted to studying this issue. Thank you 
also to Chairmen Tauzin and Sensenbrenner and of course Mr. 
Burr, the author of H.R. 2214, for your hard work in seeking to 
stem the rising tide of spam.
    I think Mr. Burr and his cohorts in this effort were very 
wise in choosing not to create a national do-not-spam list. I 
say that because while I favor such lists in the context of 
unwanted telephone calls and faxes, the nature of the Internet 
and more importantly the nature of most egregious spammers 
strongly suggest that offshore operators, criminal 
organizations frequently running fraudulent enterprises, would 
simply use the do-not-spam list as a useful list of new e-mail 
addresses, a fresh set of victims for their unwanted and often 
repulsive communications.
    Speaking of repulsive communications, I would also like to 
commend the sponsors of H.R. 2214 for creating tough civil and 
criminal penalties for pornographers who falsify header 
information. When someone presents a false identity or 
disguises the content of their e-mail by failing to include a 
warning label, we should throw the book at them. There are 
people who like pornography and there are people who abhor it, 
but no consumer should be misled or tricked by it. For that 
reason, I intend to work with the sponsors of the bill to go a 
bit further and apply to e-mail the same standard the law 
currently applies to physical mail. Congress should outlaw the 
sending of unsolicited pornography.
    The authors of H.R. 2214 also deserve great credit for 
ensuring that the cure to spam isn't worse than the disease. 
Specifically, the authors deserve credit for limiting the 
ability of class action lawyers to profit from spam. We have 
already seen how unscrupulous trial lawyers have profited 
handsomely from unwanted faxes thanks to a loophole in the 1991 
law that was intended to prevent them. Despite the lawyers 
getting rich, my constituents still write to me asking for 
relief from unwanted faxes. The Burr-Tauzin-Sensenbrenner bill 
wisely focuses its attention on helping consumers rather than 
simply authorizing lawyers to collect a new litigation tax. The 
great strength of H.R. 2214 is that it empowers consumers and 
Internet service providers, the people bearing the costs of 
spam in time and in hassle. It will create harsh penalties for 
those who inflict these costs.
    Finally, Mr. Chairman, I would note that spam doesn't have 
to be commercial to be annoying, to be costly or to be 
burdensome. Last week, I am sad to report the California 
Supreme Court in my home State issued a most peculiar ruling 
that needs legislative correction. The court held that the 
owner of a private computer network cannot use the law of 
trespass to prevent an intruder from sending 200,000 e-mails 
into that network. In this case, the network made repeated 
requests to the spammer to cease and desist, but the court said 
it could not find economic harm. I will soon introduce 
legislation to correct this injustice and ensure that 
trespassing is trespassing, whether the property is a piece of 
land or a computer server. I hope that the authors of H.R. 2214 
will consider this provision for inclusion in the final mark. I 
yield back, Mr. Chairman.
    Mr. Stearns. Thank the gentleman. Mr. Stupak?
    Mr. Stupak. Thank you, Mr. Chairman, and I would like to 
thank both chairmen for holding this hearing today, and I want 
to welcome our distinguished witnesses. Unfortunately, I will 
be in and out so I want to make this opening statement now, as 
I have a number of matters up in my office I have to attend to.
    I am concerned that this is now the third Congress in a row 
that this committee has addressed this issue, held hearings, 
markups and expressed commitment to combating spam. Yet while 
the flood of unsolicited e-mails is only growing, ISPs becoming 
more and more overwhelmed and consumers more aggravated, this 
committee seems to be moving in the wrong direction.
    I commend the chairman of the full committee and Mr. Burr 
for working on legislation to combat spam, but I am concerned 
that this bill is weaker than the legislation that has come 
through this committee in the past. I believe that the bill 
falls short due to insufficient enforcement and inadequate 
protection to consumers. Furthermore, we must do all that we 
can to protect parents and children from harmful pornographic 
e-mails, and this bill does not provide such protection. This 
is not the direction in which we should be going. This problem 
of spam is too big and too expensive to provide piece meal 
enforcement and inadequate remedies.
    Last, I remain concerned that unlike the bills in previous 
Congresses, this bill, or the bills pending before the 
committee today, do not contain a private right of action. I 
co-sponsored the legislation introduced by Representatives 
Wilson and Green. This bill has a number of--a good number of 
Democrats and Republicans on this committee in support of this 
legislation, and I am pleased that efforts were made to 
strengthen enforcement and provide protection from harmful 
pornographic e-mail in this legislation. However, unlike the 
last speaker, I would like to note that I think we should go 
even farther and provide for a private right of action and in 
fact for class actions. We must equip all injured parties with 
the tools they need to take action and ensure that we do not 
leave consumers out in the cold without an individual remedy. I 
look forward to hearing from the witnesses today about these 
bills and other measures that may be necessary in order to 
address this growing problem. Thank you, Mr. Chairman.
    Mr. Stearns. I thank the gentleman. I believe the 
gentlelady from New Mexico, Ms. Wilson. I remind all members 
that the opening statement is about 3 minutes, and we urge all 
of you, so we can move forward here because we got a late start 
because of the full committee markup and we are trying to get 
to our witnesses who have patiently waited through votes, and 
so I urge all of you to put it in part of the record if you 
can. Thank you.
    Ms. Wilson. Thank you, Mr. Chairman. I will submit a more 
complete statement for the record, but I do want to set a 
little bit the context in which we are meeting here today. Five 
years ago, Mr. Green from Texas and I started working on then 
what was a pretty obscure but annoying problem: spam or junk e-
mail. In the 106th Congress, we were able to pass the Wilson-
Green bill by 427 votes to 1, but the Senate did not take it 
up. And in the 107th Congress, our bill, H.R. 718, passed this 
committee by a unanimous voice vote and was scheduled for the 
floor the week of September 11. In this 108th Congress, we have 
now introduced H.R. 2515. It now has 56 co-sponsors, including 
30 of the 57 members of this committee--10 Republicans and 20 
Democrat co-sponsors. A majority of this committee is a co-
sponsor of the bill.
    What was an obscure issue in 1998-1999 by 2001 started to 
become a serious problem when it was estimated that 7 percent 
of all e-mail was junk e-mail or spam and is now overwhelming 
consumers on the Internet with estimates being 40 to 50 percent 
of e-mail being spam on the Internet at a cost of some $10 
billion per year, all of that cost paid for by the recipients 
and not by those doing the advertising. Fifty percent of 
children between 7 and 18 years of age report getting 
pornographic spam in their e-mail boxes, and we have seen in 
the last couple of years that the promise of technological 
solutions have failed. Even if you are blocking 80 percent of 
the spam with your filtering technology, the 20 percent that is 
getting through is still overwhelming people's in-boxes. We are 
now at the tipping point, I believe, where we are actually 
discouraging use of e-mail, impeding commerce, and e-mail is 
now becoming not a reliable or useful communications tool.
    So what must good policy do? I think it has to have a 
strong civil and criminal penalties for fraudulent e-mail. We 
have to make sure that we protect consumers and children 
particularly from sexually oriented messages. We have to have 
clear definitions without loopholes on what spam is. If the 
technical loopholes are the joy of spammers today, we certainly 
don't want to create legal loopholes for them to be exploited 
by spammers tomorrow. Consumers have to have a right to say, 
``No. Take me off your list.'' And that right has to be 
respected and enforceable. We have to have strong enforcement 
mechanisms, particularly if there is no private right of action 
in the bill.
    I think we are at a tipping point. If we don't get strong 
anti-spam legislation this year, the problem may rapidly be 
getting to such a point that only an outright ban or an opt-in 
approach will be enough. You know, it might be reasonable to 
ask people for one or two opt-outs a day to protect their 
rights and protect the rights of free speech, but is it 
reasonable to ask a consumer to have to do that 100 times a 
day? Possibly not, and I think we are rapidly getting to that 
point where we may have to take more extreme action analogous 
to the junk fax law if we are unable to get meaningful 
legislation passed in this Congress.
    Spam has become a significant problem that threatens to 
cripple the Internet and the worldwide e-mail system and it is 
about time we address it.
    Mr. Stearns. I thank the gentlelady.
    Mr. Davis from Florida. The gentleman passes.
    Mr. Green? Mr. Green is not here.
    Mr. Wynn.
    Mr. Wynn. Thank you, Mr. Chairman. I really appreciate you 
calling this hearing today. Let me just make the observation 
that combined with our efforts on the do not call list, this 
effort against spam could make us a truly pro-consumer 
committee. Spam e-mails are unsolicited advertisements that 
flood the Internet in an attempt to advertise an issue or 
product to people who may not otherwise choose to receive it, 
and cost a tremendous amount of money. It accounts for about 50 
percent of e-mail traffic, and this number is only expected to 
rise. Just today, a staffer said she had received over 78 spam 
e-mails before lunchtime.
    Spam e-mails, as opposed to junk mail, costs the sender 
very little to distribute, with most of the costs paid for by 
the recipient through increased Internet access, cost and time. 
According to the Fight Spam! web site, AOL was receiving 1.8 
million spam e-mails from a single company each day until AOL 
got a court injunction to stop it. Just this one example cost 
AOL consumers 5,000 hours of connect time daily to discard this 
spam.
    Additionally, fighting spam has emerged as a leading 
business issue. One reported estimate found that spam cost 
businesses up to $10 million each year primarily due to the 
implementation of anti-spam technology and lost productivity. 
The issue of spam is not simply limited to annoying 
advertisements. It may also be a catalyst for fraud. An article 
in the Jefferson City, Missouri News Tribune recently outlined 
a national spam scam. The sender sent an e-mail to many 
consumers stating concern over a credit card purchase at Best 
Buy. The e-mail instructed the individuals to visit a special 
web site to resolve the situation by entering their credit card 
and social security numbers. As a result, Best Buy fielded 
thousands of calls from consumers regarding the fraudulent e-
mail and needed to tell them to disregard the message or, if 
they had already entered their personal information, to notify 
their banks, credit card companies and the FTC's identify theft 
program. The scheme cost Best Buy and consumers time and money. 
Luckily, authorities were able to shut down the web site within 
2 hours, however much damage had already been done. The Tribune 
equated the scam to an electronic hit and run.
    I am very pleased to be a co-sponsor of the Wilson-Green 
anti-spam measure to protect consumers against spammers. This 
is a measure that would provide effective spam counter measures 
and enforcement measures against those individuals who 
fraudulently e-mail consumers. The bill would allow consumers a 
real opt-out solution and afford the Federal Trade Commission 
and, importantly, State attorneys general and the Internet 
service providers full enforcement authority over the bill's 
civil provisions, providing a much needed enforcement 
mechanism.
    I look forward to hearing from our panelists and learning 
more about how we may fight spam and continue our tradition of 
being true consumer advocates. I relinquish the balance of my 
time.
    Mr. Stearns. Thank the gentleman. The gentleman from 
Arizona.
    Mr. Shadegg. I thank the chairman and commend him for 
holding this hearing. I also commend the chairman of the 
Subcommittee on Telecommunications and the Internet. I think 
this is a critically important topic, and I believe it is 
important that we move legislation as quickly as possible. I 
will insert my full statement in the record, however, before 
doing so I want to thank our witnesses for appearing today. I 
look forward to their testimony, and I want to associate my 
remarks with those of the gentleman from California, Mr. Cox. I 
believe in fact we can go a little further in this legislation, 
and I share his concern about unsolicited pornographic 
material. And with that I yield back the balance of my time.
    Mr. Stearns. I thank the gentleman.
    The gentleman from Texas.
    Mr. Green. Thank you, Mr. Chairman, and I understand we 
have reduced our opening statements to 3 minutes, and I will be 
brief as I can and ask permission to have the full statement 
put in the record.
    Mr. Stearns. By unanimous consent, so ordered.
    Mr. Green. My colleague, Congresswoman Wilson and I have 
been working on this. This is our third term on this, and I 
want to thank her for the cooperation we have done, and it 
looks like we are going to be able to pass strong legislation, 
and that is what I would hope to see. I know that our hearing 
will talk about the two differences between the Wilson-Green 
legislation and the H.R. 2214, the Burr bill, and at last count 
we have at least 25 members of our committee, 10 Republicans 
and 19 Democrats which I believe is the majority that has co-
sponsored our bill, and I hope that after publicly defining 
clear differences, that the negotiations will continue. We have 
had some very successful negotiations to reach a consensus 
committee position.
    The Wilson-Green bill is about closing loopholes and 
putting real teeth in anti-spam policy. We all know the urgency 
of the problem. It is all over our front pages; in fact, in the 
latest Consumer Reports talked about how to stop spam. Three 
sessions ago when we started on this, we thought the--I 
actually thought maybe technology could deal with it, but we 
now know that technology can't do it. Otherwise we wouldn't 
have all the ISPs here interested in passing as strong a bill 
as possible.
    Many of my constituents are lower income and minority folks 
who draw on these new technologies for communication and 
information benefits. If people new to the Internet continue to 
meet these online scams that we have, offensive material and 
the burden of overwhelming spam, they will be turned off and 
not take advantage of these new technologies. That is why it is 
so important.
    I would hope to have our principles, one, I think we need 
to empower the States. The States are doing some really 
innovative efforts, but at the same time provide Federal 
solution to the problem of spam. And, ultimately, as the 
chairman said, do something internationally with our neighbors 
who also have the same problem. With that, I will yield back my 
time and will place my statement in the record.
    Mr. Stearns. I thank the gentleman.
    The gentleman from California, Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman. I will be brief. I am 
pleased to have this opportunity today to discuss the growing 
problem, the epidemic growing problem of electronic junk mail, 
or spam. In the years that I spent in the electronics industry 
and running a small business, I watched the Internet and e-mail 
grow, but it was only toward the end of my time in the private 
sector that spam began to become a real and ongoing problem. 
Today, an entire industry is trying to deal with this problem 
and doing it without government assistance. The absence of 
action by this body, both here in this committee and the 
Judiciary, has led to a problem that can only be resolved by 
action.
    There are products today which through great effort and 
expense deal with spam somewhat, but they are not available to 
the common user nor are they likely to be. Products with anti-
spam agents, such as surf control, do a very effective job of 
getting rid of 97, 98, perhaps even 99 percent both of sites 
that would be offensive and of unwanted e-mail. However, to do 
this they have to add digital signatures on a daily basis to 
each and every spam site. This, of course, means that the 
spammers are working ever harder to try to get ahead of 
organizations like this, and the cost of doing this continues 
to rise.
    There is no question that this body has the ability to 
enact digital signatures. We certainly took a lead when we put 
in the V-chip technology some years ago in order to categorize 
information. Other suggestions to help deal with this problem 
include, if you will, sort of a Good Housekeeping seal or a 
positive enforcement of somebody who in fact agrees not to be a 
spammer and is checked on that basis.
    Many of the pieces of legislation that we will be 
considering in the days to come attempt to deal with a portion 
of this product. I am convinced that no one bill has all the 
answers, that in fact both here at this hearing today and in 
working with industry and in combining the best features of 
multiple bills will be the only way that we will succeed in 
providing the leadership that the government has in harmony 
with commerce in the private sector. With that, I yield back 
the balance of my time.
    Mr. Stearns. Thank the gentleman. Mr. Davis? Oh, that is 
right, you passed. She is not here, Ms. McCarthy. Ms. Eshoo, 
yes.
    Ms. Eshoo. Thank you, Mr. Chairman, and to Chairman Upton 
and Chairman Tauzin for holding what I think is really one of 
the more important hearings that we could be having on an issue 
that is affecting far too many people in this country. And I 
know that this is going to be a worthwhile hearing given the 
distinguished panel that is here, including Mr. Hirschman of 
Digital Impact. The company is in the city of San Mateo which 
is just outside my congressional district, but I think many of 
your employees are my constituents, so a special welcome to you 
here today.
    We have to get this right. If we don't, the American people 
are going to come right back to us. This is not something that 
is fuzzy or blurred. This is an interruption in their lives 
every single day. They pay for a service and someone else plays 
with it and jams their in-boxes. And so we have the 
responsibility to be very clear in terms of legislation that 
what we do will be effective and it will be effective because 
it will be enforced. And most frankly, if we miss the mark on 
this, I know that we will be asked to come back to square one, 
because there are too many that are being affected by this.
    And the numbers are really staggering. According to E-
Marketer, 76 billion spam e-mails will be delivered this year. 
Fifty percent of kids have received e-mails containing 
pornographic or sexually explicit information. That is a lot. I 
mean 50 percent is a lot. And U.S. businesses will spend close 
to $10 billion to fight spam this year. And marketers are 
brazenly claiming, and they did this just last week, that the 
success of the do not call list will drive them to send even 
more spam, costing U.S. business and consumers even more. So, 
clearly, it is an issue that we have to address. And why would 
they do that? Because, obviously, they have been chased away 
from using one medium, and it is far cheaper, by the way, to do 
e-mails, to do spam. It is just pennies per thousand.
    So I am pleased to be a co-sponsor of the Wilson-Green 
bill. I think, No. 1, it is important to have many ideas 
introduced in the Congress, but I think that this is the bill 
that really comes the closest to resolving things in an 
effective and very clear way for the people that we represent. 
I think if the House had passed their bills in either of the 
previous two Congresses, we wouldn't be facing the spam 
epidemic that we have today.
    So I look forward to questioning the witnesses on the 
differences between the bills that are under consideration and 
by my friends, Mr. Burr and Mr. Tauzin. What I am confident of 
is that I think we can work to iron out the differences. We 
need your considered opinions today, and that is why hearings 
are so important here. And I also think that obviously that 
strong enforcement language is ultimately going to have to 
carry the day, because if something doesn't have teeth in it, 
then most frankly it is pretty language but not really worth 
much than the paper that it is written on.
    So welcome to all the witnesses, and thank you to all of 
the chairmen for having this hearing today. I think it is one 
of the more important ones that we can have, because I think 
that this year, not next year but this year, in this Congress 
we should pass stringent spam legislation. Thank you, Mr. 
Chairman.
    Mr. Stearns. Mr. Ferguson is recognized.
    Mr. Ferguson. Thank you, Mr. Chairman. I want to thank you, 
Mr. Chairman for holding this hearing. It is about a matter 
that faces all of us who use the Internet and all of us who 
rely on e-mail as an important and a viable form of 
communication.
    Spam isn't only a nuisance, it is a serious threat to the 
feasibility of the Internet and to children who potentially can 
be bombarded by graphic images that their parents or anyone in 
a responsible position would not them to see. The prolific 
emergence of spam on the Internet is alarming. The estimates 
range up to 60 percent of all e-mail traffic is unsolicited 
commercial e-mail, or spam. Forms of this unsolicited e-mail 
can vary from advertisements for products to fraudulent scams 
to pornography. Now, my wife and I have three young kids. They 
are not Internet users yet, but I hope that they will be 
someday soon. But I will tell you, I have real serious concerns 
about them using the Internet and using e-mail if they are 
going to be subjected to the same sort of bombardment of 
messages that I know I am and others like me are subjected to.
    We have to protect e-mail users against the proliferation 
of fraud over spam. We have to punish those who invade our e-
mail use and people who use misleading header and routing 
information and those who want to falsify their identify. In 
short, I believe that we have to do everything we can to curb 
the overwhelming bombardment that spam has unleased on our in-
boxes.
    Mr. Chairman, again, I want to thank you for having this 
hearing, and I look forward to the testimony of our panelists 
and to hear their suggestions how we can come up with a 
solution to this growing problem. I yield back.
    Mr. Stearns. The gentlelady, Ms. McCarthy?
    Ms. McCarthy. Mr. Chairman, thank you very much for this 
important hearing, and I thank the witnesses too for taking 
time to come before us and share their wisdom on this important 
issue. I served in the Missouri State legislature for 18 years 
before coming to Congress and was very active in the National 
Conference of State Legislatures, and so I want to assure the 
panelists and the experts here today and you, Mr. Chairman, 
that, yes, there is a Federal rule and it is very important 
nationally and internationally for us to become wise to do what 
we can to help consumers with this problem, but also have to be 
in partnership with the State attorney generals who are out 
there struggling State by State right now trying to put in 
place something that will work at the State level. And so as we 
go forward with our legislation, let us also hear from those 
who have been working with the States so that we are in tandem 
with what State attorney generals are attempting.
    We almost passed a bill successfully in the Missouri 
legislature this past session, but Microsoft came in and killed 
it because we will find out why perhaps later today or in the 
course of our journey, but in any event, Mr. Chairman, this is 
a very, very important issue, and I am so very grateful to you 
for having this hearing, and I am grateful to each and every 
one of you for coming and enlightening us and making us wiser 
so that we can act in the best interest of the people. Thank 
you.
    Mr. Stearns. Thank the gentlelady.
    Ms. McCarthy. Yield back.
    Mr. Stearns. And author of the bill, 2214, Mr. Burr.
    Mr. Burr. Thank you, Mr. Chairman. I would like to thank 
all of my colleagues on the committee for what I think has been 
a very thoughtful opening statement process so far. Mr. 
Chairman, we have a very difficult balance to reach. The 
difficult balance is to make sure we produce a piece of 
legislation that makes it through the House of Representatives 
and to accomplish that we have to work with our colleagues in 
the Judiciary Committee who have not been in the past as open 
to move legislation, legislation that potentially went too far. 
I am proud to say that we have worked with them very closely. 
They have been tremendous partners, as have Mr. Dingell and 
many on the minority side as we have tried to negotiate closer 
on some issues. I am not sure if we can get to closure on all 
of them, but we are 98 percent of the way there, and I think it 
explains just how difficult some of the things that we are 
trying to accomplish are. We don't want this to face a 
constitutional test down the road on this issue or that issue.
    I think there is one thing that we can all agree on. One, 
we would all like to get the discount airfare offers, we would 
like to get the discount hotel offers. We never know when they 
are going to be advantageous to us. We would all like to get 
rid of the pornography that comes in. And the fact is that 
those that want to get around what we designed will do it. They 
are going to find a way to do it. So don't one of us walk away 
from here and believe that we can create a trap that eliminates 
all of it, because the only way to do that is to flip the power 
switch on the back of the computer.
    The industry has spent a tremendous amount of money, and 
they deserve a lot of credit for what they have done to try to 
filter, but when you have got individuals that intend on 
getting from point A to point B regardless of how they get 
there, trust me, at some point they are going to get there. So 
I think that there is a certain amount that we have to accept 
that we can't stop. And there is a certain amount that we want 
to protect that can get there. That is the difficult balance.
    I don't perfect to be an expert on this. That is why you 
folks are here today, and I commend for your willingness. By 
the same standpoint, I agree with Ms. Eshoo. She has been a 
good friend, and we have a big responsibility, and we have to 
get it as close to right as we possibly can. I have worked on a 
lot of legislation in 9 years. I can't say that I have ever 
done anything here that is perfect. This will not be perfect. 
But I also want to make sure that when we complete this process 
that the House passes a bill this time. And I would urge all of 
my colleagues to understand that we have other partners, many 
in the Judiciary Committee, ultimately on the House floor that 
we have to pass the test with if in fact we want this bill to 
have a chance to become law. What the American people want is 
legislation that is signed into law and not something that is 
just moved through committee and then dies a quick death.
    Mr. Chairman, I thank you, Chairman Upton, Chairman Tauzin, 
Mr. Dingell, and I encourage all of the members of the 
committee to listen extremely carefully to the answers by these 
witnesses today. I thank you, Mr. Chairman.
    Mr. Stearns. Thank the gentleman. The gentlelady from 
California, Ms. Solis.
    Ms. Solis. Thank you, Chairman Upton. I would like to also 
thank the witnesses for being here, and I would like to request 
unanimous consent to submit my statement for the record.
    Mr. Stearns. And by unanimous consent, so ordered.
    Ms. Solis. And just like to briefly raise a point. In our 
State of California, we have been very aggressive on this issue 
of spam, and our Attorney General Lockeer there set up some 
different provisions and actually went out and filed a first 
lawsuit in L.A. County. He has also been criticized because we 
haven't gone far enough. So, certainly, the State solutions 
that are being offered I think in 30 States probably isn't 
enough, and we do need to find a Federal solution, so I hope 
today in listening to the comments that we hear from all of you 
that we will come up with some genuine ability to start looking 
at how we can address this issue. So thank you, Mr. Chairman.
    Mr. Stearns. I thank the gentlelady.
    Ms. Cubin?
    Ms. Cubin. Thank you, Mr. Chairman. I don't have much to 
say about the subject that hasn't been said by other members, 
but I would like to share an excerpt of an e-mail that I 
received from a constituent that I think typifies the problem 
that people are facing all across the country. Jeannie Wright 
from Douglas, Wyoming wrote to me, ``Dear Representative Cubin, 
I am writing in support of the idea to stop the ocean of 
pornographic e-mail. At my work address, I receive 
approximately 30 such messages per week. Having never been a 
viewer of pornography, you can imagine my disgust at receiving 
messages in which explicit photos automatically appear. You 
don't have to click on anything, they just appear on the 
screen. For instance, last week, my daughter and a client were 
in my office when a photo of a sexual act appeared on my screen 
as I was searching for a work-related message I had been 
expecting. How very embarrassing for me and the client and what 
a lot to try to explain to my 8-year-old daughter, not to 
mention my boss. These messages make me feel like a victim.
    Nasty people I do not know and to which I cannot respond 
are sending me sexually explicit garbage at the place of my 
work. Many of the messages offer you a link to unsubscribe. 
Only about 5 percent of those links are legitimate. The rest do 
not exist. When I try responding to the e-mail messages, those 
addresses cannot be found, and the e-mail comes back to me. 
There is no identifying information on these messages, so I 
can't even call a phone number and demand that it be stopped. I 
am afraid to log onto the web sites suggested by the e-mails 
for fear I will appear on another spam list and receive even 
more. For now, my only answer is to continue receiving these 
messages.''
    This is clearly a troubling situation, and the Congress has 
been called upon to act. Making hardworking, taxpaying, law 
abiding moms and dads explain the smut that appears on their 
computers to their children and their colleagues should not and 
cannot be tolerated. Mrs. Wright, like many who have contacted 
their representatives, ought not feel like they are victims. 
Instead we need to empower Americans to stop the madness. 
Giving folks the tools to stop the onslaught on the in-boxes is 
the right thing to do. We already have enacted a national do 
not call registry, and the same principles of consumer 
empowerment are incorporated into these anti-spam bills.
    Additionally, I intent to extend these principles to 
unsolicited faxes by introducing legislation to update the law 
to require more information and clear opt-out instructions for 
recipients of junk faxes. I look forward to hearing our 
witnesses, and I thank you for your patience and your time 
waiting for us today. I yield back.
    Mr. Stearns. Thank the gentlelady. Mr. Engel, the gentleman 
from New York.
    Mr. Engel. Well, thank you, Mr. Chairman. I want to start 
by expressing a bit of frustration that we find ourselves here 
again. Obviously, this is not a new issue; in fact, as Ms. 
Wilson pointed out, in the 106th Congress the House passed a 
version of the Wilson-Green bill of which I am proud to be a 
co-sponsor, and this committee passed the Wilson-Green bill in 
the 107th. The only difference today is the sheer volume of 
unsolicited commercial e-mail, or spam, that exists. It is a 
staggering 9.3 billion messages per day.
    I just wanted to point out three parts of the Wilson-Green 
bill that make it a better bill than the others. First are the 
enforcement provisions for State attorneys general. Simply put, 
the Wilson-Green bill allows them to do their jobs. Provisions 
of the Rid Spam Act basically mean the attorney general of New 
York, my home State, would never pursue such a case. Why? 
Because of the $1 million cap. The fact is New York is a much 
more expensive place to live and work. Such a restriction 
especially in these difficult financial times with the States 
would make pursuing such litigation a poor use of taxpayer 
dollars.
    The Wilson-Green bill also gives the ISPs greater power to 
pursue the culprits who are degrading their networks. We all 
know this is not like the U.S. postal system where direct 
marketers pay for the use of the system. This is in fact the 
opposite. A spammer can send thousands of messages for pennies. 
The true cost is borne by the companies that maintain the 
network infrastructure, from the telephone and cable lines the 
data travels on, to the computers that the e-mails land in. The 
ISPs are being hurt, and we have an obligation to update our 
Nation's laws to provide them with tools to protect their 
investment.
    A second issue is one of fairness to the consumer. When a 
consumer opens a bank account at Citibank, Citibank can share 
that person's information with its affiliates, such as its 
credit card system, to market to that person. It is not too 
much that if that person, one of our constituents and a client 
at that bank, indicates to Citibank a desire not to receive 
unsolicited commercial e-mails, that Citibank puts that into 
the information it shares with its affiliates. And thus the do 
no spam request follows through.
    Finally, the last thing I will mention, and it is not a 
small issue, as my colleagues have also mentioned, is the 
sexually explicit e-mails. They are obviously disgusting and my 
constituents are fed up with them. Wilson-Green adopts the 
tried and tested and proven approach of the postal system, a 
blank e-mail with just a link similar to how it goes through 
the postal system. The Rid Spam Act only requires an indication 
that sexually explicit material is part of the e-mail, but the 
e-mail could include sexually graphic pictures. That is simply 
not good enough.
    I regret that we still find ourselves debating this issue. 
I deeply regret that instead of easily passing such an 
important bill we are now devolving into two camps. This is a 
very troubling development. It is my fervent hope that we will 
work--the chairman will work with Mrs. Wilson, Mr. Green and 
Mr. Dingell to find common ground and move a bill 
expeditiously. And I yield back and I thank you.
    Mr. Stearns. I thank the gentleman, and I believe the 
gentleman from New Hampshire is going to forego his opening 
statement, so with great expectation we bring up the panel. Mr. 
Howard Beales, Director, Bureau of Consumer Protection, the 
Federal Trade Commission; Mr. Charles Betty, president and CEO 
of Earthlink; Mr. Charles Curran, assistant general counsel, 
America Online; Mr. Ira Rubinstein, associate general counsel, 
Microsoft Corporation; Mr. Paul Misener, vice president for 
Global Policy, Public Policy, Amazon.com; Mr. Kenneth 
Hirschman, vice president and general counsel, Digital Impact; 
Ms. Paula Selis, senior counsel, Washington State Attorney 
General; and Mr. Christopher Murray, legislative counsel, 
Consumer Union. Welcome, all of you, and we will just start 
with Mr. Beales, from my left to my right.

    STATEMENTS OF J. HOWARD BEALES III, DIRECTOR, BUREAU OF 
 CONSUMER PROTECTION, FEDERAL TRADE COMMISSION; CHARLES GARRY 
BETTY, PRESIDENT AND CEO, EARTHLINK; CHARLES CURRAN, ASSISTANT 
  GENERAL COUNSEL, AMERICA ONLINE; IRA RUBINSTEIN, ASSOCIATE 
  GENERAL COUNSEL, MICROSOFT CORPORATION; PAUL MISENER, VICE 
PRESIDENT FOR GLOBAL POLICY, PUBLIC POLICY, AMAZON.COM; KENNETH 
HIRSCHMAN, VICE PRESIDENT AND GENERAL COUNSEL, DIGITAL IMPACT; 
PAULA SELIS, SENIOR COUNSEL, WASHINGTON STATE ATTORNEY GENERAL; 
  AND CHRISTOPHER MURRAY, LEGISLATIVE COUNSEL, CONSUMER UNION

    Mr. Beales. Thank you, Mr. Chairman and members of the 
subcommittee. I am pleased to be here today to discuss the 
challenges presented by bulk, unsolicited commercial e-mail, 
better known as spam. Protecting consumers' privacy has become 
a principal focus of the FTC. Consumers are concerned about 
their privacy, including unwanted intrusions into their daily 
lives. Spam is one of the biggest such intrusions. Everyone 
enjoys reading the e-mail they want, whether messages are from 
friends or news about a sale at your favorite store. Today, 
though, our in-boxes are clogged with unwanted, objectionable 
and fraudulent messages. Spam is threatening to destroy the 
benefits of e-mail.
    Two factors make spam different from other forms of 
marketing. One is that unlike telemarketing or direct mail with 
e-mail it is very easy to hide one's identity or to cross 
international borders. E-mail can be sent from anywhere to 
anyone in the world without the recipient knowing who sent it. 
The cost structure of e-mail is another difference between spam 
and other forms of marketing. Sending additional spam costs the 
spammer little or nothing. Instead, recipients and Internet 
service providers bear most of the costs.
    The problems caused by spam go well beyond the annoyance it 
causes to the public. These problems include the fraudulent and 
deceptive content of most spam messages, the sheer volume of 
spam being sent across the Internet and the security issues 
raised because spam can be used to disrupt service or as a 
vehicle for spreading viruses. In February of 2002, we 
announced the FTC's first systematic crackdown on deceptive 
spam. Since then we have tackled spam on three fronts: Law 
enforcement, education and research. To date, we have announced 
54 law enforcement actions targeting deceptive spam, and the 
staff continues to investigate and prepare new cases. Among 
other unfair and deceptive practices, we have challenged 
spoofing, the practice of forging the from line in an e-mail to 
make it appear that the e-mail was sent from an innocent third 
party. We challenged that as an unfair practice. We have also 
challenged deceptive subject line information, false remove-me 
representations, false representations that a service could 
stop spam from other sources, false claims that buying a 
spamming business opportunity could make you rich.
    The Commission has also been active in business and 
consumer education efforts and with its research efforts. As 
you know, we recently conducted a 3-day spam forum to explore 
and encourage progress toward potential solutions to the 
detrimental effects of spam. The consensus of all participants 
in the workshop was that a solution to the spam problem is 
critically important but cannot be found overnight. There is no 
quick or simple silver bullet; rather, solutions must be 
pursued from many different directions: Technological, legal 
and consumer action.
    Right before the forum we announced the FTC spam study. 
Only 16.5 percent of the spam we analyzed advertised a 
legitimate product in a legitimate manner; that is, without 
clear indicia of falsity. We also conducted the remove-me surf 
to examine removal representations in spam. Contrary to the 
belief that responding to spam guaranteed that you would 
receive more of it, 63 percent of the removal links and 
addresses in our sample simply did not function. Additionally, 
in our spam harvest, we examined how computer harvesting 
programs pick up consumers' publicly posted e-mail addresses 
leading to, you guessed it, more spam.
    We have used our research findings to develop informative, 
high impact materials to educate consumers and businesses on 
spam. Our spam web site has a wealth of information about how 
to avoid spam in the first instance and what to do if you 
receive it. There is no single cure for spam. Instead, a 
balanced blend of technological fixes, business and consumer 
education, legislation and enforcement will be required.
    Today's focus, obviously, is on legislation. There are 
three issues that any spam legislation must confront to 
effectively deal with the spam problem. First, legislation must 
address how to find the person sending the spam messages. 
Although technological changes will most effectively deal with 
this issue, we have proposed several procedural legislative 
changes that can provide some assistance in our law enforcement 
investigations. Second, legislation must deal with how to 
punish the person sending the spam messages. Civil penalties 
and possibly criminal sanctions would help address this issue. 
Finally, legislation must determine what standards will govern 
non-deceptive, unsolicited commercial e-mail. These standards 
should include clear identification of the sender of a message 
and empower consumers to end the flow of messages that they do 
not wish to receive.
    Our written testimony and our earlier reauthorization 
testimony set forth specific legislative changes that we would 
welcome along with several important principles that potential 
spam legislation should consider. E-mail provides enormous 
benefits to consumers and businesses as a communication tool. 
The increasing volume of spam coupled with its widespread use 
as a means to perpetrate fraud and deception put these benefits 
at serious risk. We look forward to continuing our research, 
education and law enforcement efforts to protect consumers and 
businesses from the onslaught of unwanted messages. We 
appreciate the opportunity to describe our efforts, and I look 
forward to your questions.
    [The prepared statement of J. Howard Beales III follows:]
    Prepared Statement of J. Howard Beales III, Director, Bureau of 
             Consumer Protection, Federal Trade Commission
    Mr. Chairman, the Federal Trade Commission appreciates this 
opportunity to provide information to the Committee on the agency's 
efforts to address the problems that result from bulk unsolicited 
commercial email (``spam''). This statement discusses the Commission's 
law enforcement efforts against spam, describes our efforts to educate 
consumers and businesses about the problem of spam, and focuses 
particularly on the Commission's recent Spam Forum and several studies 
on the subject that the Commission's staff has undertaken in recent 
months. It also discusses legislative ideas to enhance the Commission's 
effectiveness in fighting spam.<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ The views expressed in this statement represent the views of 
the Commission. My oral statements and responses to any questions you 
may have represent my own views, and not necessarily the views of the 
Commission or any other Commissioner.
---------------------------------------------------------------------------
    As the federal government's principal consumer protection agency, 
the FTC's mission is to promote the efficient functioning of the 
marketplace by acting against unfair or deceptive acts or practices and 
increasing consumer choice by promoting vigorous competition. To 
fulfill this mission, the Commission enforces the Federal Trade 
Commission Act, which prohibits unfair methods of competition and 
unfair or deceptive acts or practices in or affecting 
commerce.<SUP>2</SUP> Online commerce, including unsolicited commercial 
email, falls within the scope of this statutory mandate.
---------------------------------------------------------------------------
    \2\ The FTC has limited or no jurisdiction over specified types of 
entities and activities. These include banks, savings associations, and 
federal credit unions; regulated common carriers; air carriers; non-
retail sales of livestock and meat products under the Packers and 
Stockyards Act; certain activities of nonprofit corporations; and the 
business of insurance. See, e.g., 15 U.S.C. Sec. Sec. 44, 45, 46 (FTC 
Act); 15 U.S.C. Sec. 21 (Clayton Act); 7 U.S.C. Sec. 227 (Packers and 
Stockyards Act); 15 U.S.C. Sec. Sec. 1011 et seq. (McCarran-Ferguson 
Act).
---------------------------------------------------------------------------
    The problems caused by unsolicited commercial email go well beyond 
the annoyance spam causes to the public. Indeed, these problems include 
the fraudulent and deceptive content of most spam messages, the 
offensive content of many spam messages, the sheer volume of spam being 
sent across the Internet, and the security issues raised because spam 
can be used to disrupt service or as a vehicle for sending viruses.

                             FTC SPAM FORUM

    Building upon our research, education, and law enforcement efforts, 
the FTC held a three-day public forum from April 30 to May 2, 2003 on 
spam email. This was a wide-ranging public examination of spam from all 
viewpoints. The Commission convened this event for two principal 
reasons. First, spam is frequently discussed, but facts about how it 
works, its origins, what incentives drive it, and so on, are not widely 
known. The Commission anticipated that the Forum would generate an 
exchange of useful information about spam to help inform the public 
policy debate. This could help the Commission determine what it might 
do to more effectively fulfill our consumer protection mission in this 
area. Second, the Commission sought to act as a potential catalyst for 
solutions to the spam problem. Through the Forum, the Commission 
brought to the table representatives from as many sides of the issue as 
possible to explore and encourage progress toward potential solutions 
to the detrimental effects of spam.
    Virtually all of the panelists at the Commission's recent Spam 
Forum opined that the volume of unsolicited email is increasing 
exponentially and that we are at a ``tipping point,'' requiring some 
action to avert deep erosion of public confidence that could hinder, or 
even destroy, email as a tool for communication and online commerce. In 
other words, as some have expressed it, spam is ``killing the killer 
app.'' The consensus of all participants in the workshop was that a 
solution to the spam problem is critically important, but cannot be 
found overnight. There is no quick or simple ``silver bullet.'' Rather, 
solutions must be pursued from many directions--technological, legal, 
and consumer action. The Forum explored and helped to suggest paths to 
follow toward solving the spam problems. Such solutions will depend on 
cooperative efforts between government and the private sector.

                            LAW ENFORCEMENT

    The Forum is only the most recent example of the FTC's role as 
convener, facilitator, and catalyst to encourage that activity. But the 
Commission also plays another important role--that of law enforcer. For 
example, the Commission has pursued a vigorous law enforcement program 
against deceptive spam, and to date has brought 54 cases in which spam 
was an integral element of the alleged overall deceptive or unfair 
practice. Most of those cases focused on the deceptive content of the 
spam message, alleging that the various defendants violated Section 5 
of the FTC Act through misrepresentations in the body of the 
message.<SUP>3</SUP> More recently, the Commission has expanded the 
scope of its allegations to encompass not just the content of the spam 
but also the manner in which the spam is sent. Thus, FTC v. G. M. 
Funding <SUP>4</SUP> and FTC v. Brian Westby <SUP>5</SUP> allege (1) 
that email ``spoofing'' is an unfair practice,<SUP>6</SUP> and (2) that 
failure to honor a ``remove me'' representation is a deceptive 
practice. In each of these cases, the defendants' email removal 
mechanisms did not work and consumers' emailed attempts to remove 
themselves from defendants' distribution lists were returned as 
undeliverable.
---------------------------------------------------------------------------
    \3\ E.g., FTC v. 30 Minute Mortgage, Inc., No. 03-60021 (S.D. Fla. 
filed Jan. 9, 2003)
    \4\ No. SACV 02-1026 DOC (C.D. Cal. filed Nov. 2002)
    \5\ No. 032-3030 (N.D. Ill. filed Apr. 15, 2003).
    \6\ ``Spoofing'' involves forging the ``from'' or ``reply to'' 
lines in an email to make it appear that the email was sent from an 
innocent third-party. The third party then receives bounced-back 
undeliverable messages and angry ``do not spam me'' complaints.
---------------------------------------------------------------------------
    Westby is also the first FTC case to allege that a misleading 
subject line is deceptive because it tricks consumers into opening 
messages they otherwise would not open. In other cases, the Commission 
has alleged that the defendants falsely represented that subscribing to 
defendants' service could stop spam from other sources <SUP>7</SUP> or 
that purchasers of a spamming business opportunity could make 
substantial profits.<SUP>8</SUP> Accordingly, these law enforcement 
actions demonstrate that the Commission has attacked and will continue 
to attack deception and unfairness in every aspect of spam.
---------------------------------------------------------------------------
    \7\ FTC v. NetSource One, No. 022-3077 (W.D. Ky. filed Nov. 2, 
2002).
    \8\ FTC v. Cyber Data, No. CV 02-2120 LKK (E.D. Cal. filed Oct. 
2002); FTC v. Internet Specialists, No. 302 CV 01722 RNC (D.Conn. filed 
Oct. 2002)
---------------------------------------------------------------------------
    In May 2003, the FTC joined the Securities and Exchange Commission, 
United States Postal Inspection Service, three United States Attorneys, 
four state attorneys general, and two state regulatory agencies to file 
45 criminal and civil law enforcement actions against Internet 
scams.<SUP>9</SUP> As part of this sweep, the FTC brought five federal 
court actions alleging the deceptive use of spam. In one case, the 
defendants allegedly used spam with deceptive representations that the 
email came from well-known entities, such as Hotmail or MSN, to market 
a ``100% Legal and Legitimate'' work-at-home opportunity. Although the 
spam promised consumers they could earn as much as $1,500 a week 
stuffing envelopes supplied by the defendants, consumers ended up 
paying $50 for a set of instructions on how to market a deceptive 
credit-repair manual.<SUP>10</SUP> In another case, the defendant 
allegedly used spam to make false and deceptive income claims for a 
chain-letter scheme dubbed ``Instant Internet Empire.'' <SUP>11</SUP> A 
third complaint alleged that defendants used deceptive spam to market 
an advance-fee credit card scam.<SUP>12</SUP> In each of these cases, 
the FTC was able to obtain preliminary injunctive relief and to shut 
down the operations.<SUP>13</SUP>
---------------------------------------------------------------------------
    \9\ FTC Press Release, Law Enforcement Posse Tackles Internet 
Scammers, Deceptive Spammers (May 15, 2003), available at <http://
www.ftc.gov/opa/2003/05/swnetforce.htm>.
    \10\ FTC v. Patrick Cella et al., No. CV-03-3202 (C.D. Cal.) 
(complaint filed May 7, 2003), available at <http://www.ftc.gov/os/
2003/05/patrickcellacmp.pdf>.
    \11\ FTC v. K4 Global Publishing, Inc. et al., No. 5:03-CV0140-3 
(M.D. Ga.) (complaint filed May 7, 2003), available at <http://
www.ftc.gov/os/2003/05/k4globalcmp.pdf>.
    \12\ FTC v. Clickformail.com, Inc., No. 03-C-3033 (N.D. Ill.) 
(complaint filed May 7, 2003), available at <http://www.ftc.gov/os/
2003/05/clickformailcmp.pdf>.
    \13\ In the other two cases, the FTC filed stipulated final orders 
prohibiting future participation in email chain letters. FTC v. Evans, 
No. 4:03CV178 (E.D. Tex.) (complaint and stipulated final judgment 
filed May 9, 2003); FTC v. Benson, No. 03CV0951 (N.D. Tex.) (complaint 
and stipulated final judgment filed May 6, 2003). Both are available at 
<http://www.ftc.gov/opa/2003/05/swnetforce.htm>.
---------------------------------------------------------------------------
    In addition to the law enforcement actions, in this sweep, the FTC 
and 17 other federal and state consumer protection and law enforcement 
agencies initiated an effort to reduce deceptive spam by urging 
organizations to close ``open relays.'' <SUP>14</SUP> Fifty law 
enforcers from 17 agencies identified 1,000 potential open relays, 90 
percent of which were in 16 countries: U.S., China, Korea, Japan, 
Italy, Poland, Brazil, Germany, Taiwan, Mexico, Great Britain, Chile, 
France, Argentina, India, Spain, and Canada. The agencies drafted a 
letter, translated into 11 languages and signed by 14 different U.S. 
and international agencies, urging the organizations to close their 
open relays to help reduce spam.
---------------------------------------------------------------------------
    \14\ An open relay is an email server that is configured to accept 
and transfer email on behalf of any user anywhere, including unrelated 
third parties, which allows spammers to route their email through 
servers of other organizations, disguising the origin of the email. An 
open proxy is a mis-configured proxy server through which an 
unauthorized user can connect to the Internet. Spammers use open 
proxies to send spam from the computer network's ISP or to find an open 
relay. See FTC Facts for Business, Open Relays--Close the Door on Spam 
(May 2003), available at <http://www.ftc.gov/bcp/con
---------------------------------------------------------------------------
                 APPROACHES TO SOLVING THE SPAM PROBLEM

    Solutions to the problems posed by spam will not be quick or easy; 
nor is one single approach likely to provide a cure. Instead, a 
balanced blend of technological fixes, business and consumer education, 
legislation, and enforcement will be required. Technology that empowers 
consumers in an easy-to-use manner is essential to getting immediate 
results for a number of frustrated end-users. Any solution to the 
problems caused by spam should contain the following elements:

1. Enhanced enforcement tools to combat fraud and deception;
2. Support for the development and deployment of technological tools to 
        fight spam;
3. Enhanced business and consumer education; and
4. The study of business methods to reduce the volume of spam.
    The Commission's legislative recommendations, discussed below, 
would enhance the agency's enforcement tools for fighting spam. In 
addition, the FTC will continue vigorous law enforcement and reach out 
to key law enforcement partners through the creation of a Federal/State 
Spam Task Force to strengthen cooperation with criminal authorities. 
The Task Force can help to overcome some of the obstacles that spam 
prosecutions present to law enforcement authorities.
    The Commission's experience shows that the primary law enforcement 
challenges are to identify and locate the targeted spammer. Of course, 
finding the wrongdoers is an important aspect of all law enforcement 
actions, but in spam cases it is a particularly daunting task. Spammers 
can easily hide their identity, forge the electronic path of their 
email messages, or send their messages from anywhere in the world to 
anyone in the world. Tracking down a targeted spammer typically 
requires an unusually large commitment of staff time and resources, and 
rarely can it be known in advance whether the target's operation is 
large enough or injurious enough to consumers to justify the resource 
commitment. For example, in some instances, state agencies spent 
considerable front-end investigative resources to find a spammer, only 
to discover at the back end that the spammer was located outside the 
state's jurisdiction. State and federal agencies recognize the need to 
share the information obtained in investigations, so that the agency 
best placed to pursue the spammer can do so more efficiently and 
quickly. The Task Force should facilitate this process. Further, it can 
serve as a forum to apprise participating agencies of the latest 
spamming technology, spammer ploys, and investigational techniques.
    Through the Task Force, the FTC will reach out not only to its 
civil law enforcement counterparts on the state level, but also to 
federal and state criminal authorities. Although few criminal 
prosecutions involving spam have occurred to date,<SUP>15</SUP> 
criminal prosecution may well be appropriate for the most egregious 
conduct. The FTC and its partners in criminal law enforcement agencies 
continue to work to assess existing barriers to successful criminal 
prosecutions. The FTC will explore whether increased coordination and 
cooperation with criminal authorities would be helpful in stopping the 
worst actors.
---------------------------------------------------------------------------
    \15\ See, e.g., United States v. Barrero, Crim. No. 03-30102-01 DRH 
(S.D. Ill. 2003) (guilty plea entered May 12, 2003). Like the related 
case, FTC v. Stuffingforcash.com Corp., Civ. Action No. 02 C 5022 (N.D. 
Ill. Jan. 30, 2003), the allegations in this criminal prosecution were 
based on fraud in the seller's underlying business transaction.
---------------------------------------------------------------------------
    Improved technological tools will be an essential part of any 
solution as well. A great deal of spam is virtually untraceable, and an 
increasing amount crosses international boundaries. Panelists estimated 
that from 50 percent to 90 percent of email is untraceable, either 
because it contains falsified routing information or because it comes 
through open relays or open proxies.<SUP>16</SUP> Because so much spam 
is untraceable, technological development will be an important element 
in solving spam problems. To this end, the FTC will continue to 
encourage industry to meet this challenge.
---------------------------------------------------------------------------
    \16\ Brightmail recently estimated that 90% of the email that it 
analyzed was untraceable. Two panelists at the Commission's Spam Forum 
estimated that 40% to 50% of the email it analyzed came through open 
relays or open proxies, making it virtually impossible to trace. Even 
when spam cannot be traced technologically, however, enforcement is 
possible. In some cases, the FTC has followed the money trail to pursue 
sellers who use spam. The process is resource intensive, frequently 
requiring a series of ten or more CIDs to identify and locate the 
seller in the real world. Moreover, the seller and the spammer often 
are different entities. In numerous instances, FTC staff cannot 
initially identify or locate the spammer and can only identify and 
locate the seller. In many of those cases, in the course of prosecuting 
the seller, staff has, through discovery, sought information about the 
spammer who actually sent the messages. This, too, involves resource-
intensive discovery efforts.
---------------------------------------------------------------------------
    Action by consumers and businesses who may receive spam will be a 
crucial part of any solution to the problems caused by spam. A key 
component of the FTC's efforts against spam is educating consumers and 
businesses about the steps they can take to decrease the amount of spam 
they receive. The FTC's educational materials provide guidance on how 
to decrease the chances of having an email address harvested and used 
for spam, and suggest several other steps to decrease the amount of 
spam an address may receive. The FTC's educational materials on spam 
are available on the FTC website.<SUP>17</SUP>
---------------------------------------------------------------------------
    \17\ See <http://www.ftc.gov/spam>
---------------------------------------------------------------------------
    Finally, several initiatives for reducing the overwhelming volume 
of spam were discussed at the FTC's Spam Forum. At this point, 
questions remain about the feasibility and likely effectiveness of 
these initiatives. The FTC intends to continue its active role as 
catalyst and monitor of technological innovation and business 
approaches to addressing spam.

LEGISLATION TO ENHANCE THE FTC'S EFFECTIVENESS TO FIGHT FRAUDULENT SPAM

    Effective spam legislation must address the following three issues: 
First, legislation must address how to find the person sending the spam 
messages. Although we believe that technological changes will most 
effectively resolve this issue, we have proposed several procedural 
legislative changes that can provide some assistance in our law 
enforcement investigations. Second, legislation must deal with how to 
deter the person sending the spam messages. As discussed below, the 
Commission believes that civil penalties, and possibly criminal 
sanctions, would help address this issue. Finally, legislation must 
determine what standards will govern non-deceptive, unsolicited 
commercial email. The Commission believes that the appropriate 
standards would include clear identification of the sender of a message 
and by empowering consumers to end the flow of messages that they do 
not wish to receive.
    It would be useful to have additional legislative authority, 
addressing both procedural and substantive issues, that would enhance 
the agency's effectiveness in fighting fraud and deception. The 
procedural legislative proposals would improve the FTC's ability to 
investigate possible spam targets, and the substantive legislative 
proposals would improve the agency's ability to sue these targets 
successfully, including increased penalties for violations.
Procedural Proposals
    The FTC's law enforcement experience shows that the path from a 
fraudulent spammer to a consumer's in-box frequently crosses at least 
one international border and often several. Thus, fraudulent spam 
exemplifies the growing problem of cross-border fraud. Two of the 
provisions in the Commission's proposed cross-border fraud legislation, 
discussed at the recent reauthorization testimony, would be 
particularly helpful to enable the FTC to investigate deceptive 
spammers more effectively and work better with international law 
enforcement partners.
    First, the Commission has asked Congress to amend the FTC Act to 
allow FTC attorneys to seek a court order requiring a recipient of a 
Civil Investigative Demand (``CID'') to maintain the confidentiality of 
the CID for a limited period of time. Several third parties have told 
us that they will provide notice to the target before they will share 
information with us, sometimes because they believe notice may be 
required and sometimes even if such notice clearly is not required by 
law.
    Second, the Commission asked Congress to amend the FTC Act so that 
FTC attorneys may seek a court order temporarily delaying notice to an 
investigative target of a CID issued to a third party in specified 
circumstances. Currently, the Right to Financial Privacy Act (``RFPA'') 
and the Electronic Communications Privacy Act (``ECPA'') require such 
notice.
    The FTC's experience is that fraud targets often destroy documents 
or hide assets when they receive notice of FTC investigations. Although 
the RFPA and ECPA provide a mechanism for delaying notice, the FTC's 
ability to investigate would be improved by tailoring the bases for a 
court-ordered delay more specifically to the types of difficulties the 
FTC encounters, such as transfers of assets offshore. In addition, it 
is unclear whether FTC attorneys can file such applications, or whether 
the Commission must seek the assistance of the Department of Justice. 
Explicit authority for the FTC, by its own attorneys, to file such 
applications would streamline the agency's investigations of purveyors 
of fraud on the Internet, ensuring that the agency can rapidly pursue 
investigative leads.
    Other legislative proposals would enhance the FTC's ability to 
track deceptive spammers. First, we request that the ECPA be clarified 
to allow the FTC to obtain complaints received by an ISP regarding a 
subscriber. Frequently, spam recipients complain first to their ISPs, 
and access to the information in those complaints would help the agency 
to determine the nature and scope of the spammer's potential law 
violations, as well as lead the agency to potential witnesses.
    Second, we request that the scope of the ECPA be clarified so that 
a hacker or a spammer who has hijacked a bona fide customer's email 
account is deemed a mere unauthorized user of the account, not a 
``customer'' entitled to the protections afforded by the statute. 
Because of the lack of a statutory definition for the term 
``customer,'' the current statutory language may cover hackers or 
spammers. Such a reading of the ECPA would permit the FTC to obtain 
only limited information about a hacker or spammer targeted in an 
investigation. Clarification to eliminate such a reading would be very 
helpful.
    Third, we request that the ECPA be amended to include the term 
``discovery subpoena'' in the language of 18 U.S.C. Sec. 2703. This 
change is particularly important because a district court has ruled 
that the FTC staff cannot obtain information under the ECPA from ISPs 
during the discovery phase of a case, which limits the agency's ability 
to investigate spammers.<SUP>18</SUP>
---------------------------------------------------------------------------
    \18\ See FTC v. Netscape Comm. Corp., 196 F.R.D. 559 (N.D. Cal. 
2000).
---------------------------------------------------------------------------
Substantive Proposals
    Substantive legislative changes also could aid in the FTC's law 
enforcement efforts against spam. Although Section 5 of the FTC Act 
provides a firm footing for spam prosecutions, additional law 
enforcement tools could make more explicit the boundaries of legal and 
illegal conduct, and they could enhance the sanctions that the agency 
can impose on violators. As the Commission recently testified at its 
Reauthorization hearing before this Committee, the Telemarketing and 
Consumer Fraud and Abuse Prevention Act (``TCFAPA''), 15 U.S.C. 
Sec. Sec. 6101-6108, provides a model for addressing unsolicited 
commercial e-mail. Amendments to the TCFAPA would authorize the FTC to 
adopt rules addressing deceptive and abusive <SUP>19</SUP> practices 
with respect to the sending of unsolicited commercial e-mail. 
Approaching spam through this statutory model would provide the market 
with direction, but would do so within a framework that could change as 
the problems evolve. Regardless of the statutory approach taken, 
however, the Commission believes that the following elements are 
important.
---------------------------------------------------------------------------
    \19\ The FTC has determined, in the Statement of Basis and Purpose 
for the Amended TSR, that the undefined term ``abusive'' used in the 
legislation authorizing that Rule will be interpreted to encompass 
``unfairness.'' 68 Fed. Reg. 4580, 4614 (2003).
---------------------------------------------------------------------------
    First, any legislation should give the FTC some authority via 
rulemaking to address deceptive practices relating to spam. Agency 
rules could be adapted to new changes in technology without hindering 
technological innovation, thus providing the market with direction, but 
doing so within a framework that could change as the problems evolve. 
Whether addressed through the legislation itself or through rulemaking, 
unlawful practices that should be prohibited include: using false 
header or routing information; using false representations in the 
``subject'' line; using false claims that an unsolicited commercial 
email message was solicited; using false representations that an opt-
out request will be honored; sending any recipient a commercial email 
message after such recipient has requested not to receive such 
commercial email messages; failing to provide a reasonable means to 
``opt out'' of receiving future email messages; and sending commercial 
email to an address obtained through harvesting or a dictionary attack. 
Morever, any statute also should prohibit assisting and facilitating 
any of the above, i.e., providing substantial assistance to another 
party engaged in any violation knowing or consciously avoiding knowing 
that such party is engaged in such violation.
    Second, any legislation should embody the same standard of 
liability that is embodied in Section 5 of the FTC Act, without a 
general requirement to show intent or knowledge. Imposition of intent 
or knowledge requirements as a precondition of liability would actually 
make the FTC's ability to enforce the specific anti-spam statute more 
restrictive than the agency's existing authority under Section 5 to 
attack spam and would unnecessarily complicate enforcement.
    Third, any statute or rule issued under the statute should be 
enforceable by the FTC like other FTC rules. This entails actions in 
federal district court, authority to seek preliminary and permanent 
injunctions and other equitable relief, and liability for civil 
penalties of up to $11,000 per violation. (The amount of civil 
penalties is governed by statutory factors, such as ability to pay, 
previous history of such conduct, egregiousness of the conduct, etc.).
    Fourth, any legislation should authorize states to enforce the 
statute or FTC rule in federal court. A state enforcement mechanism has 
proven successful in other areas of consumer protection, such as 
telemarketing, and would make the states more capable law enforcement 
partners with the Commission.
    Finally, any statute should seek to assure consistency between 
state and federal laws. The scope of the Internet and of email 
communication is global, transcending national boundaries. Congress 
should seek to minimize artificial barriers that would break up this 
market.
    Additionally, the criminalization of false header and routing 
information should be explored. The FTC staff has been discussing with 
criminal authorities the likely effect of a specific statute that 
criminalized this conduct. At this time, the FTC has no recommendations 
on whether changes in the criminal code are necessary or 
appropriate.<SUP>20</SUP>
---------------------------------------------------------------------------
    \20\ Any legislation that criminalizes certain types of spam 
activities should not negatively impact the FTC's existing Section 5 
authority or impose new standards of proof, scienter, or evidence for 
civil enforcement cases.
---------------------------------------------------------------------------
    Admittedly, we recognize that these legal steps alone will not 
solve the growing spam problem. Nor is it clear what impact these steps 
will have on some of the other problems associated with spam (e.g., 
volume and security). These issues may need to be addressed separately. 
Nevertheless, the FTC believes that legislation, such as that described 
above, would provide more effective investigative and enforcement tools 
and would enhance the FTC's continuing law enforcement efforts.

                               CONCLUSION

    Email provides enormous benefits to consumers and businesses as a 
communication tool. The increasing volume of spam to ISPs, to 
businesses, and to consumers, coupled with the widespread use of spam 
as a means to perpetrate fraud and deception, put these benefits at 
serious risk. The Commission looks forward to continuing its research, 
education, and law enforcement efforts to protect consumers and 
businesses from the current onslaught of unwanted messages.
    The Commission appreciates this opportunity to describe its efforts 
to address the problem of spam.

    Mr. Stearns. Thank you. I would again note that, all 
members, your testimony is made full and part of the record, so 
we are going to try to insist the 5-minute rule knowing that we 
are a little later than we originally thought we would be when 
this hearing started. Mr. Betty, welcome.

                STATEMENT OF CHARLES GARRY BETTY

    Mr. Betty. Thank you, Mr. Chairman, ladies and gentlemen of 
the committee, and thank you for inviting me to testify before 
you today. My name is Garry Betty and I am the CEO of 
EarthLink. EarthLink is the Nation's third largest ISP, serving 
5 million customers nationwide with dial-up, broadband, web 
hosting and wireless Internet services. As such, we are on the 
front lines every day in the fight against this unsolicited 
commercial mail that we have been hearing about for the last 
hour or so, known as spam.
    Spam is a problem and a growing problem. At EarthLink, have 
seen over a 500 percent increase in receipt of spam in the last 
18 months. And what originally began as an occasional 
inconvenience has now grown as quite an annoyance. Spam creates 
inefficiency, but, more importantly, for our customers spam is 
the No. 1 thing that they least like about the Internet. Like 
other statistics we have heard, 50 percent of all of our 
incoming mail is spam. Our existing technology, filtering 
technology does successfully eliminate 70 to 80 percent of 
those messages from ever getting to our customers, but with 
this rapid increase even 20 to 30 percent of a lot of spam is a 
lot of unwanted mail getting to our users' in-boxes.
    Many of the members of this panel have commented on cost. 
Spam does cost Internet providers real money. Excess server 
capacity, an abuse team working full time to ferret out and 
close down sources of spam, internal and external legal fees 
are costs that we incur trying to shut down the most egregious 
of spammers. Spam is a pernicious problem. Get rich quick 
schemes, effortless weight loss programs aren't anything new, 
but the cost burden imposed by spam is. Unlike, as we have 
heard, telemarketing or direct mail pieces, which require the 
sender to pay for these messages, spam adds insult to injury by 
shifting this cost burden to people like Earthlink and of 
course the customers who have to delete that from their in-
boxes.
    In order to combat spam, I think we must attack it on 
several fronts. Legislation, litigation, enforcement, customer 
education and technology solutions are all fronts in this 
fight, and I will try to briefly address some of these efforts.
    EarthLink supports legislation to help ISPs and consumers 
fight spam. Congress is clearly engaged in this issue, as we 
have heard today. We count no fewer than eight bills pending in 
the House and Senate, and rather than speak to just any one 
bill, we would like to note provisions in various bills which 
we think will be helpful to ISPs like Earthlink and our 
consumers.
    Legislative provisions Earthlink supports include no 
restrictions on an ISP's current ability to block spam on 
behalf of its customers. ISPs are consumers' first line of 
defense against spam. Recognition of ISPs rights of action 
against spammers. As I will discuss, ISPs' lawsuits against 
spammers are an effective tool to fight spam. Allowing recovery 
of actual damages greater than the capital and statutory 
damages, requirements for accurate sender, subject line and IP 
address information, prohibitions on using harvested e-mail 
addresses to send spam, and criminal penalties for non-
compliance.
    Another important front in the fight against spam is 
litigation. Earthlink was one of the first ISPs to sue 
spammers. We filed over 100 lawsuits against spammers in the 
last 5 years and most recently won a judgment in May of 2003 
against Howard Carmack, known as the Buffalo Spammer, who was 
estimated to send out over almost a billion spam messages 
through Earthlink alone in an 18-month period. Earthlink's case 
against Carmack is illustrative. Not only did we win a monetary 
damage but more importantly we obtained permanent injunctive 
relief against him. Furthermore, we make all ISPs third party 
beneficiaries of such judgments. This bars the defendant, 
Carmack, from sending spam to Earthlink customers or to 
customers of any other ISPs, and we would urge other ISPs to do 
likewise.
    Obviously, this case was successful even without specific 
anti-spam legislation. Rather we relied on a combination of 
laws including Federal statutes, State statutes, new laws, such 
as the Computer Fraud and Abuse Act, and time-tested notions of 
common law, such as trespass and conversion. This is not to say 
Federal anti-spam legislation is unneeded; rather, it should 
supplement and strengthen the legal recourse available today to 
ISPs and other parties.
    Perhaps the most promising front in the fight against spam 
is the implementation of technology solutions. Earthlink and 
ISPs have generally relied on filtering software to limit the 
amount of spam customers receive. Earthlink's filtering system, 
known as spaminator, successfully filters 70 to 75 percent of 
all junk mail before it ever gets to a customer's computer. It 
also gives users customizable tools to further reduce unwanted 
e-mails in their in-box. Filtering technology worked well until 
recently, but the volume of spam has increased and this is just 
not enough. Most recently, Earthlink introduced a new challenge 
response e-mail system, called SpamBlocker. This is a new way 
to give customers control over their in-boxes. Unlike filters 
which deliver all messages except for the ones they filter out, 
SpamBlocker keeps messages outside of the gate of a user's in-
box letting in only those messages recognized by the senders.
    Mr. Stearns. Mr. Betty, you are a minute beyond the 5. In 
summary----
    Mr. Betty. In summary, I think we have implemented 
technology with SpamBlocker that in my own case I used to get 
over 200 a day. I now have not received one unwanted e-mail in 
my personal mailbox in over 6 weeks.
    [The prepared statement of Charles Garry Betty follows:]

    Prepared Statement of Charles Garry Betty, CEO, EarthLink, Inc.

    Mr. Chairman, ladies and gentlemen of the Committee, thank you for 
inviting me to testify before you today. My name is Garry Betty and I 
am the CEO of EarthLink. EarthLink is the nation's 3rd largest Internet 
Service Provider (ISP) serving 5 million customers nationwide with 
dial-up, broadband (DSL, cable and satellite), web hosting and wireless 
Internet services. As such, we are on the front lines every day in the 
fight against unsolicited commercial e-mail, commonly known as spam.
    As you well know, spam is a growing problem. There are over 70 
million American households and businesses online today and almost 
every one of them has firsthand experience with spam. We at EarthLink 
have seen a 500% increase in spam over the past 18 months. What was at 
first an occasional inconvenience grew to be an annoyance and now 
threatens to overwhelm online communications. E-mail is often described 
as the Internet's ``killer app.'' Left unchecked, spam threatens to 
kill the killer app.
    Spam creates inefficiency. By some estimates, spam is responsible 
for $10 billion a year in lost productivity to American businesses. As 
an ISP, approximately 50% of all e-mail coming into our servers is 
spam. AOL estimates this figure as high as 80% on their network. We are 
able to filter out 70-80% of these messages before they ever get to our 
customers, but the increasing volume means that lots of unwanted 
electronic junk mail still gets to user's in-boxes. Spam costs Internet 
providers real money. Excess server capacity, an ``abuse team'' working 
full time to ferret out and close down sources of spam on the internet, 
internal and external legal fees are all costs we incur because of 
spam. While we don't publish exact figures on this, it is fair to say 
that they are in excess of $10 million a year for EarthLink alone.
    Spam is a pernicious problem. While get rich quick schemes, 
effortless weight loss programs and pills that promise to enlarge body 
parts are nothing new, the cost burden imposed by spam is. Newspaper 
and magazines ads, telemarketing calls, direct mail pieces and signs 
tacked to telephone poles all require the sender to pay for their 
messages. Spam adds insult to injury by shifting this cost burden. Spam 
costs virtually nothing to send. (One recent widely circulated spam 
message for spammers advertises 20 million email addresses for 
$149.00.) Instead, the costs of spam are borne by ISPs which must 
handle this junk e-mail and by consumers who get their in-boxes filled 
with it.
    In order to win the fight against spam, we must engage it on 
several fronts. In addition to legislation, we must also use 
litigation, enforcement, customer education and technology solutions to 
combat spam. I would like to briefly address each of these in turn:
Legislation
    EarthLink supports legislation to help ISPs and consumers in the 
fight against spam. And Congress is clearly engaged in this issue. We 
count no fewer than seven bills currently being actively discussed in 
the House and Senate. Rather than speak just to any one bill, we would 
like to note several provisions in various bills which we think will be 
helpful to ISPs and consumers, based upon the experience Earthlink has 
had in suing some of the nation's most egregious spammers.
    First, we support the provision in several bills which note that 
they place no restrictions on an ISP's current ability to block spam on 
behalf of its customers. ISPs are truly the first line of defense 
against spam for consumers. ISPs that deploy effective filtering and 
blocking techniques can spare their customers a good deal of the 
aggravation that spam creates. However, since spammers are constantly 
looking for new ways to defeat ISP blocking protections, it is 
important to ensure that legislation does not limit the ability of ISPs 
to adjust and refine their filtering and blocking techniques to 
maximize their effectiveness.
    Similarly, we support the provision in various bills that note that 
ISPs have a right of action to pursue legal action against spammers. As 
I will discuss in the next section, ISP lawsuits against spammers are 
an effective tool in the fight against spam.
    Next, we would urge caution in placing a cap on monetary damages. 
Based on our own litigation experience, we believe that large monetary 
damage awards against the most egregious spammers send a strong signal 
about the seriousness of spamming and have a stronger deterrent effect 
against other spammers. We would urge Congress not to impose a damages 
cap on ISP legal actions against spammers.
    Finally, we support requirements for accurate sender, subject line 
and IP address information. Consumers must have accurate sender, 
subject line and IP address information, and we applaud the legislative 
efforts to confirm these basic requirements. For too long spammers have 
deceived innocent victims with fraudulent and deceptive ``come-ons'' in 
the subject lines, confusing consumers into thinking that they are 
receiving e-mails from a trustworthy entity or friend. These deceptions 
must be stopped and legislative efforts to address this are well 
directed.

Litigation
    Another important front in the fight against spam is litigation. 
EarthLink was one of the first ISPs in the country to go after spammers 
in court. Earthlink's successful 1997 case against Sanford Wallace and 
Cyberpromotions stopped what was then one of the most prolific spammers 
on the Internet. Since that time, EarthLink has filed lawsuits against 
over 100 spammers. Most recently, EarthLink won a judgment in May 2003 
against Howard Carmack the ``Buffalo Spammer.'' It is estimated that 
Carmack sent out some 850 million spam messages over an 18-month 
period, or an average of about 2 million messages a day.
    EarthLink's case against Carmack is illustrative of our lawsuits 
against spammers. While we were able to obtain a $16.4 million judgment 
against Carmack, we just as importantly obtained permanent injunctive 
relief, barring him from spamming again. Furthermore, when EarthLink 
gets judgments against spammers, it asks the court to make all other 
ISPs 3rd party beneficiaries of those judgments. This bars the 
defendant spammer not only from sending spam to EarthLink customers, 
but also from sending spam to the customers of any other ISP. We urge 
other ISPs to do likewise in their suits against spammers.
    Obviously, this case was brought successfully without specific 
anti-spam legislation. Rather, we relied on a combination of laws 
including federal statutes such as RICO and the ECPA, state statutes 
such as the Georgia Computer Systems Protection Act, fairly new laws 
such as the Computer Fraud and Abuse Act and time-tested notions of 
common law such as trespass and conversion. In all, our complaint 
against Carmack included 14 counts. This is not to say that federal 
anti-spam legislation is unneeded, rather that it should supplement and 
strengthen the legal recourse available today to ISPs and other 
parties.
    A postscript: Based on information developed in EarthLink's civil 
case against Carmack, the New York Attorney General subsequently filed 
criminal charges against him for identity theft, landing him in jail. 
We believe this to be the first time that anti-spam litigation has also 
led to a criminal arrest of a spammer.

Technology Solutions
    Perhaps the most promising front in the fight against spam is the 
implementation of technology solutions. EarthLink and other ISPs have 
until now generally relied on filtering software to limit the amount of 
spam their customers receive. EarthLink's filtering systems, known as 
spaminator, filters out 70-80% of all junk e-mail before it ever gets 
to a customer's computer. Spaminator also provides users with 
customizable tools they can use to further reduce unwanted emails in 
their inboxes. It is possible to increase the sensitivity of filters 
such as spaminator, but you then begin to run the risk of filtering out 
messages from legitimate senders which an e-mail user wants to receive.
    Filtering technology has worked well until recently. Eighty percent 
(80%) effectiveness was fine in filtering through a few dozen spam 
messages a day. But as the volume of spam has increased 5-fold in the 
past 18 months, Internet users are now bombarded with sometimes 
hundreds of messages a day. An 80% effectiveness filter therefore lets 
through an increasingly unacceptable number of spam messages.
    Enter SpamBlocker, EarthLink's new challenge-response e-mail 
system. Developed at EarthLink, spamBlocker presents a new way to give 
customers control over their inboxes. Unlike filters, which default to 
letting through email except for the messages they filter out, 
spamBlocker keeps all messages ``outside the gate'' of a user's inbox, 
letting in only those messages from recognized senders. SpamBlocker 
allows a user to import their address book of valid senders and to 
quickly and easily add names to that list. Rather than only eliminating 
email from unknown sources it holds these messages in a Suspect E-mail 
folder allowing the recipient to review and accept the messages they 
wish to receive. SpamBlocker also sends the sender a one-time easy to 
complete Allowed Sender Request Form. Able to be completed in several 
seconds by an actual person, it will not be usable by an automated 
email program or be able to be filled out at all where, as is often the 
case, a spammer fakes the IP address which is the source of his spam. 
SpamBlocker will virtually eliminate spam in a user's in-box and is 
available free to all EarthLink subscribers.
    Thank you for giving me the opportunity to testify today.

    Mr. Stearns. Terrific. I wish we all could say that.
    Mr. Betty. If you were an Earthlink customer, you could.
    Mr. Stearns. I am going to check with my brother who has 
it. Mr. Curran.

                   STATEMENT OF CHARLES CURRAN

    Mr. Curran. Chairman Stearns----
    Mr. Stearns. You have got to hit that button. Try again.
    Mr. Curran. Chairman Stearns----
    Mr. Stearns. No.
    Mr. Curran. There we go. Chairman Stearns, Chairman Upton, 
Congressman Markey and Congresswoman Schakowsky, I would like 
to thank you, along with Chairman Tauzin and Congressman 
Dingell, for the opportunity to testify today before your 
subcommittees about the crisis in the growth of junk e-mail. I 
work in AOL's Legal Department battling spam, and I have 
overseen AOL's significant litigation efforts against spam 
senders. I would like to share a perspective from the front 
lines of the anti-spam war.
    Spam has increased at an alarming rate because it is simple 
and very inexpensive for spammers to send large quantities of 
e-mail and because the open nature of Internet e-mail 
technology makes it quite easy for spammers to conceal their 
identities and the scope of their spamming activities. 
Consumers, businesses and ISPs face an ever-increasing deluge 
of spam, and unfortunately these recipients bear the cost of 
processing all these messages that flood their in-boxes every 
day.
    Consumers and ISPs use filters to try to stop this type of 
junk e-mail, but spammers constantly adapt. To make sure their 
e-mail gets through to recipients and to hide their identities, 
spammers resort to technologies of falsification and evasion. 
The evasive techniques include falsifying header and routing 
information, commandeering innocent parties' Internet servers 
to send spam, hacking into e-mail accounts belonging to 
innocent users and registering for multiple e-mail accounts or 
domain names that are then used to establish false identities 
for transmitting spam.
    Recent studies by the spam filtering company, Brightmail, 
estimate that up to 90 percent of spam involves these kinds of 
outlaw techniques of evasion. More recently, many spammers are 
now adopting computer hacker techniques, such as computer 
viruses to hijack innocent consumer's computers and use them to 
send spam untraceably.
    This isn't an easy battle, and AOL believes it must be 
fought on many fronts simultaneously in order to be truly 
effective. That is why we fight the spam war using a 
combination of technology, legal counter measures, member 
education and empowerment and collaboration with others in our 
industry. We are also working with legislatures such as members 
of your subcommittees on more effective legislation to bring 
accountability to spammers.
    On the technology front, AOL uses strong filtering 
technologies to limit the tide of spam entering AOL's e-mail 
system, blocking up to 2.4 billion messages per day. We are 
also deploying spam-fighting tools later this summer that will 
allow our members to divert unwanted e-mail to a separate spam 
folder and adapt spam filtering to their individual 
preferences. We provide parents with strong tools, our parental 
controls, to help keep offensive and objectionable e-mail out 
of children's in-boxes, and we empower our members to report 
spam, helping AOL to improve its technological counter measures 
as well as to identify candidates for enforcement action. The 
fact that AOL members report up to 10 million spam complaints 
daily demonstrates the critical importance of spam fighting to 
our members.
    On the legal front, we have served well over 100 defendants 
in 25 lawsuits, winning court injunctions and damages awards to 
help deter spam senders. The defendants in these suits have 
advertised pornographic web sites, get-rich-quick schemes and 
other dubious products. AOL continually investigates this 
spamming activity and cooperates with Federal and State 
authorities in their enforcement actions. We believe that 
enhanced enforcement is vital to curtailing the growth of spam. 
The anti-spam litigation brought by ISPs, like AOL, Earthlink 
and Microsoft, parallel the increasingly aggressive enforcement 
actions brought by the Federal Trade Commission and State 
attorneys general. Bringing anti-spam cases is often complex 
and resource intensive because large-scale spammers try every 
bit as hard to mask the profits from their activities as they 
try to hide how they send their e-mails. To give one example, 
in a recent Federal court case, it took AOL 2 years to expose 
the complex web of shell and offshore companies used by large 
scale pornography spammers.
    Despite these obstacles, ISPs have strong incentives to 
bring enforcement actions. First, such actions help improve the 
experience of our subscribers by attacking the sources that the 
spam our members complain about most. And, second, it helps to 
reduce the overall volume of spam on the Internet. We believe 
that even stronger enforcement tools are necessary to establish 
the kind of criminal penalties and civil damages necessary, and 
we thank the subcommittees for making spam a priority issue 
this year. We are particularly grateful to Chairman Tauzin and 
Congressman Burr, as well as Congresswoman Wilson, Dingell and 
Green for introducing legislation that sets a solid foundation 
to address this problem.
    AOL believes that legislation should do three things to be 
an effective tool, most importantly because of the seriousness 
of the outlaw spam problem. Legislation must provide for strong 
criminal and civil penalties against spammers who use deceptive 
or fraudulent tactics to hide their identities. For large-scale 
spammers who use these outlaw tactics, felony-level penalties 
are needed to deter them for engaging in this crime.
    Second, legislation should provide clear baseline rules of 
the road for commercial e-mail sent by marketers who do not 
engage in outlaw e-mail transmission techniques. These rules 
should provide consumers with meaningful choices about the 
commercial e-mail messages they receive from a particular 
sender and should prevent end runs around consumers' 
preferences by the use of sham corporate successors or 
affiliates.
    Finally, it is also critically important that legislation 
provide for ISP civil enforcement of its prohibitions. ISPs 
such as a AOL have a unique role to play in anti-spam 
enforcements because of our firsthand knowledge of the problem 
obtained through the complaints of our members and our 
experience fighting the latest technologies used by spammers. 
We applaud the efforts of this committee in tackling the spam 
problem at this critical juncture and look forward to working 
with you and other lawmakers to develop legislative solutions 
that can help consumers and their ISPs prevail in the anti-spam 
war. Thank you for the opportunity to testify, and I am happy 
to answer any questions you may have.
    [The prepared statement of Charles Curran follows:]

   Prepared Statement of Charles Curran, Assistant General Counsel, 
                          America Online, Inc.

    Chairman Stearns, Chairman Upton, and Members of the Subcommittees, 
on behalf of America Online, Inc., I would like to thank you for the 
opportunity to testify before the Subcommittees on the issue of junk e-
mail--or ``spam.'' My name is Charles Curran, and I am an Assistant 
General Counsel in the Legal Department at America Online, Inc., where 
much of my time is spent battling spam. I have overseen AOL's extensive 
litigation efforts against spam senders, and appreciate this 
opportunity to share with the Subcommittees a perspective from the 
front lines of the anti-spam war.
    I would like to describe the nature of the spam problem, its effect 
on ISPs and Internet users, and some of the things that AOL is doing to 
help reduce spam, and to explain the role that ISP enforcement and 
litigation play in fighting the spam problem. But first, I would like 
to thank the full Committee for making the spam problem a priority 
issue this year, and Chairman Tauzin, Rep. Burr, and others for 
introducing a strong legislative vehicle that we believe sets a solid 
foundation to address this problem. We believe that spam has grown to 
present a critical threat to the Internet, and that the spam battle 
must be fought on many fronts simultaneously in order to be truly 
effective--including policy initiatives, ISP litigation, government 
enforcement, spam filtering technologies, member tools and education, 
and industry collaboration. While technology holds many of the answers 
to this problem, we cannot succeed in the fight against spam without 
government working with ISPs to play a strong and important enforcement 
role. We are anxious to work with you to find a solution to this crisis 
for e-mail on the Internet.

                   1. THE REASONS FOR THE SPAM CRISIS

    The principal drivers of the explosive growth in the spam problem 
are the ease with which senders can transmit large quantities of e-
mail, and the similar ease with which spammers can conceal their 
identities as the source of this junk e-mail.
    First, the e-mail medium makes it possible for senders to transmit 
virtually unlimited quantities of advertising messages at very low 
costs. Spammers do not bear the costs of processing, sorting and 
delivering all these e-mails: instead, it is the recipients and their 
ISPs who must absorb the costs of managing the huge volume of unwanted 
mail. Spammers are limited in e-mail transmission volume only by the 
low costs of Internet connectivity. And because e-mail is a nearly 
costless medium for senders, spammers have every incentive to send out 
as many e-mails as possible, even if virtually no recipients want or 
respond to the promotions, and despite heavy costs to ISPs who have to 
process these huge quantities of mail. These underlying economics are 
the principal cause of the rapidly expanding volume of spam, and the 
reason that ISPs and businesses everywhere are experiencing such a 
tremendous surge in junk e-mail--as spammers send out even greater 
numbers of junk mail messages to which fewer and fewer recipients will 
ever respond. AOL estimates that spam accounts for a staggering 60-80% 
of e-mail traffic that hits our e-mail filters from the Internet, and 
external studies predict similar alarming trends in Internet e-mail as 
whole.
    The second essential feature of the e-mail medium that contributes 
to the spam problem is the fact that the technical protocols used to 
send e-mails on the Internet can be manipulated by spammers, both to 
conceal their identities as spam senders and to conceal the volume and 
scope of their e-mailing activities. The ``open'' nature of the 
Internet and its underlying e-mail transmission protocols lend 
themselves to abuse by spammers looking to evade accountability for 
their activities, and undermine and evade the attempts of consumers and 
ISPs to filter out or block their junk mail transmissions. In AOL's 
experience, most spam is sent using such evasive, ``outlaw'' 
transmission techniques.
    A technical struggle is now taking place on the spam front, one 
which pits consumers and ISPs using defensive spam filtering 
technologies against spammers who seek to exploit any technical 
loophole that will allow them to get their mail through to a 
recipient's e-mail box. A new and even more pernicious feature of this 
technological war is the increasing adoption by spam senders of 
computer hackers' tools--such as viruses and ``Trojan horses''--to find 
ever more untraceable ways to use innocent parties' computers to cover 
their tracks.
    The combination of low sender costs and lack of sender 
authentication is irresistible to unscrupulous junk mailers. As a 
result, Internet e-mail users now find themselves being bombarded with 
an ever-increasing volume of spam in their mailboxes, much of it 
containing objectionable or misleading content. Indeed, the Federal 
Trade Commission's May 2003 spam survey indicated that at least two-
thirds (66%) of junk e-mail contains falsified header or subject line 
information, and spam filtering companies like Brightmail estimate that 
as many as 90% of spam messages contain falsified header or routing 
information that make them untraceable to a specific source. And so the 
spam problem is not just a problem in terms of the increasing volume of 
spam that businesses must process and deliver, but also a challenge for 
all consumers whose confidence in Internet e-mail is being steadily 
eroded by incessant waves of spam in their email in-boxes.

                   2. WHAT AOL IS DOING TO FIGHT SPAM

    AOL fights the ongoing spam war using a combination of 
technological and legal countermeasures, as well as policy initiatives 
and collaboration with others in industry. In lawsuits involving well 
over a hundred defendants, AOL has used the legal process to penetrate 
the secret world of spam senders, not only to help ensure that spammers 
face accountability for their actions, but also to better understand 
and combat the techniques of concealment used by the spammers. AOL's 
goal is to improve the experience of our more than 35 million account 
holders, and to deter would-be spammers from sending huge quantities of 
junk e-mail in the first place.
    On the technology front, AOL uses a comprehensive set of filtering 
technologies at the network level to limit the tide of spam entering 
AOL's e-mail system and our members' mailboxes. In recent months, these 
anti-spam filters have blocked as much as 2.4 billion pieces of 
unwanted e-mail in a single day, which amounts to stopping almost 70 
spam e-mails per account per day from reaching our members. To counter 
the flood of spam, AOL dedicates not only significant computer 
resources to filtering junk mail, but also a large staff of 
technologists, who give AOL the ability to respond on a 24-hour basis 
to the ever-changing tactics used by spam senders to attempt to 
penetrate the AOL network.
    AOL also empowers its members to fight spam through a combination 
of robust e-mail controls and a ``Report Spam'' tool that lets them 
report and delete unwanted junk e-mail directly from their mailboxes. 
Using the ``Report Spam'' button, members have reported more than 10 
million spam complaints to AOL in a single day. AOL uses these member 
complaints not only to help identify and filter in real-time the spam 
being sent to the AOL network, but also to identify large-scale abusers 
for law enforcement purposes.
    Starting later this summer, AOL 9.0, the latest version of AOL's 
online service software, will provide AOL members with a completely 
revamped suite of spam-fighting tools. These tools include a new 
``Spam'' folder that is separate from a member's mailbox for incoming 
e-mail, and to which suspected spam is automatically routed. Not only 
will spam filtering be enhanced at the network level; members also will 
be provided personalized and adaptive spam filtering tools that adjust 
to the individual preferences of each user, as well as word-specific 
and URL filters that a member can use to route potentially 
objectionable mail to their ``Spam'' folder. AOL's overall mail 
controls and Parental Controls will offer additional features to help 
protect users of all ages from objectionable spam and the content it 
contains, such as blocks on the display of embedded images. And AOL 
will continue to provide our members with other important consumer 
safety tips and tools that can help them reduce spam and improve the 
security of their online experience--particularly in the broadband 
environment, where it is critical that consumers know how to protect 
themselves in the world of ``always-on'' high-speed connections that 
spammers sometimes attempt to abuse.
    On the legal front, AOL has been active in suing spammers since 
1997. AOL has filed 25 lawsuits against more than 100 companies and 
individuals responsible for the transmission of spam advertising 
pornographic Web sites, get-rich-quick schemes, and other dubious 
products. These lawsuits have demonstrated the ever-greater lengths to 
which spammers go to conceal their activities and continue their theft 
of resources from the Internet community. The suits have resulted in 
court decisions that not only prohibit further spamming by the 
defendants, but also awarded significant financial damages that have 
bankrupted many spam senders. AOL's most recent suits, announced 
earlier this year, targeted more than a dozen companies and individuals 
responsible for sending more than a billion spam messages to our 
consumers. AOL continues to investigate other spam senders, sending 
hundreds of cease-and-desist letters to suspected spam senders and even 
the vendors of spamming software, so as to deter others from entering 
the spamming business. And we have cooperated with federal and state 
enforcement authorities in separate enforcement proceedings, sharing 
our technical expertise to help widen the overall scope of deterrence.
    We're also building alliances with others in our industry to think 
creatively and constructively about how to curb the overall spam 
problem. We've joined with Microsoft, Yahoo! and Earthlink to drive a 
dialogue with other industry stakeholders necessary to the development 
of open technical standards and industry guidelines that will help 
fight spam. We also welcome the actions that Earthlink, Microsoft, and 
other ISPs have taken to fight spam on the legal front, and look 
forward to finding new ways that industry can work together to collect 
the technical evidence necessary to bring spammers to justice.
    Finally, AOL works with federal and state policymakers to support 
efforts to reduce spam by enacting laws that specifically target the 
deceptive, ``outlaw'' tactics used by spam senders, and that deter the 
sending of spam by establishing appropriate financial and criminal 
penalties. For example, we worked with Virginia legislators, the 
Attorney General, and the Governor to get a tough new law enacted in 
Virginia earlier this year that provides felony-level penalties for 
spammers who send significant quantities of spam by fraudulent means. 
AOL is grateful to the Members of the Subcommittees for their 
willingness to consider similar tough remedies in federal legislation.

                3. THE CRITICAL ROLE OF ISP ENFORCEMENT

    Currently, the anti-spam litigation campaigns of ISPs like AOL, 
Earthlink and Microsoft complement the vigorous efforts of the Federal 
Trade Commission and State Attorneys General in this regard. ISPs have 
a critical role to play in anti-spam enforcement efforts, not only 
because we have a wealth of member complaints and evidence to support 
effective legal action, but also knowledge from the front lines of the 
spam battle of the complex and rapidly changing technologies used by 
most spam senders to evade detection.
    It is very important that federal anti-spam legislation provide for 
ISP civil enforcement of both civil and criminal anti-spam 
prohibitions. The spam problem has reached a sufficient magnitude that 
government enforcement alone cannot stem the tide, and must be 
complemented by sustained, industry-wide enforcement by ISPs. In many 
cases, ISP assistance not only helps provide an important source of 
evidence for criminal and other government enforcement--including 
uncovering the identities of ``king pin'' spammers: it also is critical 
to unmasking ``state-of-the-art'' technological exploits used by 
spammers to avoid any kind of accountability.
    ISPs like AOL aim to litigate against large-scale spammers, but the 
spammers making the greatest profits from their activities naturally 
expend significant efforts to conceal not only how they transmit their 
spam, but also how they receive revenue from their activity. 
Consequently, tracking down such spammers through litigation is often 
highly complex, resource intensive, and time consuming. To provide one 
example, some large-scale pornography spammers against whom AOL had 
originally obtained a federal injunction tried to circumvent that 
prohibition by transferring ownership of their pornography domains 
through shell companies and offshore entities. A sustained, two-year 
investigative process was needed to demonstrate the ``vast . . . cyber-
oriented, multi-state and multi-national conspiracy'' that a federal 
court concluded warranted a $6.9 million damages award against the 
defendants.<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ AOL v. CN Productions, Court Order and Memorandum Opinion (10/
25/02) at pp. 24-25, available at http://legal.web.aol.com.
---------------------------------------------------------------------------
    Similarly, large-scale sponsors of spam often use complex business 
structures to attempt to distance themselves from the actual 
transmission of spam. For example, AOL engaged in extensive litigation 
against pornographic Web site operators who used a so-called 
``Webmaster'' business model.-- Under this model, the Webmasters 
obtained a share of the revenue derived at the pornography operator's 
Web sites, based upon traffic driven to these sites by spam.-- The site 
operators claimed, unsuccessfully, that the spam senders were 
``independent contractors'' for whose actions they were not 
responsible.
    Most spammers also conceal or dissipate the profits of their 
activity and, as a consequence, legal judgments against them often are 
difficult to collect. The difficulty in holding such spammers 
accountable financially, combined with the complexity and expense 
necessary to even identify their activities, mean that spam enforcement 
is far from a source of profits for ISPs.
    But despite these obstacles, ISPs still have very strong incentives 
to bring enforcement actions. First, such actions help to improve the 
online experience of our individual members. Our members help us 
identify the most objectionable forms of spam through their spam 
complaints, and rightly expect us to take action to stop it. Second, 
spam forces ISPs to make significant network and personnel expenditures 
to process truly gigantic volumes of unwanted mail. ISP enforcement 
thus not only serves to improve the member experience, but to create 
deterrence to spam senders whose large-scale e-mail transmissions pose 
the biggest burden to the Internet as a whole.
    In short, ISP civil enforcement serves the interests of Internet 
users and the entire Internet community by helping identify the most 
appropriate targets for enforcement, illuminating the technologies and 
subterfuges used by spammers to evade detection, and complementing and 
supporting the actions taken by federal and state law enforcement. 
Consequently, the ability of ISPs to sue for spam-related activity is 
vital, in conjunction with government enforcement, to controlling the 
spam problem.

4. THE NEED FOR STRONG CRIMINAL AND CIVIL PENALTIES AGAINST ``OUTLAW'' 
                                SPAMMERS

    While ISPs have used existing law to attempt to stem the tide of 
spam, stronger legislative enforcement tools are needed not only to 
keep up with the ever-evolving techniques of transmission evasion used 
by spammers, but also to establish the kinds of criminal penalties and 
civil damages necessary to deter spammers from engaging in such 
activities. Additionally, strong penalties prohibiting such ``outlaw'' 
techniques are essential to ensuring that future technologies promoting 
``trusted'' e-mail can be used to help improve consumers' e-mail 
experience.
    The ``outlaw'' techniques that spammers typically have used to 
conceal their activities include: (1) the falsification of e-mail 
transmission information and misappropriation of innocent third 
parties' domain names in such e-mails; (2) the transmission of e-mail 
from hacked e-mail accounts belonging to innocent users; and (3) 
registration for multiple e-mail accounts or domain names that are then 
used to establish false identities for transmitting spam.
    More recently, spammers have resorted to hijacking vast blocks of 
Internet addresses--so-called ``zombie netblocks''--from which spammers 
attempt to hide the scope of their activities by sending their e-mail 
in small quantities from literally thousands of different places. 
Additionally, there has been a sharp upsurge in spammers' surreptitious 
use of innocent parties' Internet servers--the so-called ``open 
proxies''--by which spammers convert computer servers to e-mail 
processing facilities for their spam, once again concealing both the 
true source and scope of their e-mail activities. The most alarming 
recent development is spammers' increasing use of computer viruses to 
turn the computers of consumers with residential broadband connections 
into an unwitting ``stealth'' network for spam transmission.
    ``Outlaw'' spam has increased alarmingly in the past year, and we 
believe that this dramatic growth underlies the astonishing increase in 
overall spam volume. These spammers are hijacking the computer 
resources and bandwidth of private consumers and businesses large and 
small, threatening to overwhelm the entire online medium.
    We are particularly pleased that both H.R. 2214 and H.R. 2515 
contain criminal prohibitions addressing these abuses, as well as ISP 
civil remedies that set statutory damage penalties. We look forward to 
working with the Subcommittees, this Committee and the Judiciary 
Committee on several refinements to make these prohibitions even more 
effective.
    Federal legislation also can serve an additional important purpose 
by establishing baseline rules of the road for those advertisers who 
use the e-mail medium to reach consumers, but who do not use ``outlaw'' 
transmission tactics. Such rules, combined with industry standards and 
new spam-fighting technologies developed by relevant stakeholders, will 
help ensure that marketers use e-mail responsibly, and also will 
enhance the ability of consumers to make choices, through the use of 
technology filters, about the kinds of email they wish to receive.
    We are pleased that Members of the Subcommittees and the full 
Committee have taken an interest in addressing the spam problem and are 
working to advance legislative solutions.
    In the meantime, AOL is committed to maintaining a leadership role 
in the fight against spam. The goodwill and trust of our members 
depends on our continued focus on developing solutions to this problem. 
Spam continues to be the number one issue that we hear about from our 
members, and is AOL's number one customer satisfaction priority. AOL 
will continue to pursue strong enforcement actions and innovate our 
spam fighting tools--giving our members even greater control. But 
ultimately, we believe the spam battle must be fought on many fronts 
simultaneously in order to be successful. From technology to education, 
from legislation to enforcement, industry and government can work 
together to reduce spam significantly and give consumers control over 
their e-mail inboxes.
    Thank you for the opportunity to testify; I am happy to answer any 
questions you may have on this topic.

    Mr. Stearns. Thank you very much.
    Mr. Rubinstein.

                   STATEMENT OF IRA RUBINSTEIN

    Mr. Rubinstein. Chairman Upton and members of the 
subcommittee, my name is Ira Rubinstein, and I am an associate 
general counsel at Microsoft Corporation. Thank you for this 
opportunity to share Microsoft's views on an issue that needs 
the attention of Congress and the work of your subcommittees: 
The adoption of effective anti-spam legislation that 
complements technological and industry-based measures and 
strengthen existing enforcement tools. We commend you for 
taking on an issue that harms millions of American consumers 
and businesses every day.
    Microsoft supports the legislation introduced by Chairman 
Tauzin and Representative Burr as well as legislation 
introduced by Representatives Wilson and Green, both of which 
are co-sponsored by several members of the subcommittees. These 
proposals will help strengthen existing enforcement mechanisms, 
including the abilities of ISPs to prosecute spammers on behalf 
of their customers and give law enforcement and the FTC 
additional means to penalize spammers. They also include 
important civil and criminal penalties that will help make 
fraudulent spammers more accountable and deter would be 
spammers from sending fraudulent e-mail to consumers. We 
commend the sponsors of these bills for their leadership and 
are grateful that these proposals contain these important 
elements.
    In my written testimony, I discuss Microsoft's 
technological advancements to help fight spam and our 
cooperation with law enforcement around the world to prosecute 
fraudulent spammers. Today, however, I want to address how 
Congress can enable technology to win the battle against spam. 
To date, the fight against spam has been largely devoted to 
filtering, which automatically screens e-mail messages and 
blocks those determined to be spam. Filtering has proven to be 
a critical mechanism to reduce the volume of spam. Microsoft 
filters block over 2.4 million spam messages a day from 
reaching our customers, but filters are in an arms race with 
the ever-growing volume of spam. Today, because filters do not 
have detailed information about senders, they sometimes capture 
wanted e-mail and let spam through. However, there a number of 
ways to improve filtering. By providing filters with more 
information about senders of commercial e-mail, we can reduce 
spam volume with minimal impact on accuracy of filters, thereby 
improving consumers' confidence in the e-mail messages they 
receive and their willingness to opt out from unwanted e-mail.
    Both industry and government have important roles to play 
in helping filters work better. Industry can help by creating 
organizations that will establish commercial e-mail guidelines 
and certify senders who follow such guidelines through seals 
that can be identified by filters and seen by customers. 
Similar organizations already help in protecting consumers' 
privacy online. For example, think of TRUSTe and BBBOnline. 
Backed by sufficient industry support, e-mail best practices 
could similarly help spam filters and consumers distinguish 
between legitimate businesses and unlawful spammers.
    Government can help by jump starting independent e-mail 
trust authorities through legislative initiatives. We believe 
legislation is necessary in this area because today, even 
though many individual companies are doing the right thing, 
there are no broadly adopted e-mail best practices. There is 
also no easy way for these companies to participate in such 
programs and show that they adhere to best practices. With a 
critical mass of participants, filters will work as intended 
and block unlawful spam from reaching consumers' in-boxes.
    To encourage the widespread adoption of e-mail best 
practices, a legislative incentive is needed. We suggest an 
ADV, or advertisement label, be put on all unsolicited 
commercial e-mail unless the sender comes within a safe harbor 
that requires membership in a best practice program. To be 
clear, we are not proposing a stand-alone ADV requirement; 
rather, we see it as a means to drive the widespread adoption 
of e-mail best practices. There are incentives other than ADV 
labeling that Congress could also select.
    Without mandating a technology or one-size-fits-all 
solution, our safe harbor identifies several basic components 
that industry guidelines must incorporate, such as giving 
consumers notice of how e-mail addresses will be used and to 
whom they will be disclosed. But the proposal is market-based 
permitting industry to take the lead in developing specific 
guidelines within these parameters. We expect a number of 
industry safe harbor organizations to emerge. We encourage the 
members of these subcommittees to include a legislative 
incentive that drives the widespread adoption of e-mail best 
practices in any anti-spam proposal. The importance of 
promoting technological solutions to fight spam should not 
overlooked.
    In conclusion, we commend the subcommittees for holding 
this hearing today and appreciate your determination to seek 
strong legislation to help stem spam. Microsoft is committed to 
working with you to craft effective Federal anti-spam 
legislation. Thank you.
    [The prepared statement of Ira Rubinstein follows:]

   Prepared Statement of Ira Rubinstein, Associate General Counsel, 
                         Microsoft Corporation

    Chairman Stearns, Chairman Upton, Ranking Member Schakowsky, 
Ranking Member Markey, and Members of the Subcommittees: My name is Ira 
Rubinstein and I am an Associate General Counsel at Microsoft 
Corporation. I want to thank you for the opportunity to share 
Microsoft's views on an issue that needs the attention of Congress and 
the work of your subcommittees: the adoption of effective anti-spam 
legislation that complements technological and industry-based measures 
and strengthens existing enforcement tools. There are plenty of 
statistics that document with convincing evidence that spam presents an 
intolerable burden to consumers and network operators alike, but all 
the evidence most Americans need is to log on their computer in the 
morning and see a string of e-mails that are at best distractions and 
all too often are illegal or shocking.<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ Last year, an estimated 1.8 billion spam e-mails were sent each 
day, accounting for nearly 40 percent of all e-mail sent over the 
Internet. This year, that number is expected to climb to well over 10 
billion a day. That is over half of all e-mail sent worldwide and is up 
from 7 percent in 2001. See Jonathan Krim, ``Spam's Cost to Business 
Escalates,'' Washington Post March 13, 2003 at A1 (citing study 
conducted by Brightmail Inc.).
---------------------------------------------------------------------------
    Microsoft is here today because the risk of inaction and the risk 
of not combating spam will render this vital communications medium so 
cluttered with interference that it will no longer be seen as a 
reliable and efficient communications tool. Spam filters are doing 
their best; indeed, Microsoft's filters block over 2.4 billion spam 
messages a day. But the filters cannot keep up with the ever-growing 
volume of spam. And consumers, understandably, are quickly losing 
confidence in the value of their inboxes. We welcome the important work 
of the Subcommittees and the sponsors of anti-spam legislation and look 
forward to working with you to see that strong anti-spam legislation is 
passed to preserve e-mail as an important link in our society.
    Microsoft brings to the debate on spam a perspective that sees the 
problem from different angles and reflects the policy balance facing 
the Subcommittees. As a provider of Internet and e-mail based services, 
Microsoft currently bears the bandwidth, storage, and software costs of 
processing spam and spends countless hours responding to customer 
concerns about their receipt of ever-growing amounts of junk e-mail. As 
a developer of filtering technology, we are constantly trying to 
prevent spam from clogging our e-mail system and stay a step ahead of 
spammers who use a range of illicit practices to avoid detection. And, 
as a company that uses e-mail to responsibly communicate with 
customers, we worry that our messages are getting lost in the noise of 
spam.
    This perspective drives us to recommend a balanced, multi-pronged 
approach to combating spam. This approach depends on the combined 
efforts of industry and government, and includes the following 
elements:

(1) Developing and implementing new and more sophisticated 
        technological tools to combat spam;
(2) Aggressive enforcement campaigns by both the private and public 
        sector to penalize illicit spamming practices and deter others 
        from engaging in these activities; and
(3) Federal legislation that strengthens existing enforcement tools and 
        encourages the widespread adoption of e-mail best practices and 
        a means for filters and consumers to identify senders that 
        adhere to such practices.
    First, I address the focus of this hearing--legislation to combat 
spam. I next turn to a discussion of technological developments and how 
we in industry are using our know-how to develop cooperative strategies 
to track down spammers. I then describe some of our recent enforcement 
actions against spammers and our work with law enforcement around the 
world to combat this growing problem.

             STRONG FEDERAL ANTI-SPAM LEGISLATION IS NEEDED

    Microsoft supports strong federal anti-spam legislation because the 
current legal and regulatory regime is simply not up to the task. 
Although ISPs have achieved some success in using litigation and other 
techniques to police spam, existing laws need to be strengthened to 
focus on the problems raised by spam, such as the forging of sender 
information, that make it difficult to prosecute spammers successfully. 
Also, the spam problem is not one that can be eradicated through the 
efforts of Microsoft and other ISPs alone. For these reasons, we 
support federal anti-spam legislation that strengthens existing 
enforcement mechanisms, including the ability of ISPs to prosecute 
spammers on behalf of their customers, and provides both law 
enforcement and the FTC with additional means to penalize spammers. A 
number of important legislative proposals have been introduced along 
these lines, including H.R. 2214 and H.R. 2515, and we commend the 
sponsors of these bills for their insight and look forward to 
continuing to work with them to craft effective anti-spam legislation.
    As the Subcommittees consider these proposals and seek to write 
legislation, we urge you to adopt:

<bullet> Incentives for legitimate marketers to distinguish themselves 
        and thereby improve technology. Legislation has a role to play 
        in supporting effective filtering technology by creating 
        incentives for e-mail marketers to adopt e-mail best practices 
        and to certify themselves as trusted senders who can be more 
        easily identified by consumers and filters alike. Promoting 
        technology in this fashion is an important addition to any 
        anti-spam proposal.
<bullet> Strong civil and criminal penalties for fraudulent e-mails. 
        Anti-spam legislation should prohibit the use of false or 
        misleading header information (including source, destination 
        and routing information), false or misleading subject lines, 
        and the misuse of third-party domain names and IP addresses. It 
        also should capture all bad actors involved in the chain of 
        sending fraudulent e-mail.
<bullet> Effective ISP, State AG and FTC Enforcement. Enforcement is a 
        critical component of attacking the spam problem. ISPs and law 
        enforcement currently invest considerable time and effort to 
        locate and prosecute spammers on behalf of their customers. 
        Anti-spam legislation should support these efforts and not 
        raise roadblocks--such as burdens of proof or affirmative 
        defenses--that will inhibit meaningful enforcement.
<bullet> Express language that preserves ISPs' right to combat spam. 
        ISPs have the incentive to combat spam; it is essential that 
        ISPs maintain the ability to do so. Any anti-spam law should 
        expressly state that its provisions do not impose an obligation 
        upon ISPs to carry or block certain types of e-mail messages. 
        Such a provision would not shelter ISPs from liability for 
        filtering; rather, it would simply clarify that the anti-spam 
        law does not grant senders of e-mail messages new rights that 
        they do not have today.
<bullet> Federal preemption with appropriate carve outs. Federal 
        preemption of state statutes that regulate the sending of 
        commercial e-mail messages is needed, provided the federal 
        anti-spam law contains strong substantive requirements. 
        However, ISPs rely heavily on state contract and trespass laws, 
        as well as laws relating to computer fraud and theft, in their 
        fight against spammers. Thus, preemption in any anti-spam law 
        should carve out such important state laws.

Industry Best Practices Buttressed by Strong Enforcement
    These legislative principles seek to enhance existing anti-spam 
technologies and leverage the self-regulatory features of a best-
practices regime with serious, and necessary, enforcement mechanisms. 
To date, much of the effort in the fight against spam has been devoted 
to ``filtering,'' which involves the automatic analysis of e-mail 
messages to determine whether or not they are spam. Once a filter has 
determined that a message is spam, the e-mail system can take 
appropriate action, such as placing the message in a Junk Mail folder 
or deleting it prior to delivery. Filtering has proven to be a useful 
and necessary mechanism to reduce the volume of spam traveling over ISP 
and corporate networks.<SUP>2</SUP> Already, filters on the servers at 
MSN and Hotmail block more than 2.4 billion messages a day, before they 
ever reach our customers' inboxes.
---------------------------------------------------------------------------
    \2\ An internal IT consultant at a Fortune 50 energy company 
conservatively estimates that filtering enables the company to save 
between $100 and $200 million per year. See Meredith Levinson, 
``Seething Over Spam,'' CIO, Jan. 2003, available at http://
www.cio.com/archive/111502/et--article.html.
---------------------------------------------------------------------------
    Even with the passage of legislation, filtering will continue to 
play an essential role, both as a means of dealing with those who 
ignore or are beyond the scope of the law (e.g., foreign spam) and to 
help consumers manage their inboxes. But technology needs help. Today, 
because filters do not have detailed information about senders, they 
may misclassify legitimate e-mail as spam (producing so-called ``false 
positives'') and mistakenly fail to catch all spam (producing ``false 
negatives''). By providing filters with more information about senders 
of commercial e-mail, we can reduce the risk of these types of mistakes 
and we can improve consumer's confidence in the e-mail messages they 
receive.
    Both industry and government have important roles to play in 
enabling filters to work better. Industry can help by creating 
independent e-mail trust authorities that will establish commercial e-
mail guidelines and certify senders who follow such guidelines through 
``seals'' that can be read by filters and understood by consumers. 
Similar authorities already help in protecting consumer's privacy 
online, with organizations such as TRUSTe and BBBOnline providing 
certification for websites that follow certain privacy guidelines. 
Backed by sufficient industry support, e-mail best practices could 
similarly help distinguish between legitimate businesses and 
spammers.<SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ One program that has established guidelines for e-mail 
communications is described at http://www.postiva.com/article/sitemap.
---------------------------------------------------------------------------
    Government can help by ``jump starting'' the creation of and 
participation in independent e-mail trust authorities. Today, few 
industry members follow broadly adopted e-mail guidelines and even 
fewer utilize technology to show that their messages adhere to such 
guidelines. An effective way to encourage marketers to adopt e-mail 
best practices is to give them an incentive to do so. Our proposal is 
that an advertisement or ``ADV:'' label be put on all unsolicited 
commercial e-mail unless the sender comes within a Safe Harbor that 
requires membership in an FTC-approved self-regulatory organization 
that complies with certain e-mail best practices. We want to make it 
clear that we are not proposing a stand-alone ``ADV:'' requirement but 
rather see it as a means to drive the widespread adoption of e-mail 
best practices. There may be other sound ideas on giving industry 
incentives to adopt e-mail best practices but use of the ``ADV:'' label 
has the additional benefit of allowing consumers to easily identify 
unsolicited commercial e-mail and to customize their spam filters to 
either deliver such mail or automatically delete it.
    Without mandating a technology or one-size-fits-all solution, this 
Safe Harbor proposal identifies several basic components that industry 
guidelines must incorporate, such as notice to consumers regarding the 
use and disclosure of their e-mail addresses. But the proposal is 
market-based, permitting industry to take the lead in developing 
specific guidelines that go above and beyond the basic e-mail best 
practices identified. This will allow industry self-regulatory 
organizations to emerge and compete on the basis of the strength of the 
e-mail practices they certify and on their enforcement. The Safe Harbor 
proposal also gives the FTC the authority to ensure e-mail trust 
authorities adopt e-mail practices that satisfy legislative 
requirements. Participants that fail to live up to the guidelines would 
face involuntary termination and mandatory public reporting. In 
addition, such participants would be referred to the FTC, thus 
providing the FTC with an additional enforcement tool.
    Critics claim that industry can do this on its own and therefore 
legislation is not necessary. But without appropriate incentives, there 
is no guarantee that a critical mass of industry members will certify 
their adherence to industry e-mail best practices. Without a critical 
mass, makers and users of spam filtering software will not bother to 
modify their software to recognize senders that participate in e-mail 
best practice programs. If only a few makers of email software modify 
their software to recognize such participants, few, if any, senders 
will comply because it would not be worth the expense.
    On the other hand, with a critical mass of participants, developers 
and users of spam filtering software would find it very useful to use a 
certificate of compliance with e-mail best practices as a means to help 
them avoid filtering good mail. In addition, legitimate senders would 
find it worth their cost to sign up. Better yet, if most or all 
legitimate mail senders sign up, then any remaining commercial e-mail 
would be from those unlawful spammers who do not abide by e-mail best 
practices and such e-mail could be filtered aggressively. In the end, 
filters would work as intended and block unlawful spam from reaching 
consumers' inboxes.
    Microsoft believes that the widespread adoption of e-mail best 
practices along with a method to associate e-mail communications from 
businesses that adopt such best practices will ameliorate many of the 
problems currently associated with spam. Consumers will be able to 
exercise choice since they can recognize e-mails from businesses that 
follow e-mail practices with which they are comfortable; businesses 
will be able to distinguish their legitimate electronic communications 
from spam; and filters will be better equipped to identify e-mail 
communications from legitimate senders, thereby reducing false-positive 
and false-negative problems.

     SPAM THREATENS VIABILITY OF E-MAIL AS A COMMUNICATIONS MEDIUM

    The reason why strong federal anti-spam legislation is needed is 
because spam plainly threatens the viability of what has become a 
critical communications medium. The anti-spam software company 
Brightmail has projected that at least half of all e-mails individuals 
and businesses receive will be spam by September 2003 or 
earlier.<SUP>4</SUP> By 2007, unless significant changes are made, it 
is estimated that more than 70 percent of all e-mail messages will be 
spam.<SUP>5</SUP>
---------------------------------------------------------------------------
    \4\ PR Newswire, ``Spam on Course to Be Over Half of All E-mail 
This Summer,'' July 1, 2003.
    \5\ ePrivacy Group, ``Spam: By the Numbers'' (2003), available at 
http://www.eprivacygroup.com (citing Radicati Group).
---------------------------------------------------------------------------
    The reason for this exponential growth is simple: spam is cheap and 
easy to send. For roughly ten dollars a month, a spammer can obtain an 
ISP account and for another thirty dollars, websites such as 
BulkBarn.com offer all of the following: 300,000 ``fresh bulk e-mail 
addresses'' a week, bulk e-mail starter kits, and free bulk e-mail 
software.<SUP>6</SUP> Using such systems, spammers can send 650,000 e-
mails per hour from an inexpensive mail server. And given that 100 
responses for every 10 million messages sent can generate a profit, 
spammers have no financial incentive to stop the massive junk 
mailings.<SUP>7</SUP> There is little reason for a spammer to limit the 
number of messages sent, or be selective about the chosen recipients, 
since the marginal cost of every additional message is effectively 
zero.
---------------------------------------------------------------------------
    \6\ Melissa Solomon, ``The Other Side,'' Computerworld, November 
11, 2002, available at http://www.computerworld.com/softwaretopics/
software/groupware/story/0,10801,75736,00.html.
    \7\ ePrivacy Group, ``Spam: By the Numbers'' (2003), available at 
http://www.eprivacygroup.com (citing the Detroit Free Press); Mylene 
Mangalindan, ``For Bulk E-mailer, Pestering Millions Offers Path to 
Profit,'' Wall Street Journal, November 13, 2002.
---------------------------------------------------------------------------
    Of course, spam is cheap to send, but not to receive. Ferris 
Research estimates that spam will cost U.S. corporations more than $10 
billion in 2003.<SUP>8</SUP> This figure includes productivity losses 
and the additional equipment, software, and manpower needed to combat 
the problem. According to some analysts, it costs roughly $250 to send 
a million spam messages, but it costs about $2,800 in lost wages, at 
the federal minimum wage, for those same million spam messages to be 
deleted.<SUP>9</SUP> And spam impacts all organizations, big and small. 
IDC estimates that for a company with 14,000 employees, the annual cost 
to fight spam is $245,000.<SUP>10</SUP>
---------------------------------------------------------------------------
    \8\ Scott Bekker, ``Spam to Cost U.S. Companies $10 Billion in 
2003,'' ENT News, January 9, 2003, available at http://www.entmag.com/
news/article.asp?EditorialsID=5651 (citing conclusions of Ferris 
Research study). [can we cite to actual Ferris Report?]
    \9\ Theo Emery, ``Meeting Takes Aim at Spam,'' Associated Press 
(citing researcher at MIT), available at http://www.ohio.com/mld/
beaconjournal/business/5028845.htm.
    \10\ Jonathan Krim, ``Spam's Cost to Business Escalates,'' 
Washington Post, March 13, 2003 at A1, available at http://
www.washingtonpost.com/ac2/wp-dyn/A17754-2003Mar12 .
---------------------------------------------------------------------------
    ISPs are hit particularly hard by the spam problem. They spend 
millions of dollars each year because of spam, implementing and 
updating filtering software, providing additional server space and 
processor power to deal with the high volumes of e-mail, and giving 
support to customers frustrated by the receipt of a barrage of unwanted 
messages. In addition, the transport and delivery of spam places 
significant stress on ISPs' mail servers, delaying the speed and 
effectiveness of all e-mail communications and causing system outages.
    Spam also harms the ability of legitimate businesses to use e-mail 
to communicate with existing customers. Many businesses are simply 
afraid to use e-mail to contact their customers for fear of being 
branded spammers. Others are concerned that their e-mails will not be 
found among the mass of spam filling up most consumers' in-boxes. This 
is of particular concern for critical service industries such as 
security and insurance firms, where customer contact is regulated and 
necessary and the communication vehicle they use must be reliable.
    The economies of spam favor the abusers and disfavor the victims--
i.e., consumers. Consumers are forced to spend time and energy 
assessing, reviewing, and discarding spam. In a study recently released 
by Symantec Corporation, 65 percent of the 1,000 people surveyed 
reported spending more than 10 minutes each day dealing with 
spam.<SUP>11</SUP> And 37 percent of the survey respondents indicated 
that they received more than 100 spam messages each week.<SUP>12</SUP> 
Consumers also must contend with e-mail messages that use misleading 
subject lines to induce them--or, worse, their children--into viewing 
messages that contain sexually explicit material. According to 
Symantec's survey, 69 percent of respondents agreed or strongly agreed 
that spam is generally harmful to e-mail users. In addition, 77 percent 
of respondents with children under the age of 18 noted that they are 
concerned or very concerned about their children reading 
spam.<SUP>13</SUP>
---------------------------------------------------------------------------
    \11\ News Release, ``Symantec Survey Reveals Growing Concerns Over 
Spam,'' http://www.symantec.com/press/2002/n021202.html.
    \12\ Id.
    \13\ Id.
---------------------------------------------------------------------------
    From virtually any perspective, spam has become a significant 
problem that threatens to cripple the worldwide e-mail system. 
Consumers are walking away from their e-mail accounts because they 
simply can't deal with the problem. It is time for the private and 
public sectors to come together to preserve the viability of this 
critical communications medium.

     INDUSTRY IS DEVELOPING NEW TECHNOLOGICAL TOOLS TO COMBAT SPAM

    We recognize that federal legislation alone is not sufficient to 
combat spam. This is why a critical element of Microsoft's multi-
faceted anti-spam strategy focuses on developing new and more 
sophisticated technological tools. Recognizing the increasing 
importance of fighting spam on behalf of our customers, we recently 
created a new Anti-Spam Technology and Strategy Group that brings 
together specialists from across the company and integrates all of our 
anti-spam strategy and R&D efforts. The combined efforts and expertise 
of this group has enabled us to create new anti-spam technologies that 
are even more precise, easier to use, and adaptable. We are working to 
integrate them into more of our products, particularly MSN, Hotmail, 
Outlook and Exchange.
    For example, MSN 8 employs machine-learning technology to enable 
customers to train their filters to separate desirable e-mail from 
undesirable spam. It also uses a collection of more than 200 million e-
mail addresses, called a Probe Network, to attract spam before it is 
delivered to a customer's e-mail inbox. Finally, it allows customers to 
choose from three levels of filtering protection to capture certain 
types of incoming e-mails, or they can choose to receive e-mails only 
from individuals who are on their ``safe lists.'' Microsoft also 
recently updated MSN 8 with further improvements in its spam 
technologies, giving customers an option to block offensive images in 
e-mail, and adding the ability to filter mail in languages besides 
English.
    Microsoft also recently announced the inclusion of new anti-spam 
technologies in our new Exchange Server 2003 for partners. One tool 
allows partners to integrate their anti-spam solutions with Exchange 
Server 2003 functions. Partner solutions will be able to scan incoming 
e-mail messages and attach a numeric score, or ``Spam Confidence 
Level'' (SCL), to each message. The SCL indicates the probability that 
the message is spam, and based on a threshold set by an administrator, 
the message will be forwarded to either the recipient's inbox or junk 
mail folder. Exchange 2003 also allows administrators to assign 
enterprise-wide ``allow/deny'' lists and to integrate real-time black 
hole list services, which provide immediate spam blocking if a sender 
is a known spammer. In addition to its anti-spam tool, Exchange Server 
2003 works with junk mail filters in Microsoft Office Outlook 2003. 
These filters allow users to block content using default settings, 
assign ``safe'' and ``block'' lists, automatically file junk mail to 
their trash folders, and profile spam by assigning points or scores to 
certain keyword identifiers.
    Microsoft has also joined forces with other ISPs to better enable 
systems operators and consumers to block and filter spam. In April, 
Microsoft, AOL and Yahoo! announced a wide-ranging set of initiatives 
to fight spam together. Since then, Earthlink has joined the effort, 
which involves promoting business guidelines, best practices and 
technical standards that can help curb spam sent or received via any 
online service or computing platform.
    As an example of our combined work in this regard, we are working 
on a new initiative aimed at eliminating the common practice of 
``domain spoofing'' where spammers substitute fictitious sending 
addresses and even remove all origination data to mask their true 
identity and location. Under this initiative, software used in 
transmitting and receiving e-mail will be able to determine whether a 
message that claims to originate from fred@example.com was actually 
sent from example.com. Spam filters can then take into account evidence 
of a spoofed domain when deciding whether or not a message is spam. 
This simple change alone will help filter out a significant percentage 
of spam.
    ISPs are working together to support other anti-spam technological 
advancements, including restricting e-mails from systems determined to 
be open to unauthorized use (such as open relays, open routers, or open 
proxies). We are also working together to share information about 
spammers who set up many different e-mail accounts to avoid detection. 
This will help put an end to this game and shut spammers down more 
effectively.

         ENFORCEMENT IS A CRITICAL COMPONENT OF COMBATING SPAM

    Enforcement is another critical element of our multi-pronged 
approach to fighting spam. On June 16, Microsoft filed 15 lawsuits in 
the United States and the United Kingdom against companies and 
individuals alleged to be responsible for billions of spam messages 
sent in violation of state and federal laws. We have undertaken this 
enforcement campaign in response to the thousands of subscriber 
complaints received every day. Like other providers or Internet access 
and e-mail services, our top priority is ensuring that our subscribers 
feel comfortable using e-mail to communicate.
    Our aggressive litigation campaign is targeted at stopping some of 
the most offensive e-mail practices affecting Microsoft customers. In 
some cases, defendants are alleged to have used deceptive and 
misleading subject lines to disguise e-mail messages that actually 
contained pornographic images, dating service solicitations and other 
adult services. One case involves e-mail messages that include a false 
virus warning. Recipients are instructed to download an ``update'' 
purported to protect their system, when in fact the download is nothing 
more than a toolbar that appears to track their movements on the 
Internet. In other cases, defendants are alleged to have ``spoofed'' 
the sender's e-mail address, making it seem that the spam originated 
from hotmail.com or other recognized senders. Among the defendants in 
the lawsuits are several individuals and entities that are listed as 
known spammers on Internet registries that monitor spam activities 
worldwide.
    Microsoft will continue to work with law enforcement around the 
world to enhance their enforcement efforts against spammers who rely on 
fraudulent means of transmission to circumvent anti-spam filters and 
mislead recipients. Such efforts will include: (1) developing better 
mechanisms for preserving electronic evidence relating to spammers' 
activities; (2) coordinating among ISPs and industry members to help 
ensure that anti-spam enforcement efforts are most effectively deployed 
against spam senders who cause the greatest impact on consumers; and 
(3) similarly coordinating in referring spammers for civil or, where 
appropriate, criminal enforcement actions. The goal of this effort will 
be to make spammers more accountable and to deter would-be spammers 
from using such ``outlaw'' techniques to send e-mail to consumers.
    Spam is a serious problem and the public and private sectors must 
coordinate on a broad response if we are going to be effective in 
addressing it. We believe that a multi-faceted approach is needed: 
better technology tools to enable consumers to keep spam from getting 
to their computer screens; more collaboration among the industry 
leaders so we can combine our resources; aggressive enforcement against 
people who are breaking the law; and effective federal anti-spam 
legislation that strengthens enforcement tools and enables technology 
to work better for the benefit of consumers. We commend the 
Subcommittees for holding this hearing today and appreciate your 
determination to seek strong legislation to help combat spam. And we 
thank you for extending us an invitation to share our experience and 
recommendations with you. Microsoft is committed to working with you to 
craft effective federal anti-spam legislation that will thwart the 
efforts of those who abuse e-mail and preserve the viability of the 
medium.

    Mr. Burr [presiding]. I thank the gentleman.
    The Chair recognizes Mr. Misener for opening statement.

                    STATEMENT OF PAUL MISENER

    Mr. Misener. Thank you, Mr. Chairman, very much and good 
afternoon. My name is Paul Misener. I am Amazon.com's vice 
president for Global Public Policy. Thank you very much for 
inviting me to testify this afternoon.
    Mr. Chairmen, Amazon.com deplores spam. We find it annoying 
and often offensive and increasingly designed to defraud, 
confuse or trick consumers. Therefore, tempered by the 
recognition that legitimate businesses occasionally make honest 
mistakes, we ask that you pass a strong, effective, nationwide 
anti-spam law.
    It almost goes without saying that spam annoys and often 
offends consumers. At very little cost to themselves, spammers 
cram our e-mail boxes full of messages from shady businesses 
about questionable products and services and often in ways that 
shock even the most worldly adults. The sheer volume of spam 
makes it increasingly difficult for consumers to receive the e-
mail, both personal and commercial, they want. Accordingly, 
Amazon.com's practice is to never spam. We send e-mail only to 
those individuals--our customers--with whom we have an extant 
relationship. And we provide our customers thorough choice 
mechanisms that allow them to determine for themselves how 
much, if any, e-mail they receive from Amazon.com. We believe 
this is simply good, pro-customer business practice.
    But spam has become even worse than annoying and often 
offensive. Spam is increasingly used to defraud, confuse and 
trick consumers. Many employ well-known fraud schemes, others 
may be more subtle, yet use fraud techniques that predate e-
mail communications. Offers to get rich quick, lose weight fast 
and find a date nearby are nothing new and are common in spam. 
Although efforts to confuse consumers are somewhat more 
sophisticated, spammers use classic sleights of hand, such as 
subject lines that entice recipients to open e-mails they 
otherwise would not. Examples are commercial e-mails that use 
highly informal or personal subject lines. The confusion 
doesn't last long, however, for once a consumer opens the 
message and finds an advertisement for diet pills the sleight 
of hand becomes obvious. This spam approach is not unlike 
common physical mail advertisements that are intentionally 
shaped, formatted and colored to look like a check. The whole 
idea is to get consumers to open the envelope but, once inside, 
the deception is over.
    Increasingly, however, Amazon.com has observed, and been a 
victim of, highly sophisticated techniques that convincingly 
trick consumers into thinking that an e-mail is coming from a 
reputable sender. This kind of deception is particularly 
insidious because the fraud not only involves what is said or 
how it is said but who purportedly is saying it. Indeed, over 
the past few months, many consumers have received commercial e-
mails from addresses such as frank@amazon.com or 
sally@amazon.com, but such e-mails were not sent by Amazon.com 
or anyone who works for the company. They are part of a growing 
problem called ``spoofing,'' whereby headers of commercial e-
mails are intentionally forged to appear to come from reputable 
companies or individuals. Technological solutions to the 
spoofing problem are elusive.
    Legal solutions are somewhat more promising. Current law, 
however, could be dramatically improved with new, nationwide, 
anti-spam legislation. Amazon.com is very grateful, Mr. 
Chairmen, that you and members of your subcommittees here are 
working on such legislation in a bi-partisan fashion, in close 
cooperation with the Judiciary Committee. We particularly 
appreciate the strong national policy that would be established 
by passing an anti-spam law this year and would support the 
inclusion of a provision that would allow the FTC to prosecute 
knowing beneficiaries of spam, not just the spammers 
themselves. But on behalf of our customers and company, 
Amazon.com will support particular anti-spam legislation only 
if it recognizes that legitimate businesses occasionally make 
honest mistakes that should not be proscribed. Please allow me 
to explain.
    Because commercial e-mail necessarily involves computers 
and human programmers, there have been and will continue to be 
occasional e-mail mistakes, no matter how many preventative 
measures are taken. Such truly honest mistakes are rare and 
certainly are not the cause of the in-box clutter and 
associated consumer angst that have led us all to this point. 
Of the acts that would be prohibited by the comprehensive anti-
spam bills now before the House, honest mistakes are obviously 
plausible only for accidentally sending e-mail to individuals 
who have opted-out of receiving them. Proscribing such mistakes 
would have the perverse effect of discouraging e-mail use by 
the most reputable companies. Amazon.com believes that H.R. 
2214 and H.R. 2515 would wisely distinguish between actions 
that may plausibly be mistakes and those that almost certainly 
involve unlawful intent. They would require plaintiffs 
complaining of commercial e-mail being sent after an opt-out 
choice to allege with particularity that the defendant has 
engaged in a, quote, ``pattern or practice'' of ignoring such 
choices. No such pattern or practice allegation would be needed 
for complaints regarding, for example, false headers.
    In conclusion, Mr. Chairman, Amazon.com deplores spam. On 
behalf of our customers and company, and tempered by the 
recognition that legitimate businesses occasionally make honest 
mistakes that should not be proscribed, Amazon.com respectfully 
asks that you pass strong, effective, nationwide anti-spam 
legislation this year. Thank you again for asking me to 
testify, Mr. Chairman. I look forward to your questions.
    [The prepared statement of Paul Misener follows:]

 Prepared Statement of Paul Misener, Vice President for Global Public 
                           Policy, Amazon.com

    Good morning, Chairman Upton and Chairman Stearns; Mr. Markey and 
Ms. Schakowsky; and members of the Subcommittees. My name is Paul 
Misener. I am Amazon.com's Vice President for Global Public Policy. 
Thank you very much for inviting me to testify today.
    Messrs. Chairmen, Amazon.com deplores spam. We find it annoying and 
often offensive and increasingly designed to defraud, confuse, or trick 
consumers. Therefore, tempered by the recognition that legitimate 
businesses occasionally make honest mistakes, we ask that you pass a 
strong, effective, nationwide anti-spam law.

                SPAM ANNOYS AND OFTEN OFFENDS CONSUMERS

    Messrs. Chairmen, it almost goes without saying that spam annoys 
and often offends consumers. At very little cost to themselves, 
spammers cram our email boxes full of messages from shady businesses, 
about questionable products and services, and often in ways that shock 
even the most worldly adults. The sheer volume of spam makes it 
increasingly difficult for consumers to receive the email, both 
personal and commercial, they want.

                 AMAZON.COM'S PRACTICE IS TO NEVER SPAM

    Accordingly, Amazon.com's practice is to never spam. We send email 
only to those individuals--our customers--with whom we have an extant 
relationship. And we provide our customers thorough choice mechanisms 
that allow them to determine for themselves how much--if any--email 
they receive from Amazon.com. We believe this is simply good, pro-
customer business practice.

   SPAM IS INCREASINGLY USED TO DEFRAUD, CONFUSE, OR TRICK CONSUMERS

    But spam has become even worse than annoying and often offensive. 
Spam is increasingly used to defraud, confuse, or trick consumers. Many 
employ well-known fraud schemes, such as the infamous Nigerian 
businessman hoax. Others may be more subtle, yet use fraud techniques 
that predate email communications: offers to get rich quick, lose 
weight fast, and find a date nearby are nothing new, but are common in 
spam.
    Although efforts to confuse consumers are somewhat more 
sophisticated, spammers still use classic sleights of hand, such as 
subject lines that entice recipients to open emails they otherwise 
would not. Examples are commercial emails that use highly informal or 
personal subject lines like, ``Party Next Week!'' or ``how's it 
going?'' The confusion doesn't last long, however, for once a consumer 
opens the message and finds an advertisement for diet pills the sleight 
of hand becomes obvious. This spam approach is not unlike common 
physical mail advertisements that are intentionally shaped, formatted, 
and colored to look like a check. The whole idea is to get consumers to 
open the envelope but, once inside, the deception is over.
    Increasingly, however, Amazon.com has observed--and been a victim 
of--highly sophisticated techniques that convincingly trick consumers 
into thinking that an email is coming from a reputable sender. This 
kind of deception is particularly insidious because the fraud not only 
involves what is said or how it is said, but who purportedly is saying 
it.
    Indeed, over the past few months, many consumers have received 
commercial emails from addresses such as frank@amazon.com or 
sally@amazon.com. But such emails were not sent by Amazon.com or anyone 
who works for our company. They are part of a growing problem called 
``spoofing,'' whereby headers of commercial emails are intentionally 
forged to appear to come from reputable companies or individuals.
    Technological solutions to the spoofing problem are elusive. At the 
network level, shortcomings in the underlying email software 
communications protocols make spoofing relatively easy to accomplish, 
yet virtually impossible to stymie. And, at the local consumer level, 
filtering software cannot effectively block spoofed messages without 
also blocking many legitimate ones. Legal solutions are somewhat more 
promising. Amazon.com and other companies are investigating spoofing 
incidents and considering a variety of civil actions. We also are aware 
that the FTC and state attorneys general have brought and are 
considering additional civil and criminal fraud or trade practice 
actions.

               AMAZON.COM SUPPORTS ANTI-SPAM LEGISLATION

    Current law, however, could be dramatically improved with new, 
nationwide, anti-spam legislation. Amazon.com is very grateful, Messrs. 
Chairmen, that you and members of your Subcommittees are working on 
such legislation, in a bi-partisan fashion, and in close cooperation 
with members of the Judiciary Committee. We particularly appreciate the 
strong, national policy that would be established by passing an anti-
spam law this year, and we would support the inclusion of a provision 
that would allow the FTC to prosecute knowing beneficiaries of spam, 
not just the spammers themselves. But, on behalf of our customers and 
company, Amazon.com will support particular anti-spam legislation only 
if it recognizes that legitimate businesses occasionally make honest 
mistakes that should not be proscribed.
    Please allow me to explain.

          HONEST, INFREQUENT MISTAKES SHOULD NOT BE PROSCRIBED

    Because commercial email necessarily involves computers and human 
programmers, there have been and will continue to be occasional email 
mistakes, no matter how many preventative measures are taken. Such 
truly honest mistakes are rare and certainly are not the cause of the 
in-box clutter and associated consumer angst that have led us all to 
this point. Not only are these mistakes expected and essentially not 
preventable, the harm to consumers is minimal, and there already are 
strong market forces at work: Reputable companies simply do not want to 
irritate consumers who have asked not to be bothered.
    Of the acts that would be prohibited by the comprehensive anti-spam 
bills now before the House, honest mistakes are obviously plausible 
only for accidentally sending email to individuals who have opted out 
of receiving them. Proscribing such mistakes would have the perverse 
effect of discouraging email use by the most reputable--and thereby 
most exposed--companies. Every day, Amazon.com sends tens of thousands 
of emails to our customers and, thus, just one simple mistake (such as 
accidentally sending a notice of a new jazz CD release to customers who 
have elected not to receive email on jazz music), could expose us to 
astronomical penalties. Surely, this is not the goal of anti-spam 
legislation. And, of course, the other acts that would be prohibited by 
the anti-spam bills--such as falsifying email headers--are so 
necessarily intentional or systematic that it would be implausible to 
claim that they are merely the result of honest mistake.
    Amazon.com believes that H.R. 2214 and H.R. 2515 would wisely 
distinguish between actions that may plausibly be mistakes and those 
that almost certainly involve unlawful intent. They would require 
plaintiffs complaining of commercial email being sent after an opt-out 
choice to allege with particularity that the defendant has engaged in a 
``pattern or practice'' of ignoring such choices. No such pattern or 
practice allegation would be needed for complaints regarding, e.g., 
false headers.
    Importantly, the ``pattern or practice'' language in these House 
bills would not create a loophole for the real spammers to escape 
punishment. In the first place, to reiterate, it does not apply to the 
prohibited acts that almost certainly are intentional or systematic, 
such as the falsification of header information; rather, it would only 
apply in the circumstance where an email is sent to an individual who 
has opted out of receiving such email. Moreover, true spammers do not 
have legitimate businesses that would occupy the vast majority of their 
emails. As a business necessity, spammers simply must have a pattern or 
practice of spamming, not just send an occasional spam. In other words, 
it will be very easy to tell the difference between the honest, 
infrequent mistakes of companies not in the spam business from the true 
spammers, who must spam most or all of the time.

                               CONCLUSION

    In conclusion, Mr. Chairman, Amazon.com deplores spam. On behalf of 
our customers and company, and tempered by the recognition that 
legitimate businesses occasionally make honest mistakes that should not 
be proscribed, Amazon.com respectfully asks that you pass strong, 
effective, nationwide anti-spam legislation.
    Thank you again for inviting me to testify. I look forward to your 
questions.

    Mr. Burr. Thank you very much.
    The Chair would recognize Mr. Hirschman for the purposes of 
an opening statement.

                 STATEMENT OF KENNETH HIRSCHMAN

    Mr. Hirschman. Thank you, Mr. Chairman. Mr. Chairman and 
members of the committee, thank you for inviting me to testify. 
My name is Ken Hirschman, and I am general counsel of Digital 
Impact. Digital Impact is a provider of online direct marketing 
solutions for enterprises, including numerous Fortune 500 
companies who have embraced permission-based e-mail as a viable 
and efficient customer communication and marketing tool. 
Digital Impact is also a founding member of the E-mail Service 
Provider Coalition of the Network Advertising Initiative, which 
was formed to represent the interests of e-mail service 
providers. Thirty-four other e-mail service providers have 
joined Digital Impact in the E-mail Service Provider Coalition, 
all of which are struggling with the onslaught of spam and the 
emerging problems related to the deliverability of legitimate 
and wanted e-mail.
    E-mail service providers enable their customers to deliver 
volume quantities of e-mail messages. While E-mail Service 
Providers serve the marketing needs of the business community, 
marketing is by no means the only focus of E-mail Service 
Providers. E-mail Service Providers also deliver transactional 
messages, such as account statements, airline confirmations and 
purchase confirmations, e-mail publications, such as online 
newsletters, affinity messages and relational messages.
    We believe that much can be done to solve the problem of 
spam. At the most fundamental level, we believe that we need to 
create accountability within the e-mail delivery system. 
Spammers spend their days inventing new methods to obscure and 
falsify their identity in order to sneak past existing filters 
and avoid accountability. Legitimate e-mail service providers 
would never engage in such practices. We believe through a 
combination of Federal legislation and technology we can bring 
accountability to e-mail.
    Part of the problem in treating the spam epidemic is that 
spammers enjoy anonymity. Spammers hide behind open relays, as 
I said before, they forge their identity, and they deceive 
recipients with misleading from and subject lines. Make no 
mistake, the business of spamming is one of fraud and 
deception. The E-mail Service Provider Coalition recently 
proposed an architectural blueprint to respond to this problem. 
The blueprint, called Project Lumos, is designed to force 
senders of volume e-mail to incorporate authenticated 
identification into every message sent. The use of 
authenticated identification, together with a rating of sending 
practices over time, prevents spammers from hiding behind the 
technology of e-mail and forces all senders to be accountable 
for their sending practices. We have engaged with many of the 
major ISPs and other groups on this effort and are greatly 
encouraged by the traction our effort has gained since our 
launch just 3 months ago.
    But technology isn't enough. The E-mail Service Provider 
Coalition strongly supports Federal legislation to respond to 
the growing menace of spam. We believe that strong preemptive 
Federal legislation will be a critical component in the 
successful resolution of the spam problem. One issue that has 
been raised in the discussion of proposed Federal spam 
legislation is that of a safe harbor. Such a provision would be 
welcome in this legislation as it would mandate accountability 
by requiring all mailers to identify themselves and adhere to 
standards of behavior in order to benefit from its protections. 
In addition, and probably more important, a safe harbor will 
offer redress to consumers that is not present in the proposed 
legislation.
    Again, Digital Impact and the rest of the members of the E-
mail Service Provider Coalition are very supportive of the Rid 
Spam Act. We will continue to work with staff on certain 
details of the bill, but we look forward to seeing a Federal 
law enacted this year. Mr. Chairman, on behalf of Digital 
Impact and the E-mail Service Provider Coalition, I want to 
pledge that we will continue to work with you and members of 
your staff. Spam is a complex problem and efforts to craft 
solutions must be thoughtful, robust and effective. Thank you 
and I look forward to any questions you may have.
    [The prepared statement of Kenneth Hirschman follows:]

   Prepared Statement of Kenneth Hirschman, Vice President & General 
                     Counsel, Digital Impact, Inc.

    Mr. Chairman and Members of the Committee, I want to thank you for 
inviting me to testify. My name is Ken Hirschman, and I am Vice 
President and General Counsel of Digital Impact, Inc. Digital Impact is 
the premier provider of online direct marketing solutions for 
enterprises, including numerous Fortune 500 companies who have embraced 
permission-based email as a viable and efficient customer 
communications and marketing tool.
    Digital Impact is also a founding member of the Email Service 
Provider Coalition of the Network Advertising Initiative (NAI), which 
was formed to represent the interests of email service providers. 
Thirty-four other email service providers have joined Digital Impact in 
the ESP Coalition, all of which are struggling with the onslaught of 
spam and the emerging problems related to the deliverability of 
legitimate and wanted email.
    The NAI is a cooperative group of companies dedicated to resolving 
public policy concerns related to privacy and emerging technologies. In 
the past, the NAI has created self-regulatory programs for online ad 
targeting and the use of web beacons. The group has now turned its 
focus to the growing problem of spam and the related concern of email 
deliverability.
    Let me begin my testimony by explaining the unique role that email 
service providers play in the search for solutions to the spam problem.
    Email service providers enable their customers to deliver volume 
quantities of email messages. These messages originate from the full 
spectrum of the US economy--large and small businesses, educational 
institutions, non-profits, government agencies, publications, and 
affinity groups all use the services of ESPs to communicate with their 
customers, members and constituents. While ESPs often serve the 
marketing needs of the business community, we also deliver 
transactional messages (such as account statements, airline 
confirmations, and purchase confirmations), email publications, 
affinity messages and relational messages.
    The ESP industry is robust and growing. Within the ESP Coalition, 
we estimate that the 35 members provide volume email services to over 
250,000 clients. These customers represent the full breadth of the U.S. 
marketplace--from the largest multi-national corporations to smallest 
local businesses; from local PTAs to national non-profit groups and 
political campaigns; from major publications with millions of 
subscribers to small affinity-based newsletters.
    Jupiter Research estimates that the email marketing industry 
(which, again, is only a portion of the total spectrum of ESP 
customers) will grow in size to 2.1 billion dollars in 2003 (up from 
1.4 billion dollars in 2002). By 2007, Jupiter estimates that the size 
of the email marketing industry will reach 8.2 billion dollars. All of 
these numbers are for the US market alone. Expanding the scope of this 
research to include all customers served by ESPs and foreign markets 
would increase these numbers significantly.
    But the size and importance of email in the marketplace should not 
be measured by dollars alone. Email is indeed the ``killer app''. Over 
the past ten years, email has been a strong driver of productivity and 
efficiency in the marketplace. It has also been an important social 
tool. Email has shortened distances in the world--allowing 
communication to occur with unprecedented speed and detail. Email has 
created affinity within groups that previously were too widely 
separated geographically to effectively recognize their common 
interests and positions.
    As an example of the importance of email, a recent study by the 
META Group showed that, given a choice between email or telephones, 74% 
of business people would give up their phones before email. In other 
words, 74% of people now find email to be more critical than the 
telephone in their daily work.

             THE THREAT OF SPAM AND THE SOLUTION(S) TO SPAM

    The ESP Coalition sees spam as a threat to the long-term viability 
of the email service provider industry and to legitimate commercial 
email. Indeed, spam presents a dire threat to all uses of email--
marketing, transactional, affinity and relational--as the continued 
growth of spam could lead to the widespread abandonment of email as a 
communications tool. Consumers and businesses will not use email if the 
system becomes so choked with misleading and deceptive messages that 
those messages that are actually wanted are lost in the fray. Put 
simply, the spam problem will critically damage the ESP industry and 
the use of legitimate commercial email if it is not curtailed.
    I will not belabor the statistics on the growth of spam or the 
costs associated with handling spam. Surely all of the panelist can 
agree that we are presented with an enormous problem. Without an 
expedient solution, spam may end up killing the ``killer app'' of 
email.
    The media and marketplace have been replete with spam solutions for 
years. Some of these solutions have performed commendably in the fight 
against spam. But the problem still exists and continues to grow. 
Increasingly, we are presented with the question: can anything be done?
    We believe that much can be done to solve the spam problem. At the 
most fundamental level, we believe that we need to create 
accountability within the email delivery system. Spammers spend their 
days concocting new methods to obscure and falsify their identity in 
order to sneak past existing filters and avoid accountability. In many 
ways, our existing tools are merely reacting to the spam received 
today--and not preparing for or combating the spam that will arrive 
tomorrow. Stated differently, our efforts to cure spam are responding 
to the symptoms (the actual spam received) and not the cause (the lack 
of accountability on the part of spammers).
    So how do create accountability within the email system?
    The solution to spam exists in three components: legislative, 
technological and social. Let me address the technological and social 
components quickly and then focus on the part of the solution for which 
we look to you: federal legislation.

                      THE TECHNOLOGICAL COMPONENT

    Part of the problem in solving spam is that spammers enjoy impunity 
through anonymity. Spammers hide behind open relays, they falsify their 
online identities (a practice popularly known as ``spoofing'') and they 
deceive recipients with misleading ``from'' and ``subject'' lines. Make 
no mistake--the business of spamming is one of fraud and deception.
    The recent efforts of the FTC in relation to open relays and 
deceptive spam should be commended. It is critical that we have strong 
deterrents to dissuade spammers from their trade. But the fundamental 
architecture of the internet and email protocols still allow for the 
deception to occur.
    The NAI recently proposed an architectural ``blueprint'' to respond 
to this problem. Essentially, the NAI's blueprint, called ``Project 
Lumos,'' is designed to force senders of volume email to incorporate 
authenticated identification into every message sent. The use of 
authenticated identity, along with a rating of sending practices over 
time, prevents spammers from hiding behind the technology of email and 
forces all senders to be accountable for their sending practices. We 
have engaged with many of the major ISPs and other groups on this 
effort and are greatly encouraged by the traction our effort has gained 
since our launch of project Lumos in April of this year.
    Other technological solutions also hold promise. The NAI is 
actively working with other constituencies in the marketplace to bring 
about such solutions. I hope that we will have much more to share with 
you before the end of this year.

                          THE SOCIAL COMPONENT

    One part of the spam problem that has not been actively discussed 
is the need for consumer education around the appropriate use of email 
addresses.
    The Center for Democracy and Technology (www.cdt.org) recently 
released a study on the consumer actions that result in exposure of 
email addresses and, subsequently, spam. The results were compelling: 
the CDT report found that appropriate management of an email address by 
the holder of that address can drastically reduce the amount of spam 
received. Further, the study found that there are a few actions that 
can create enormous amounts of spam. Specifically, the CDT reported 
that posting an email address on a public website and posting an email 
address in a public newsgroup or chatroom both resulted in huge amounts 
of spam. This is due to the use of ``spiders'' or ``bots''--programs 
that scour the web for email addresses and harvest them into a 
spammer's database.
    Clearly, one component in the total solution to spam is the 
education of consumers on issues such as those raised by the CDT 
report. If consumers understand those practices that result in spam, 
they will be much better equipped to control the amount of spam in 
their in-boxes.

                       THE LEGISLATIVE COMPONENT

    The ESP Coalition strongly supports federal legislation to respond 
to the growing menace of spam. We believe that strong preemptive 
federal legislation will be a critical component (but not the only 
component) in the successful resolution of the spam problem.
    In the United States today, 33 states have enacted some form of 
spam legislation. Many more are considering spam legislation in their 
current legislative sessions. Unfortunately, the standards applied by 
these statutes (and proposed in pending bills) are not harmonized. As a 
result, we have a crazy quilt of differing standards that has created 
an unnecessarily complex compliance system. To make matters worse, 
enforcement within the global medium of email is exceedingly difficult 
when limited by state boundaries. We need preemptive federal 
legislation to unify these standards and provide powerful tools to 
enforcement officials.
    We believe that the RID SPAM Act strikes the appropriate balance 
with regard to preemption. The RID SPAM Act would allow for a national 
standard to be set for the delivery of unsolicited commercial email. 
Given the incentives provided within the bill, most businesses will 
move to a fully consent-based model for email delivery. This is 
particularly true where the standard set by the bill will be uniform 
across the entire country. To combat spammers, the bill provides strong 
enforcement tools to the FTC, state attorneys general, and ISPs. We 
strongly support enforcement by all of these groups.
    One issue that has been raised in discussions regarding spam 
legislation, and may be raised again, is that of a private cause of 
action. Such a solution, while tempting, would do nothing to stop spam 
and would definitely create a morass of litigation against legitimate 
companies. Spammers spend their days looking for ways to 
technologically obscure their identities. Pursuing spammers requires 
enormous technological, financial and investigative resources. 
Individuals do not have such resources, but governments and ISPs do.
    We have a very real example of what a private cause of action means 
when included in a spam statute. In the state of Utah, a spam statute 
was passed last year that allows for a private cause of action and 
class action suits. A single plaintiff's class action law firm in Utah 
has filed hundreds (and by some accounts, over a thousand) class action 
lawsuits under this statute. But the firm is not pursuing spammers. 
Given the cost and complexity of finding actual spammers, this firm has 
targeted leading companies and brands--using firm employees as 
plaintiffs and offering pre-complaint settlements for several thousands 
of dollars--knowing that companies would rather pay the nuisance value 
of these suits than submit to the costly process of proving their 
innocence. Perhaps most telling is the fact that there is no data to 
suggest that the amount of spam in Utah has been reduced by even one 
message.
    Another issue that has been raised in relation to spam legislation 
is that of ``opt-in'' versus ``opt-out''. Over the past few years, our 
industry has lost critical time debating this issue, while spam has 
been allowed to proliferate.
    Let me make one thing perfectly clear: the debate over ``opt-in'' 
or ``opt-out'', regardless of what standard is eventually adopted, will 
not result in the reduction of spam. Spammers rely on deception, not 
permission. They do not care about whether they have any sort of 
relationship with the recipient of the message. They pay no heed to all 
of the existing state laws regarding spam. The most restrictive ``opt-
in'' spam statute will do nothing to dissuade spammers from sending 
their messages.
    A recent FTC study conveys this point succinctly. By reviewing a 
large body of spam received within the agency, the FTC estimated that 
fully two thirds of spam is fraudulent, misleading or deceptive. This 
means that the majority of spam already violates existing law.
    As currently written, the RID SPAM Act will provide important 
incentives for legitimate businesses to raise their email standards. 
Digital Impact and the NAI firmly believe that email must be sent with 
the consent of the recipient, or within a pre-existing business 
relationship. Furthermore, we believe that email should be sent with 
informed consent--meaning that recipients have clear and conspicuous 
notice as to the results of providing their email address. This is a 
meaningful and workable standard.
    Again, we strongly support the RID SPAM Act. We will continue to 
work with staff on a few issues we have with the bill, but look forward 
to seeing a law enacted this year.

                 THE THREAT OF FILTERING AND BLACKLISTS

    Before I conclude today, I want to raise one growing problem in the 
fight against spam. While spam clearly represents a serious threat to 
the continued viability of email, the problems created by some of the 
current tools used to combat spam are equally threatening. Internet 
Service Providers (ISPs) are aggressively building filtering 
technologies to limit the amount of spam entering their systems. 
Conceptually, this is a positive development. However, the spam filters 
currently in place are creating a new problem: wanted email is not 
being received.
    According to a report by Assurance Systems, in the fourth quarter 
of 2002, an average of 15% of permission-based email was not received 
by subscribers to the major ISPs. Some ISPs had non-delivery rates that 
were startling: NetZero, 27%; Yahoo, 22%; AOL, 18%; Compuserve, 14%; 
and AT&T, 12%.
    The same report for the third quarter of 2002 showed an average of 
12% non-delivery rate for the major ISPs--meaning that the filtering of 
permission-based email increased 25% in a single calendar quarter. Some 
of the volume email campaigns within the Assurance Systems report had 
non-delivery rates as high as 38%.
    Non-delivery of wanted messages due to filtering (called ``false 
positives'' within the industry) represents an enormous threat to the 
ongoing viability of email as an effective communications tool. The 
market will stop using email for important communications if email 
delivery is unreliable. It is critical that false positives be 
eliminated if email is to survive as an efficient and productive means 
for communication.
    One of the main drivers in the false positive problem is the 
emergence of blacklists. These are lists of alleged spammers that ISPs 
can use to filter incoming email. The blacklist operator builds a 
registry of IP addresses that they believe are associated with spam and 
makes it available publicly. Currently, there are an estimated 300 
blacklists in operation.
    Again, the concept of a blacklist may seem to make sense at first 
glance. Unfortunately, the reality of blacklists in today's marketplace 
is far different.
    Many blacklists are without standards and operate behind a veil of 
anonymity. For example, one of the leading blacklists, SPEWS 
(www.spews.org), offers no contact information, no phone numbers, no 
names, no addresses, and no email for the organization. The website has 
purportedly been registered in Irkutsk, Russia. SPEWS has no defined 
standards for posting to their blacklist--evidence has shown that a 
single complaint can result in the blocking of an entire range, or 
``neighborhood,'' of IP addresses. Further, for those senders listed on 
SPEWS, the only way to resolve the problem is to post your request for 
removal to a public spam forum available through Google (http://
groups.google.com/groups?hl=en&lr=&ie=UTF-8&oe=UTF-
8&group=news.admin.net-abuse.email).
    All of these efforts are designed to combat spam. But in their zeal 
to eliminate the problem, they have created a potentially disastrous 
``ricochet'' effect: false positives. Going forward, our solution to 
spam must carefully balance the need for strong action against spammers 
with a determination to preserve the deliverability of legitimate 
email.

                               CONCLUSION

    Digital Impact and the NAI believe that the problem of spam will be 
best resolved through three powerful forces: legislation (together with 
vigorous enforcement), technology and consumer education. The NAI is 
actively working with ISPs and solutions providers to craft 
architectural solutions to spam that will shine the bright light of 
accountability into the dark recesses of the internet. We strongly feel 
that technology must be used to force spammers to identify themselves 
and be held accountable for their practices. We also believe that 
consumers must understand the need for careful management of their 
email addresses. We could drastically reduce the amount of spam 
received by average consumers through educational efforts on what not 
to do with an email address.
    But the technological and educational solutions are not enough. We 
need a strong federal statute to raise the standards for email 
practices across the entire country. Legitimate businesses will respond 
to such a statute by raising their practices to meet or exceed the 
standard set by law. Enforcement officials at both the state and 
federal level and ISPs will have powerful tools to seek out and bring 
to justice those individuals responsible for spam. And we can do it 
while maintaining the balance necessary to preserve the legitimate use 
of email.
    Mr. Chairman, on behalf of Digital Impact and the other members of 
the NAI Email Service Provider Coalition, I want to pledge that we will 
continue to work to fight spam and preserve email with you and members 
of your staff. Spam is a complex problem and our efforts to craft 
solutions must be thoughtful, robust and effective.
    Thank you and I look forward to any questions you may have.

    Mr. Stearns. I thank the gentleman.
    Ms. Selis?

                    STATEMENT OF PAULA SELIS

    Ms. Selis. Thank you, Mr. Chairman.
    Mr. Stearns. Just pull the mike up close to you.
    Ms. Selis. There we go. Thank you, Mr. Chairman, members of 
the committee, and thank you for having me testify today. My 
name is Paula Selis, and I am senior counsel with the 
Washington State Attorney General's Office, Consumer Protection 
Division. Led by our attorney general, Christine Gregoire, 
Washington has been a pioneer in the fight against unlawful 
spam and was one of the first to pass a law in 1998 prohibiting 
false or misleading subject lines, headers and points of 
origin. Our law has survived a constitutional challenge that 
took us to the U.S. Supreme Court and has been used as a 
successful enforcement tool not only by our office, but by 
ISP's, some of whom are here today, and private individuals, 
consumers themselves.
    But has it been enough to stop the onslaught of spam? It 
has not. Spam continues to be the No. 1 source of consumer 
complaints to our office. It continues to bring pornography, 
phony get-rich-quick schemes, pyramid schemes and computer 
viruses into our homes. One State alone cannot change the 
landscape. It is simply not enough of a deterrent to spammers 
that they might be sued in 1, 2 or even 12 States. As long as 
it is cheap to send spam, when even a 1 percent rate of return 
on millions of e-mail messages yields a profit, spammers will 
make money and stay in business. That is why we need a strong 
Federal law-to create a deterrent that reaches further than the 
States can go and raise the cost of doing business for spammers 
so it is no longer profitable to operate. We must take the 
profit out of spam to take the spam out of our in-boxes.
    The bills currently before your committee must be viewed in 
light of this bottom line analysis. Do they effectively deter 
spammers by raising their cost of doing business? Is the cost 
of violating the law high enough to force compliance with it? 
To accomplish these goals, the bills must not only create 
uncapped financial penalties for violations, they must also 
empower as many entities as possible to take action. Not only 
should States, ISPs and the FTC have the right to sue spammers 
under every cause of action under the law, so should private 
consumers who must bear the brunt of in-boxes filled with junk. 
The bills also need to create as many substantive protections 
as possible and leave a clear path for States to take action 
when their laws are stronger. Causes of action for false 
subject lines and dictionary attacks where a domain can be 
overwhelmed by a flood of spam are essential. Mandatory 
identifier information as well as opt-out options are also 
essential. Criminal penalties, which the State of Virginia has 
pioneered, should be a fundamental part of the legislation, but 
there must be adequate civil enforcement ability to assure 
those substantive requirements are complied with.
    A comparison of the two bills under consideration 
demonstrates the relative strength of one over the other. While 
their aims are similar, H.R. 2515 provides more substantive 
protection, more enforcement options and more deterrent effect. 
H.R. 2515 not only requires the inclusion of identifier 
information in a piece of spam, it creates a cause of action 
for States and ISPs against a spammer who fails to comply. H.R. 
2214 does not. Like many strong laws, including Washington's, 
H.R. 2515 prohibits a very common tactic for spammers--the use 
of false subject lines. H.R. 2214 does not. H.R. 2515 permits a 
State to sue a spammer who fails to honor an opt-out request. 
H.R. 2214 does not.
    The limitation on damages in H.R. 2214 is also problematic. 
The bill limits damages to $100 per violation, in contrast to 
the more effective deterrent level of $500 provided for in H.R. 
2515. This limitation on per-violation damages in 2214 is 
compounded by the limitation on aggregate damages that can be 
obtained by a State enforcement authority. There is no reason 
to cap damages for violations involving hundreds of millions of 
spam. It is unprecedented. H.R. 2515 does not contain these 
limitations.
    Additionally, H.R. 2214 creates burdens on enforcement that 
are unprecedented in consumer protection statutes. While the 
bill prohibits a spammer from sending additional spam once a 
consumer has opted out of receiving it, a violation can only be 
demonstrated if the spammer knew or should have known of the 
opt-out request. This means an enforcement authority, such as 
the FTC, must prove the spammer's level of knowledge to prevail 
in court, a standard unknown under currently existing trade 
law. The level of knowledge required under 2214 to prove a 
civil violation is more akin to that of a criminal statute. In, 
contrast, H.R. 2515 does not create these barriers to civil 
enforcement.
    In conclusion----
    Mr. Stearns. Do you mind just taking your speaker and 
shutting it off for a second?
    Ms. Selis. Okay.
    Mr. Stearns. Okay. Now try it.
    Ms. Selis. All right.
    Mr. Stearns. Yes.
    Ms. Selis. Okay. We will go from here. These differences as 
well as others in the two bills are surmountable and should not 
stand in the way of passing effective legislation. Our office 
will continue to work with staff to provide support and 
suggestions based on our own experience with our own State law.
    In conclusion, we support the work of this committee in 
tackling the enormous and growing issue of spam. We urge you to 
pass a bill that is as strong as possible, that gives consumers 
and ISPs adequate substantive protections and creates 
sufficient deterrent mechanism to take the profit out of spam. 
Thank you.
    [The prepared statement of Paula Selis follows:]

Prepared Statement of Paula Selis, Senior Counsel, Washington Attorney 
                  General's Office of Attorney General

    My name is Paula Selis and I am Senior Counsel with the Washington 
State Attorney General's Office Consumer Protection Division. Led by 
our Attorney General, Christine Gregoire, Washington has been a pioneer 
in the fight against unlawful spam and was one of the first to pass a 
law in 1998 prohibiting false or misleading subject lines, headers and 
points of origin. Our law has survived a constitutional challenge that 
took us to the U.S. Supreme Court, and has been used as a successful 
enforcement tool not only by my office, but by ISP's and private 
individuals.
    But has it been enough to stop the onslaught of spam? It has not. 
Spam continues to be the number one source of consumer complaints to 
our office. It continues to bring pornography, phony get-rich-quick 
schemes, pyramid scams and computer viruses into our homes.
    One state cannot change the landscape. It is simply not enough of a 
deterrent to spammers that they might be sued in one, two, or even 
twelve states. As long as it's cheap to send spam, when even a 1% rate 
of return on millions of email messages yields a profit, spammers will 
make money and stay in business.
    That's why we need a strong federal law--to create a deterrent that 
reaches further than the states can go, to raise the cost of doing 
business for spammers so it's no longer profitable to operate. We must 
take the profit out of spam to take the spam out of our in-boxes.
    The bills currently before your committee must be viewed in light 
of this bottom line analysis--do they effectively deter spammers by 
raising their cost of doing business? Is the cost of violating the law 
high enough to force compliance with it?
    To accomplish these goals, the bills must not only create uncapped 
financial penalties for violations--they must also empower as many 
entities as possible to take action. Not only should states, ISP's and 
the FTC have the right to sue spammers under every cause of action 
under the law, so should private consumers who must bear the brunt of 
in-boxes filled with junk.
    The bills also need to create as many substantive protections as 
possible, and leave a clear path for states to take action when their 
laws are stronger. Causes of action for false subject lines and 
``dictionary attacks'' where a domain can be overwhelmed by a flood of 
spam are essential. Mandatory identifier information as well as opt-out 
options are also essential. Criminal penalties, which the state of 
Virginia has pioneered, should be a fundamental part of the 
legislation. But there must be adequate civil enforcement ability to 
assure those substantive requirements are complied with.
    A comparison of two of the many bills under consideration 
demonstrates the relative strength of one over the other. While their 
aims are similar, HR 2515 provides more substantive protection, more 
enforcement options and more deterrent effect. HR 2515 not only 
requires the inclusion of identifier information in a piece of spam--it 
creates a cause of action for states and ISP's against a spammer who 
fails to comply. HR 2214 does not. Like many strong state laws, 
including Washington's, HR 2515 prohibits a common tactic for 
spammers--the use of false subject lines. HR 2214 does not. HR 2515 
permits a state to sue a spammer who fails to honor an opt-out request. 
HR 2214 does not.
    The limitation on damages in HR 2214 is also problematic. The bill 
limits damages to $100 per violation, in contrast to the more effective 
deterrent level of $500 provided for in HR 2515. This limitation on 
per-violation damages in HR 2214 is compounded by the limitation on 
aggregate damages that can be obtained by a state enforcement 
authority. There is no reason to cap damages for violations involving 
hundreds of millions of spam. HR 2515 does not contain these 
limitations.
    Additionally, HR 2214 creates burdens on enforcement that are 
unprecedented in consumer protection statutes. While the bill prohibits 
a spammer from sending additional spam once a consumer has opted out of 
receiving it, a violation can only be demonstrated if the spammer knew 
or should have known of the opt-out request. This means an enforcement 
authority, such as the FTC, must prove the spammer's level of knowledge 
to prevail in court, a standard unknown under currently existing trade 
law. The level of knowledge required under HR 2214 to prove a civil 
violation is more akin to that of a criminal statute. In, contrast, HR 
2515 does not create these barriers to civil enforcement.
    These differences as well as others in the two bills are 
surmountable and should not stand in the way of passing effective 
legislation. Our office will continue to work with staff to provide 
support and suggestions based on our experience with our own state law.
    Strong legislation is only one part of the solution. As a state 
attorney general's office, we believe that consumer education is also 
important, as is the advent of technology. If legislation is passed, it 
must be flexible enough to allow for new technologies that may 
ultimately be more effective than any law. There is no easy fix to this 
problem, and it will take all the tools we have to address it.
    In conclusion, we support the work of this committee in tackling 
the enormous and growing issue of spam. We urge you to pass a bill that 
is as strong as possible--that gives consumers and ISP's adequate 
substantive protections, and creates sufficient deterrence and 
meaningful enforcement mechanisms to take the profit out of spam.

    Mr. Stearns. I thank the gentlelady.
    Mr. Murray?

                 STATEMENT OF CHRISTOPHER MURRAY

    Mr. Murray. Subcommittee Chairman Stearns and other 
distinguished members of the committee, I am here today to 
represent the print and--Consumers Union, the print and online 
publisher of Consumer Reports magazine. I would like to thank 
you for the opportunity to testify before the committee today.
    As the excellent testimony of the witnesses have gone 
before me has indicated, spam is a source of heartburn, upset 
and nausea that is rising in the throats of consumers. I don't 
think I need to detail the enormous costs that are entailed in 
spam. I will note there is one study that came out last week 
which indicated that spam costs every business in America $874 
for every employee, every year. Those businesses will end up 
passing all of those costs on to consumers. As Mr. Rubinstein 
indicated, we are in an arms war with spammers right now. They 
put in better filters, the spammers get smarter software to 
send out their spam. They get better personnel to try and beat 
the spammers and the spammers end up working around the clock 
to beat the new personnel. So it doesn't seem that failing some 
solid legislation coming out of Congress this year that we are 
going to do anything abou this for consumers.
    I will note one new kind of spam I am hearing about is 
wireless phone spam, and a friend of mine even has some patents 
for location-based wireless spam which would allow a spammer to 
say, ``Well, you are a half mile from a Starbucks right now. I 
will give you 50 cents off of your next latte if you come by in 
the next 30 minutes.'' That is kind of a nightmarish consumer 
scenario for me and I would like to see this bill address 
wireless spam.
    I agree wholeheartedly with the drafters of both bills that 
the No. 1 problem and step No. 1 for cleaning up spam is the 
criminal element in spam, the fraudulent spam we are seeing. I 
have heard reports that two-thirds of all spam have some kind 
of fraudulent content in them. So that is where we need to 
start. And I think labeling pornography is also a big step in 
the right direction, although I would like to see in whatever 
legislation comes out of committee I would like to see the 
Wilson-Green approach which ensures that consumers don't have 
to view the pornography to opt out.
    Which brings me to my primary area of concern with H.R. 
2214 and H.R. 2515, which is that both bills have as their core 
solution opt-out for consumers. Imagine that you put a do not 
solicit sign in the front door of your home and the way that 
that ``do not solicit'' sign worked was that every solicitor 
who came by your front door got one shot at you, and you could 
opt-out with each company that comes by your door and 
potentially each branch of the company that comes by your door, 
except I think we can all see you would spend a whole lot of 
time opting-out. And there is a bit of a consumer paradox right 
now. Consumer Reports in the latest August issue we recommend 
that when consumers get spam they do nothing. You don't view 
it, you don't buy anything from spam, and you don't even 
allow--you disable the preview pane of your browser, of your e-
mail program so that you can't even see the spam because as 
soon as you view the spam, the spammer will know that you have 
received it and he will know that that is a live address.
    So there is this paradox consumers find themselves in which 
is we are telling them not to opt out but if opt out is the 
core solution that we provide, I don't know that we are going 
to give them a different recommendation because there is still 
going to be an immense volume of spam that is coming from 
overseas, and there is no way for the consumer to tell the 
difference between an e-mail from the Netherlands or an e-mail 
that is coming from a domestic source.
    So I would like the committee to perhaps examine to see if 
there is some kind of opt out plus. I know that opt-in probably 
is not politically realistic but is there some way we could 
provide a less burdensome opt-out for consumers? The Federal 
``do-not-call'' list, which the FTC with the full support of 
the administration just put in place 2 weeks ago, has received 
an overwhelming consumer response. It has been an enormous 
consumer success, and something that is closer to that model 
might be an effective mechanism for consumers. Now, I 
understand that with a ``do-not-spam'' registry there are some 
security concerns, but I wonder again if there is some sort of 
opt-out plus that we could look at which is perhaps some way 
consumers can know if it is a trustworthy opt out. I would like 
to work with the committee on that.
    I will note in passing, Senator Hatch mentioned a few weeks 
ago that his committee was willing to look at opt out as--
excuse me, to look at opt-in and he also noted that we would be 
wise to look at successful models that have come before us. The 
Telephone Consumer Protection Act, the junk fax law, has been a 
great consumer success, and the two key elements of that were 
that it was an opt-in regime, and it had a private right of 
action for consumers. I think the committee would be wise to 
consider those approaches.
    I am pleased to agree, again wholeheartedly, with the ends 
of everyone that is at the table today, and I am sure that we 
can reconcile our differences as to the means. Thank you for 
the opportunity to testify.
    [The prepared statement of Christopher Murray follows:]

  Prepared Statement of Chris Murray, Legislative Counsel, Consumers 
                                 Union

    Subcommittee Chairmen Stearns and Upton, Ranking Members Schakowsky 
and Markey and other distinguished members of the Committee, thank you 
for the opportunity today to represent Consumers Union,<SUP>1</SUP> the 
print and online publisher of Consumer Reports, in your exploration of 
H.R. 2214, the ``RID-SPAM Act'' (sponsored by Reps. Burr, 
Sensenbrenner, and Tauzin).
---------------------------------------------------------------------------
    \1\  Consumers Union is a nonprofit membership organization 
chartered in 1936 under the laws of the State of New York to provide 
consumers with information, education and counsel about goods, 
services, health, and personal finance; and to initiate and cooperate 
with individual and group efforts to maintain and enhance the quality 
of life for consumers. Consumers Union's income is solely derived from 
the sale of Consumer Reports, its other publications and from 
noncommercial contributions, grants and fees. In addition to reports on 
Consumers Union's own product testing, Consumer Reports and Consumer 
Reports Online (with approximately 5 million paid circulation) 
regularly carry articles on health, product safety, marketplace 
economics and legislative, judicial and regulatory actions which affect 
consumer welfare. Consumers Union's publications carry no advertising 
and receive no commercial support.
---------------------------------------------------------------------------
    It is almost unnecessary for me to detail what the problem with 
``spam'' <SUP>2</SUP> is, because every time we open up our email 
inboxes we are confronted with exactly how bad things have gotten. When 
I arrive at work every morning, I can be confident that I will be 
greeted with at least a dozen messages advertising everything from life 
insurance and credit card offers to Viagra alternatives and 
pornography.
---------------------------------------------------------------------------
    \2\ See Jonathan Krim, ``Protecting Its Proprietary Pork.'' 
Washington Post, July 1, 2003 (E01). ``Early Internet users coined the 
term spam to describe junk e-mail after a skit by the comedy group 
Monty Python. In the routine, a group of patrons at a restaurant chant 
the word ``spam'' in louder and louder volume, drowning out other 
conversation.''
---------------------------------------------------------------------------
    The ingenuity of spammers appears to be bottomless.<SUP>3</SUP> 
They find our addresses in novel ways. They have figured out myriad 
methods to avoid being filtered by Internet Service Providers (ISPs) 
and consumers. They have discovered how to commandeer our computers to 
send spam for them, and they are even finding new devices to spam us 
on. For example, text messaging on mobile phones, an increasingly 
popular application for consumers, is also becoming a haven for spam. 
While filtering technologies are becoming increasingly effective, 
unfortunately their efficacy is not increasing as fast as the volume of 
spam is growing.
---------------------------------------------------------------------------
    \3\ See attached article, ``E-Mail Spam: How to Stop It From 
Stalking You.'' Consumer Reports, August 2003.
---------------------------------------------------------------------------
    Spam costs consumers and businesses money.
    Some estimate that roughly 40% of all email is spam <SUP>4</SUP> 
and experts say that by the end of this year more than half of all 
email traffic will be spam. Consumers pay for all that spam, because 
when ISPs' costs go up--because ISPs have to buy more servers and pay 
personnel to figure out how to filter that spam--consumers' monthly ISP 
subscription fees go up.
---------------------------------------------------------------------------
    \4\ See Jonathan Krim, ``Spam's Cost to Business Escalates.'' 
Washington Post, March 13, 2003 (A01).
---------------------------------------------------------------------------
    One company estimates that spam will cost business $10 billion 
dollars this year alone (due to lost productivity, bandwidth costs, and 
money spent on filtering tools).<SUP>5</SUP> A study released last week 
estimates that spam costs businesses $874 per employee every year, 
because employees spend an average of 6.5 minutes every day dealing 
with it.<SUP>6</SUP>
---------------------------------------------------------------------------
    \5\ See www.ferris.com/rep/200301/SM.html.
    \6\ ``Spam: The Silent ROI Killer'' by Nucleus Research. More 
information at: www.pcworld.com/news/article/0,aid,111433,00.asp.
---------------------------------------------------------------------------
    America Online, the largest ISP, is currently blocking up to 2.4 
billion spam messages every day.<SUP>7</SUP> The costs of the bandwidth 
and servers required to move that volume of spam are astronomical--when 
we add the costs of sophisticated filtering systems and personnel to 
battle the continually escalating spam arms race, the costs of spam to 
ISPs (and ultimately to consumers) is truly staggering.
---------------------------------------------------------------------------
    \7\ See testimony of Ted Leonsis (Vice Chairman and President, 
Advanced Products Group, America Online) before the Senate Commerce 
Committee, May 21, 2003.
---------------------------------------------------------------------------
    Recently the Washington Post reported that mainstream e-commerce 
companies are selling consumers email addresses to 
spammers.<SUP>8</SUP> For example, when consumers purchased popular 
``Hooked On Phonics'' products, their addresses were being sold in 
complete violation of their privacy policy. That is, the company told 
consumers that they would not sell their personal information and then 
turned around and did precisely the opposite. ``Hooked on Phonics'' 
corporate parent subsequently updated their privacy policy and said 
that they meant to update it earlier; they claimed they had done 
nothing wrong, they were simply slow to update their privacy policy.
---------------------------------------------------------------------------
    \8\ Jonathan Krim, ``Web Firms Choose Profit Over Privacy.'' 
Washington Post, July 1, 2001 (A01).
---------------------------------------------------------------------------
    Even worse, one company who was contracting with a 3rd party 
``shopping cart'' provider (the mechanism used by consumers to complete 
an electronic commerce transaction) had a privacy policy which would 
have prevented consumers' email addresses from being shared with 
anyone. However, consumers might not have noticed that the shopping 
cart company behind the scenes of the electronic transaction--``Cart 
Manager''--had a completely different privacy policy and that by 
purchasing a product online, they were unwittingly making themselves 
vulnerable (there was no link to the shopping cart company's privacy 
policy in the process of check out).<SUP>9</SUP>
---------------------------------------------------------------------------
    \9\ Id.
---------------------------------------------------------------------------
    A relatively new practice, known as ``email appending,'' raises 
enormous privacy concerns. Email appending is the practice of 
harvesting a consumer's email address from a Web site or other means 
and combining that consumer's email address with their mailing address, 
telephone number, and other personally identifiable information.
    Mainstream companies such as Sears are using email appending to 
merge customers email addresses with their mailing addresses and their 
automotive repair histories. A marketing magazine recently told its 
readers how to ``email append'' their mailing lists:

Send an Excel spreadsheet of your customers' names, addresses and phone 
        numbers to an e-mail appending company, and the appending 
        company will send back e-mail addresses that belong to those 
        customers.
What the appending company doesn't mention is that often it is missing 
        a good deal of the information that you possess, and it may 
        decide to append your data to its files just as it appends its 
        e-mail addresses to yours. That means you are paying the 
        company to incorporate your information into its e-mail 
        database.
For example, the automotive department at Sears provides its customers' 
        names, addresses, phone numbers, and car models, makes and 
        repair histories to e-mail appending firms when it requests 
        customers' e-mail addresses. Sure, the company gets the e-mail 
        addresses, but at the same time it contributes to privacy 
        erosion--all so it can send an e-mail about its lube, oil and 
        filter change special.<SUP>10</SUP>
---------------------------------------------------------------------------
    \10\ See Mike Banks Valentine, ``E-Mail Appending Erodes Privacy.'' 
CRM Buyer Magazine, May 23, 2002. www.crmbuyer.com/perl/story/
17914.html
---------------------------------------------------------------------------
    A large percentage of spam is also fraudulent and/or misleading, 
making it a serious consumer problem as well as difficult to prosecute. 
The Federal Trade Commission (FTC) recently issued a report 
<SUP>11</SUP> regarding false claims in spam, which found that 96% of 
spam had false information in either the message text or in the 
``From'' and ``Subject'' lines.
---------------------------------------------------------------------------
    \11\ www.ftc.gov/reports/spam/030429spamreport.pdf
---------------------------------------------------------------------------
    Clearly, spam is ripe for legislative action. We agree with the 
ISPs and others that strong criminal enforcement and an ISP right of 
action are essential ingredients to successfully reducing spam. But 
thus far the bills proposed, including H.R. 2214, have an ``opt-out'' 
of spam as part of their core solution. In other words, an ISP must 
first pass on the spam to consumers, consumers must then read the spam, 
and then they can exercise their right to stop receiving messages from 
that particular sender (perhaps at their peril as described below). We 
believe H.R. 2214 needs to be improved because it lacks an ``opt-in'' 
provision and private right of action for consumers at the same time 
that it excludes class action suits. This puts too much burden on 
consumers to block spam and makes it too difficult to hold spammers 
legally accountable for their inappropriate interference with 
consumers' email.
    Imagine that you put a ``do not solicit'' sign at the front door of 
your home, and every company in the world could only ring your doorbell 
once, at which point you would have the option to tell that salesperson 
that you did not want to be contacted anymore. Of course, in addition 
to telling that salesperson you didn't want to be solicited, you would 
have to do the same for solicitors that work for a different branch of 
the same company. You would need to keep track of each company you told 
not to solicit you, and if a company violated your request, you could 
petition the Federal Trade Commission to take up your case.
    Of course, this is an absurd burden to place on people. We all know 
that ``do not solicit'' means exactly that. Consumers can say no to 
advertising at their front door, period. The Federal Trade Commission's 
recent enactment of a robust ``do not call'' list means that now 
consumers have a tool to say no advertising at the dinner table. It is 
now incumbent on Congress to provide consumers with a tool to say no to 
advertising on our computers.
    When the Federal Trade Commission recently took a close look at 
spam and what could be done to reduce it, many, if not most of the 
participants in that workshop agreed that opt-in was the best way to 
eliminate spam. It would be unwise for Congress to proceed down the 
opt-out path, which was clearly disfavored by experts.
    Senate Judiciary Committee Chairman Hatch suggested several weeks 
ago that he would be willing to consider drafting legislation that 
entails an opt-in approach. He noted that one of the primary weaknesses 
of opt-out is that it leaves the burden on the consumer to eliminate 
spam. ``People who receive dozens, even hundreds, of unwanted emails 
each day would have little time or energy for anything other than 
opting-out from unwanted spam.'' <SUP>12</SUP>
---------------------------------------------------------------------------
    \12\ Senator Orrin Hatch and Senator Patrick Leahy Press Release, 
``Hatch, Leahy Target Most Egregious Computer Spammers.'' Jun. 18, 
2003.
---------------------------------------------------------------------------
    Senator Hatch continued on to say that,
        ``[a] third way of attacking spam--and one that was favored by 
        many panelists and audience members at the FTC forum--is to 
        establish an opt-in system, whereby bulk commercial email may 
        only be sent to individuals and businesses who have invited or 
        consented to it. This approach has strong precedent in the 
        Telephone Consumer Protection Act of 1991 (TCPA), which 
        Congress passed to eliminate similar cost-shifting, 
        interference, and privacy problems associated with unsolicited 
        commercial faxes. The TCPA's ban on faxes containing 
        unsolicited advertisements has withstood First Amendment 
        challenges in the courts, and was adopted by the European Union 
        in July 2002.'' <SUP>13</SUP>
---------------------------------------------------------------------------
    \13\ Id.
---------------------------------------------------------------------------
    As Senator Hatch points out, the Telephone Consumer Protection Act 
(also known as the ``Junk Fax'' law) could serve as a good model for 
dealing with spam. That law successfully helped eliminate junk faxing 
by 1) establishing an opt-in regime and 2) preserving a private right 
of action against violators, especially by allowing for the possibility 
of class action enforcement. We believe that the threat of class action 
enforcement combined with an opt-in approach is the best way to reduce 
spam for consumers.
    In addition, Congress should not allow ISPs to be the primary 
entities driving a legislative solution. ISPs are an integral part of 
any solution, as their technical expertise and participation in 
enforcement is essential, but they have mixed incentives with regard to 
spam.
    ISPs have clear incentives to reduce some amount of spam, because 
it costs them an enormous amount of money--except where the ISP is also 
a marketer. In the case of AOL and Microsoft, the two largest ISPs, 
those companies have clear incentives to get rid of other people's 
spam, but not such clear incentives to have limitations on their own 
spam. In fact, it may be that the best way for AOL and Microsoft to 
maximize their marketing revenues is to get rid of everyone's spam but 
their own, so that they can charge would-be spammers for preferred 
placement of spam. As the Washington Post recently reported, California 
state legislators were recently pressured by these companies as they 
tried to beef up spam regulations:
          One [California] state senator, who represents several Los 
        Angeles suburbs, accused Microsoft of eleventh-hour arm-
        twisting to exempt Internet service providers from 
        responsibility for being the conduits of spam. Firms such as 
        Microsoft, America Online and Yahoo Inc. market to their own 
        members, and large portions of overall e-mail traffic traverse 
        their systems.
          ``Microsoft is talking out of both sides of its mouth,'' said 
        state Sen. Debra Bowen (D), who points to statements by 
        Microsoft Chairman Bill Gates about how much the company is 
        fighting to eliminate junk e-mail. But ``their focus has been 
        on getting immunity for themselves and preserving their ability 
        to strike deals to send spam,'' she said.<SUP>14</SUP>
---------------------------------------------------------------------------
    \14\ Jonathan Krim, ``Internet Providers Battling to Shape 
Legislation: Microsoft, Others, Said to Want Immunity.'' Washington 
Post, July 5, 2003 (D10).
---------------------------------------------------------------------------
    Ronald Scelson, also known as the ``Cajun Spammer,'' testified 
before the Senate Commerce Committee <SUP>15</SUP> that some ISPs are 
signing ``pink contracts' which allow spammers to send emails to ISPs' 
subscribers, charging the spammers more than they charge other 
commercial clients.
---------------------------------------------------------------------------
    \15\ Testimony of Ronald Scelson before the Senate Commerce 
Committee, May 21, 2003.
---------------------------------------------------------------------------
    If these allegations are true, then it is unwise for Congress to 
give ISPs consumers' proxy on spam by allowing ISPs to have a right of 
action against spammers at the exclusion of individual suits and class 
actions. Giving ISPs a right of action will certainly help those ISPs 
to maximize the revenues they receive from spammers by providing them 
with a very large stick for spammers that do not pay, but it does not 
appear to be the best way to reduce spam.
    Until Congress enacts meaningful legislation to fix the spam 
problem, Consumer Reports recommends that consumers deal with spam by 
doing nothing. This means do not respond to spam, do not view spam, and 
most especially, do not opt-out of spam because this will tell spammers 
that your email address is a functioning one.
    This recommendation--that consumers do nothing with spam, and 
especially do not opt-out--is at obvious odds with bills that provide 
for opt-out as their way to clean up spam. That is because when 
consumers opt-out they are verifying for a spammer that their email 
addresses are current. Under an opt-out law, consumers would ostensibly 
have a remedy with spammers within the United States (i.e. spammers 
using opt-out for illegitimate purposes such as verifying that an email 
address is current could be prosecuted), but the opt-out law would 
still not apply for any spam originating outside the U.S.--spammers in 
other countries or offshore could not be prosecuted. Furthermore, it 
would be extremely difficult for consumers to tell whether email is 
originating from the U.S. or elsewhere.
    In other words, once an opt-out spam bill were enacted into law, 
because of the continued possibility of cross-border fraud, we would 
still recommend to consumers that they should not exercise the opt-
out--leaving consumers no better off than they are today.
    In our August issue of Consumer Reports, we recommend the following 
8 ways to block spam:

1. Don't buy anything promoted in spam. Even if the offer isn't a scam, 
        you are helping to finance spam.
2. If your email address has a ``preview pane,'' disable it to prevent 
        the spam from reporting to its sender that you've received it.
3. Use one email address for family and friends, another for everyone 
        else. Or pick up a free one from Hotmail, Yahoo!, or a 
        disposable forwarding-address service like www.SpamMotel.com. 
        When an address attracts too much spam, abandon it for a new 
        one.
4. Use a provider that filters email, such as AOL, Earthlink, or MSN. 
        If you get lots of spam, your ISP may not be filtering 
        effectively. Find out its filtering features and compare them 
        with competitors'.
5. Report spam to your ISP. To help the FTC control spam, forward it to 
        uce@ftc.gov. (``uce'' stands for unsolicited commercial email).
6. If you receive spam that promotes a brand, complain to the company 
        behind the brand by postal mail, which makes more of a 
        statement than email.
7. If your email program offers ``rules'' or ``filters,'' use one to 
        spot messages whose header contains one of more of these terms: 
        html, text/html, multipart/alternative, or multipart/mixed. 
        This can catch most spam, but may also catch most of the 
        legitimate emails that are formatted to look like a Web page.
8. Install a firewall if you have broadband so a spammer can't plant 
        software on your computer to turn it into a spamming machine. 
        An unsecured computer can be especially attractive to spammers.
    As mentioned earlier, as a legislative remedy, an opt-in regime 
(with a private right of action) appears to be the best choice. We 
recommend that consumers not opt-out of spam because this will simply 
confirm for the spammer that their email address is a live one. Opting 
out means getting more spam.
    If we put ourselves in the shoes of a consumer trying to opt-out 
from spam several years from now, imagine trying to tell the difference 
between spam that is from a legitimate marketer, spam that originated 
from an overseas or offshore server, and spam that is simply a ripoff. 
There is no way I can think of under an opt-out regime to differentiate 
between these different types of spam. Opt-out may turn out to be a cop 
out.
    It may be that there is a possibility for a modified version of 
opt-out, such as opt-out that allows for an entire domain to opt-out 
(e.g. ``aol.com'' could opt-out for all its users, so that individual 
users, such as ``jane--doe@aol.com'' do not have to give their names to 
spammers). This is one potential implementation of the ``national do 
not spam'' registry proposed by Senator Schumer. I have some misgivings 
about a ``national do not spam'' registry because of the obvious 
security risks posed by such a list, but I wonder if allowing entire 
domains to opt-out obviates some of those potential risks.
    In addition, by including preemption of state laws and class 
actions, I believe HR 2214 will fail to stem the rising tide of spam. 
Congress should enact federal legislation that offers basic protection 
for consumers, and states should have a right to increase such 
protections based on unique local needs, just as the FTC did with the 
Federal ``Do Not Call'' list.
    Any solution in the end will need to involve a variety of methods 
and actors, including a legislative remedy (opt-in with both private 
and ISP rights of action in addition to criminal enforcement), action 
from industry to improve filtering technologies as well as a way to 
attack the problem across international borders. It will be critical 
that Congress address the immense volume of fraud in spam, but Congress 
should also consider measures that will address mainstream companies' 
use of spam. While fraud is a huge problem, consumers' annoyance with 
spam does not end with rogue spammers. Just as the FTC's national ``do 
not call'' list allowed consumers to say no to advertising at the 
dinner table, consumers should have the ability to say no to all spam, 
even when that spam comes from companies that are not engaged in fraud.

    Mr. Stearns. I thank you, Mr. Murray. I think we are 
finished with the opening statements, so I will open up with 
some questions. Mr. Beales, I will start with you. You have 
heard the opening statements from the members and you have also 
heard from our panel. Of the two bills that we have, I guess 
the question would be do you favor one bill over the other?
    Mr. Beales. We haven't taken a position on a particular 
piece of legislation. We have tried to talk about the kinds of 
provisions that we think are useful, and I think there are 
attractive features of each bill.
    Mr. Stearns. That is what I would say based on what you--I 
thought you would say that. So you feel that the two bills have 
aspects about them that are appropriate or suitable but neither 
one of the bills as they stand now alone, in your opinion, 
would be suitable?
    Mr. Beales. Well, I think that is right. I think that is 
right as well. I mean I think--we think legislation should 
leave us some flexibility to address problems as they emerge, 
and I think a great example is dictionary attacks. A year ago 
we would have said, and I think the bill said a year ago, 
harvesting is it, that is what we need to prohibit. They didn't 
say a word about dictionary attacks. This year, dictionary 
attacks are the way spammers are generating their messages. 
Without some flexibility to address that kind of change in 
practice through rulemaking, we are going to be back in the 
soup in fairly short order.
    Mr. Stearns. I am going to go to Microsoft on this, but let 
me ask you, Mr. Beales, what is your view on sort of a safe 
harbor approach to label e-mail as a means of fighting spam?
    Mr. Beales. Well, we are skeptical about labeling e-mail as 
a solution, because we think what ends up happening, and it 
certainly showed up in our false claims in spam study, is you 
get compliance and ADV label by legitimate marketers, but you 
don't get compliance by the people who are the problem. What we 
found in our study was--and, you know, there are 10 States that 
have an ADV requirement. One of them is California. I don't 
think spammers can plausibly say, ``Well, we didn't know 
anybody on our list lived in California.'' What we found was 
only 2 percent of the spam in our sample of 1,000 had the 
label.
    Mr. Stearns. Okay. Mr. Rubinstein, Microsoft believes that, 
``The widespread adoption of e-mail best practices along with a 
method to associate e-mail communication from business that 
adopt such best practices will ameliorate many problems 
currently associated with spam.'' I think that is a quote you 
used. That suggests that you perhaps--you and Mr. Beales might 
not agree, and I thought you might just comment on it.
    Mr. Rubinstein. Sure.
    Mr. Stearns. Just pull the mike up if you would.
    Mr. Rubinstein. Sorry. I think there are three things that 
recommend a safe harbor approach. One is that it helps 
reinforce the distinction between legitimate senders and 
spammers. The second is that it could improve filtering 
technology by providing additional inputs to filters, namely 
that the mail is from a company that adheres to best practices. 
That allows filters to act more aggressively against mail 
lacking that indication and to do so without being more 
inaccurate in creating false positives or false negatives. And 
then, finally, I think, as Mr. Murray pointed out, it could 
help restore confidence, consumer confidence in opt outs.
    In response to Mr. Beales, I think in fact we may not be 
disagreeing as much as it may seem, because, again, we have not 
proposed ADV labeling as a stand-alone solution in any Federal 
legislation. Rather, we see it as an incentive for companies to 
join safe harbor programs, but we would be happy to consider 
other possible incentives. Some that have already been under 
discussion include a presumption of compliance for companies 
that participate in best practice programs, namely the 
compliance with the 101(a) type requirement. This would not 
affect fraud.
    Mr. Stearns. So what would be the Federal Government's role 
dealing with e-mail?
    Mr. Rubinstein. Well, the Federal Government's role would 
primarily be to jump start this process. Today, there are a lot 
of companies doing the right thing, but there are no widely 
adopted best practices. If there was a strong incentive for 
companies to sign up for best practices, then it would become 
quickly adopted across the board. And until it is pervasive, 
until a large number of companies take advantage of this 
approach, it won't provide the benefits that we see to it.
    Mr. Stearns. One of the differences between the bills is in 
the ability to sue, and, Mr. Murray, we went back and looked at 
your testimony before the Judiciary Committee yesterday on 
spam. In response to a question from Chairman Coble, you 
indicated that plaintiffs could sue senders of commercial e-
mail, ``They would go first after the deep pockets.'' Given 
that most spammers are judgment-proof, aren't civil and 
criminal penalties against spammers a more effective deterrent 
to spam?
    Mr. Murray. I think that spam is such an enormous problem 
that we need to recruit the help of all sides of this, and I do 
believe that consumers are an absolutely integral piece of 
that, because press accounts have indicated that some ISPs, not 
all ISPs, are signing contracts with spammers for preferred 
placement of spam.
    Mr. Stearns. But you see the problem with your statement 
saying they will go after the deep pockets. That might be 
somebody, somewhere out there and that just creates a huge 
amount of litigation, jury trials, when we are trying to deter 
this.
    Mr. Murray. Yes, sir, Mr. Chairman, but first there would 
have to be bad behavior to instigate that litigation. And the 
question that Chairman Coble asked me yesterday was about who 
would people go after first, and I think we do know that people 
would likely go after the money. But assuming that the people 
with the money have done some bad behavior, then I don't think 
that that is necessarily out of line.
    Mr. Stearns. My time has expired. Mr. Boucher?
    Mr. Boucher. Thank you, Mr. Chairman, and I want to thank 
each of the witnesses for your very helpful testimony here 
today. Let me just pursue a couple of questions that are 
related to differences that appear in the two bills that are 
before us and get the benefit of the views of anyone who wants 
to respond with respect to these specific provisions.
    First of all, one of the bills provides that an opt-out 
once it is taken is effective with regard to the sender of spam 
but not with regard to affiliates of that sender. So a bank 
that has 100 affiliates, as many banks do, having separately 
incorporated their various branches or divisions, could be 
subject to a single opt-out for the sender alone but not for 
all of those many affiliates. A separate opt-out under that 
bill would be required for each. Is there any justification for 
a provision such as that or do you see that as a loophole that 
could render the opt-out right less simple and less effective 
than it needs to be? Who would care to answer? Ms. Selis?
    Ms. Selis. I will take a stab at that from a consumer's 
perspective. Most consumers don't differentiate between one 
affiliate and the other. They get a piece of spam in their e-
mail and they just don't want it. They don't want that piece of 
spam, they don't want a piece of spam from an affiliate. 
Oftentimes, they don't want a piece of spam from anyone. And to 
create an extra hurdle for them by requiring them to opt-out as 
to particular affiliates of a business will require them to 
opt-out repeatedly and put another burden on them. It gives 
them less control over their e-mail box, which is not what I 
think this committee wants to do.
    Mr. Boucher. All right. Thank you. Mr. Murray?
    Mr. Murray. If I could just add briefly. I understand the 
intent behind that is to enable consumer choice. If perhaps 
consumers have some more distinguished preferences that they 
would like to be able to receive information from one company 
and not from another, I don't think that is necessarily a bad 
thing as long as it is accompanied by the possibility of a 
global opt-out, as long as more detailed requests for opt-out 
have alongside one opt-out that will cover everything that is 
very transparent and very obvious to the consumer, I don't know 
that there is great harm in that.
    Mr. Boucher. But you are saying that at a minimum there 
ought to be a single opt-out opportunity----
    Mr. Murray. Absolutely.
    Mr. Boucher. [continuing] with respect to the sender and 
all affiliates.
    Mr. Murray. Absolutely.
    Mr. Boucher. Others care to comment on that? Mr. Betty?
    Mr. Betty. I don't know that it is really the most relevant 
issue, because the people that we are trying to get don't 
really care what regulations you put into place for opt-in or 
opt-out. As indicated by Mr. Beales, most of the responses that 
you send when you try to find out where the stuff is coming 
from is it bounces, it falses. The true marketers are going to 
try to comply with what consumers want anyway. So I don't know 
a universal opt-out or a single opt-out is really relevant at 
all.
    Mr. Boucher. Well, some people simply aren't going to obey 
the rules no matter what. I mean that is your point.
    Mr. Betty. That is right.
    Mr. Boucher. But we have to try to write this law in such a 
way that we target those who are going to respect it and then 
we will leave it to law enforcement to target those who don't. 
But thank you. Let me move on to another question.
    The definition of e-mail strikes me as being particularly 
important. One of the bills would define spam as commercial e-
mail, the primary purpose of which is commercial, but e-mail 
that is drafted in such a way that is partly commercial and 
partly informative, perhaps, or in some other way arguably non-
commercial would fall outside the net. And I can imagine a lot 
of creative ways that spammers could redraft their messages so 
that arguably the primary purpose in the minds of some might 
not be commercial. Is that a problem or should we simply say 
commercial e-mail generally would be defined as spam and be 
subject to the opt-out? Views on that. Mr. Beales?
    Mr. Beales. Well, the--I am sorry, I lost the thread of 
your question.
    Mr. Boucher. Well, the question simply is this: One bill 
says that spam is anything that has a primary commercial 
purpose. The other bill simply says that it is unsolicited 
commercial e-mail. So the question is, is it unduly limiting to 
have this qualification that the primary purpose of the message 
has to be commercial?
    Mr. Beales. And I think we would prefer that it not be a 
primary purpose. An important purpose, a principal purpose, 
language like that might make sense. I think there is an issue 
there because there are a lot of--I mean you have probably been 
e-mailed newspaper articles, for example, that have advertising 
along with them. A purpose of that communication is to sell, a 
purpose, but I don't think most people would call that kind of 
advertising that goes with that newspaper article spam in quite 
the same way. And I think the definition needs to distinguish 
those cases but we think the primary purpose kind of language 
is problematic.
    Mr. Boucher. Okay. Yes, Mr. Rubinstein?
    Mr. Rubinstein. We share the committee's concerns with 
loopholes, as expressed earlier in the opening statements, but 
I would like to point out one--just make one other observation.
    Mr. Boucher. Which concern do you share because several 
opinions have been expressed.
    Mr. Rubinstein. Well, the concern that the way this is 
defined may create loopholes, and I think that would be a 
mistake. But there is another issue that I would like to 
address that----
    Mr. Boucher. You are saying that saying primary purpose is 
unnecessary in this case and could be problematic?
    Mr. Rubinstein. No. I am saying that we also need to look 
at the combination of that definition with how exceptions are 
treated, and that is another difference in the bill. Document 
2515 tends to treat exceptions in terms of enumerating specific 
examples for which opt-out would not be required, such as 
product updates, security updates, warranty information and so 
on. Our only concern around this is that there are other 
possible examples that may not be included in that list. One 
obvious one would be updates to a privacy statement that make a 
material change in that privacy statement. That is not on the 
list. There may be other things that are not on the list that 
represent important communications between a company and its 
customers. So we are just a little bit concerned about that 
approach that only enumerates specific exceptions rather than 
providing broader----
    Mr. Boucher. Mr. Rubinstein, thank you very much. My time 
has expired. Thank you, Mr. Chairman.
    Mr. Stearns. Gentleman's time has expired. Thank you. The 
chairman of the Telecommunications and the Internet 
Subcommittee, Mr. Upton.
    Mr. Upton. Well, thank you, Mr. Chairman, and I will try to 
make sure I don't repeat questions that might have been asked. 
If I do, please bear with me and I will get the answer later 
on. Mr. Beales, I would be interested to know what the FTC's 
stand is on a ``do-not-spam'' list. As we saw, I thought it was 
important legislation that we passed earlier this year, the 
``do-not-call'' list, which is now being implemented and your 
operators are taking lots of calls all the time, including from 
my house, and it seems like it was a very good idea, welcomed 
by the American public for sure, and I would be interested to 
know what your thoughts are if we develop something like a 
``do-not-spam'' list along those same lines. What is it 
workability?
    Mr. Beales. Well, we think it is a very intriguing idea, 
but, unfortunately, there are three differences from phones 
that make it not at all clear that we can do it at this point. 
One is it is easy to identify valid phone numbers and so a list 
of valid phone numbers doesn't have much value. A list of valid 
e-mail addresses is a whole different story, and that is what a 
do-not-spam list would be. That problem is compounded by, two, 
that we can't trace the spammer, we can't tell where it is 
coming from, and we need to give that list to spammers and 
somehow only give it to good guys who will use it to purge 
their lists and not as a list, and that is hard to imagine how 
we could enforce that.
    The third problem is the size of the data base. People 
change their e-mail addresses all the time, and what we would 
have over time is a larger and larger data base of more and 
more dead e-mail addresses. That would help with the first 
problem but it really wouldn't help us to be able to process it 
at all. So we think it is an intriguing idea but at this point 
we don't know how we could do it.
    Mr. Upton. I would also note as you make that point that 
whereas most homes have one hard line, maybe two if they have 
got a computer if they don't have cable for high speed, or 
perhaps a cell phone or two, but most--I look at my own family, 
we have got a good number of e-mails. My son has got two, my 
daughter has got two, my wife and I have one, so you have got a 
lot more e-mails than you do number of households that are out 
there. Any other comments from the rest of the panel, any 
concurrence? Mr. Murray?
    Mr. Murray. Chairman Upton, I wonder if there is--there was 
an intriguing idea raised by a journalist from the Washington 
Post, which was a ``do-not-spam'' list where domains could opt-
out, where, for instance, AOL.com could choose that its members 
not receive spam or MSN.com or Earthlink, and I wonder if that 
is some sort of a hybrid that we could work with.
    Mr. Upton. Mr. Rubinstein, do you have a comment?
    Mr. Rubinstein. I would concur with Mr. Beales and also 
point out in response to an earlier comment from Congresswoman 
McCarthy that in opposing the Missouri State bill, we did so 
explicitly because it provided for a ``do-not-spam'' list and 
we have opposed that, both in State law and Federal law. As to 
Mr. Murray's suggestion, I am not really certain, and I would 
ask Chuck Curran to comment too, I am not really certain how a 
large ISP would handle a domain-based opt-out given there would 
be often be disagreements among its own subscribers as to what 
domain to opt-out from, and I don't know how we would resolve 
those disagreements.
    Mr. Upton. Let me get to another question before my time 
expires. I confess that I am an AOL subscriber, and I also 
confess, Mr. Betty, that a number of my family are Earthlink 
subscribers as well. As I sat down at my computer last night 
looking over the e-mail from over the 4th, Mr. Curran, we have 
got as AOL, as a subscriber, I have got the little icon that 
allows me to say no more and it is spam, block it forever. Tell 
me how that system works. How do I know--I mean there was a 
fear for a long time that if you did that, the folks that are 
sending you this junk know that is a live person and they may 
in fact try to come back at you. How does your system work on 
your end when the user says, ``I don't want to get that stuff 
anymore,'' and how long does it take?
    Mr. Curran. If you are referring to the report spam 
feature----
    Mr. Upton. Yes.
    Mr. Curran. [continuing] what we use that as is a reporting 
tool for two purposes, one of which is to, in effect, get real-
time feedback about what our members are reporting as spam to 
enhance our ability to do technological filtering of that same 
type of spam.
    Second, that reported spam is transferred to a data base 
which can be mined for information about the largest scale 
spammers. In effect, it is a way to build a data analysis to 
support enforcement and preventative technology. So it is not--
the spam is not being--your report of spam is not being 
forwarded on to that----
    Mr. Upton. Well, let me just--as an example, last week I 
refinanced my house. I don't need to do that again for a while, 
I hope. There must have been 10 or 12 refinancing bids 
unsolicited that came in on my e-mail that I deleted last 
night, and I checked them as spam. Is there a likelihood then 
those are going to come back from those same----
    Mr. Curran. Regrettably, mortgage refinance spam is a 
mainstay of today's spam, so there may be an issue of pure 
coincidence. I too have engaged in a mortgage refinance, but I 
am also getting random offers of mortgage refinances, so there 
may not necessarily be----
    Mr. Upton. But are the same folks going to come back at you 
a second or third time even if you say this is spam and I don't 
want it, Mr. Betty?
    Mr. Curran. In many----
    Mr. Upton. Yes. So are you saying it was a worthless 
exercise for me rather than simply hit the delete button and go 
through the process?
    Mr. Betty. I mean I can't speak for what AOL does but we 
get a lot of feedback as well, and after you have identified 
where the spam is coming from after you have gotten the first 
several it doesn't really help to get the next 200,000. But if 
these people are trying to defraud consumers, the fact that you 
are reporting it back to us, we really do know, we are spending 
lots of money trying to solve this problem for the consumers. 
What we suggested is they just delete it, and we continue to 
work on tools to allow you not to get it the first time, and we 
have now taken the step to integrate it with your mailbox so 
you won't get it if you don't want it.
    Mr. Upton. I know my time is expired.
    Mr. Stearns. Gentleman's time has expired. Gentleman from 
Texas?
    Mr. Green. Thank you, Mr. Chairman, and let me first start 
out, one, to thank, like my colleagues, all our panel for, 
listening to ours, and I said it earlier, to some members of 
our panel, that we are still working on putting together a bill 
and sometimes us listening to each other in our opening 
statements let us know where we are so we can see where we are 
going. But your testimony today has been really helpful.
    In an earlier hearing, I ran out of time and I am sure I 
will today, but we submitted questions to the FTC and I would 
like to read one into the record. It compares one spam bill, 
H.R. 2214 that imposes a knowledge standard the Commission must 
prove to successfully bring a civil action for violations of 
three provisions of the bill. And we asked the FTC how does 
this compare with common FTC enforcement authority? Is it safe 
to say that the FTC would be less likely to bring in action in 
situations where it would be required to prove a knowledge 
standard. Let me read into the record, Mr. Chairman, the 
response from the Federal Trade Commission to that.
    Mr. Stearns. Do you want to make it part of the record by 
unanimous consent?
    Mr. Green. I would like to make it part of the record.
    Mr. Stearns. By unanimous consent.
    Mr. Green. ``In conclusion, the knowledge standards 
contained in H.R. 2214 exceeds those required to obtain a 
district court injunction or administrative cease and desist 
order under Section 5 of the FTC Act. Further, the knowledge 
standards contained in H.R. 2214 are unnecessary in connection 
with the civil penalty action in light of the knowledge 
standard imposed for civil penalty actions under the FTC Act, 
Section 18, rule violations. Moreover, the knowledge standards 
set forth in 2214 are expressed differently from those in the 
FTC Act potentially giving rise to the litigation issue about 
the differences in the standard. Given the harmful nature of 
the conduct prescribed by this proposed legislation, the FTC 
should be able to enjoin future violations readily and to 
impose civil penalties where appropriate without duplicate 
burden of meeting two arguably different knowledge standards. 
Therefore, we anticipate that retention of the knowledge 
standards in H.R. 2214 will reduce the enforceability of the 
provisions.'' This is in response to a question of the FTC.
    Mr. Beales, in your response to Chairman Stearns' question, 
you stressed the flexibility of the FTC. Does one bill provide 
better flexibility to the FTC, the Burr bill, 2214 or the 
Wilson-Green bill? which provides better flexibility in your 
opinion?
    Mr. Beales. Well, there is somewhat more flexibility in the 
Wilson-Green bill, but it is still quite limited in terms of 
the rulemaking authority that we have. I mean----
    Mr. Green. So you would prefer--I am going to run out of 
time--the Wilson-Green bill provides more flexibility but not 
near as much as the FTC would like. Is that correct?
    Mr. Beales. That is correct.
    Mr. Green. Okay. Given that the Wilson-Green bill has no 
knowledge standards that address the dictionary attacks, can 
you say that the FTC prefers, in your opinion, the Wilson-Green 
bill or that we are closer to what you would prefer?
    Mr. Beales. There a number of things in that bill that we 
think are improvements over what is in 2214, but we haven't 
taken a position at all on which----
    Mr. Green. I understand, and we understand also Federal 
agencies shouldn't take positions, but, again, it is in your 
opinion.
    Let me ask some questions of our ISPs, both AOL, Earthlink 
and Microsoft. Both 2214 and 2515 contain several civil 
provisions. It is important for ISPs to be able to enforce each 
section, and please if you could do it as brief as possible 
because, again, we have just a brief time to ask questions. Mr. 
Chairman, are we going to have a second round of questions?
    Mr. Stearns. I don't know. I just----
    Mr. Green. I know it is late and our witnesses have been 
here a good while, so----
    Mr. Stearns. And we probably have some votes coming. I 
think--you know, I have tried to be liberal on the time, just 
some people going over 1 or 2 minutes, and some who did not 
have an opening statement so they will have 8 minutes. And the 
panel has also been here very patiently.
    Mr. Green. Well, then I would like to ask if we could 
submit questions like I have done before with the Federal Trade 
Commission.
    Mr. Stearns. Yes, absolutely.
    Mr. Green. I will put it in the record today and in future 
hearings we will put those into the record. But mainly I guess 
to summarize all the questions for the ISPs, the Burr bill does 
not permit ISPs to enforce the inclusion section of the bill. 
Would it be helpful to ISPs to have that specific inclusion so 
you can enforce those inclusion sections? Earthlink? Microsoft?
    Mr. Curran. Yes, it would.
    Mr. Green. Okay. And that, generally, is the opinion of all 
three that are on the panel? Okay. Mr. Chairman, I will yield 
back my--well, I don't have any time left. And, again, I will 
submit questions to our panel.
    Mr. Stearns. All right.
    The gentleman from Arizona is recognized.
    Mr. Shadegg. Thank you, Mr. Chairman. I am going to follow 
the model that Mr. Boucher set and put this question to the 
panel. Anybody who wants to answer, I would like to do so. I do 
have restraints on time. I also want to follow up on a question 
that he asked. The two bills have different definitions, he 
called them definitions of e-mail, I would call them 
definitions of the application of the law. In either case, in 
one case it says they must have a partial purpose which is 
commercial, in the other case it says if they have any 
commercial purpose at all, then they are covered by the span of 
the law. It seems to me, my own bias, that you have a broader 
definition, if there is any commercial purpose in the e-mail, 
it ought to be covered by the law, and then you write safe 
harbor or opt-out language that would protect it. But I am 
interested in your professional opinion on that issue of the 
definition within the two different bills. Yes, sir?
    Mr. Beales. Well, I think the broader definition is, in 
general, preferable, but I think it does need to be limited to 
address the advertising problem in some way, because there are 
a lot of communications that are--that may be advertising 
supported and where there is partly a commercial purpose for 
something that comes in electronically or via e-mail.
    Mr. Shadegg. Well, as I understand the Wilson bill, the 
Wilson bill says if there is any commercial purpose to the e-
mail, then it is covered by the law. Whereas the other piece of 
legislation by Mr. Burr and Mr. Tauzin says if it is primary or 
for a principal purpose, it is commercial. And the problem I 
have is I think that fudge language will allow somebody to come 
in and just put a whole bunch of content in there and allege, 
``Well, my primary or principal purpose wasn't commercial, and 
therefore I didn't have to comply with this law.''
    Ms. Selis. If I could respond to that----
    Mr. Shadegg. Please.
    Ms. Selis. [continuing] I think of it as an enforcement 
question. I think about what it is going to be like to----
    Mr. Shadegg. As a former attorney general, so do I.
    Ms. Selis. Yes. When you go into court what is their first 
defense going to be? Well, it wasn't primarily commercial, it 
was just in part. And the question is how many loopholes, how 
many hurdles are we going to put in the law such that when an 
enforcement official goes in, be it the FTC, be it a State 
attorney general, even be it the ISPs, how many of those 
hurdles are they going to have to jump over, how many defenses 
are going to be in there, and I see that language of primary as 
being a hurdle, frankly.
    Mr. Shadegg. Any other comments on that question? Let me 
ask a second question. Congressman Cox talked about the issue 
of the application of the law of trespass. Do any of you--have 
any of you given thought to the application of the law of 
trespass to this issue? Do any of you have strong feelings that 
we should not try to seek to extend the law of trespass to 
this? Because I consider it a trespass. Whether it is trespass 
into my computer or trespass into a space on the Internet 
service provider that I am currently renting, it seems to me 
when you send me an e-mail I don't want, you are trespassing. 
Comment on that? Yes, sir. Mr. Murray.
    Mr. Murray. The case that I believe Representative Cox was 
referring to is the Hamidi v. Intel case which recently came 
down. I did not read the decision carefully but what I saw 
distinguished in that case was political speech versus 
commercial speech. And what they said was we will not limit 
political speech over companies' networks. We will not allow 
you to censor your employees' political speech. I think that 
this----
    Mr. Shadegg. Yes, I would agree with that.
    Mr. Murray. [continuing] is a clear distinction between--
this is only commercial speech which is within the purview of 
both of these bills.
    Mr. Shadegg. Other comments on the extension of the law of 
trespass explicitly?
    Mr. Curran. The doctrine of trespass has always been vital 
to ISPs' protection of their networks. That said, recognize 
that there are 50 States. This is the common law of each 
particular State. California's decision may not be binding as 
it applies, while certainly influential.
    Mr. Shadegg. Well, we can write a statutory provision on 
trespassing into Federal law in this legislation, I think.
    Mr. Cox seems to think so as well.
    Mr. Curran. It is a difficult area in terms of leaving to 
the States their historical area of competence as to the 
protection of private property rights of which trespass is one 
of the core.
    Mr. Shadegg. So you have a reservation about that.
    Mr. Curran. It is an interesting issue.
    Mr. Shadegg. It is an interesting issue. Other comments? 
Safe harbor, there is a limited safe harbor provision in one of 
the bills and no safe harbor provision in the other. Would any 
of you advocate that we need--there was some comment earlier 
about some of the opt-outs or some of the provisions that would 
not be covered, that specifically say, well, a warranty update 
or a privacy policy update gets you out of coverage under the 
law. Are there other safe harbors that any of you would 
advocate? Yes, sir?
    Mr. Hirschman. Can you hear me?
    Mr. Shadegg. Yes.
    Mr. Hirschman. I would certainly advocate some form of safe 
harbor for any form of statute that were enacted, primarily 
because it would further the concept of accountability. It 
would force people to come forward and say, ``I am a mailer and 
this is the IP address through which I am mailing.'' This is a 
practice that we at Digital Impact already do. We go to ISPs 
and we say, ``Here is a list of all of our IP addresses with a 
list of the clients behind them. Do as you see fit but we are 
going to use best practices.'' I have no doubt that the best 
practices that we require our clients to use are going to be 
better than whatever we will see in legislation or regulation 
because we are extremely strict. What I would like to see is 
some form of safe harbor whereby if a company has satisfied all 
the conditions of the safe harbor, they could avoid the costly 
litigation of trying to prove that e-mail wasn't commercial or 
that e-mail was not unsolicited or the rest of the litigation 
that can go along with this.
    Mr. Shadegg. Yes. I actually have read the safe harbor 
provision that is in the legislation, and I don't think it 
makes sense but I think we should have safe harbor provisions 
along the lines of what you suggest where if you engage in 
these practices and you in fact have done them all, you ought 
to be able to get yourself out of the litigation loophole. So I 
appreciate your testimony.
    Mr. Stearns. Thank the gentleman. The gentleman from 
Massachusetts.
    Mr. Markey. Thank you. Mr. Murray, if you get spammed on 
your desk, at least you can leave your desk, but if you get 
spammed on your wireless device, it is traveling with you. You 
are like a mobile target for spammers. Are you of the opinion 
that the legislation which we pass should also deal in a 
comprehensive way with the wireless world so that we in an 
anticipatory way try to avoid having the same mess created in 
the wireless world that has already been created in the online 
world?
    Mr. Murray. From a consumer perspective, I think that it is 
critical that we consider wireless spam, which is ramping up 
extremely quickly. The growth rate of wireless spam is quite 
troubling. There is a political expediency question which 
Representative Burr raised. I think consumers should get a spam 
bill and they should get one soon.
    Mr. Markey. Did you say there is an expediency issue?
    Mr. Murray. Yes, sir.
    Mr. Markey. What is that?
    Mr. Murray. Just in the sense of I would like to see a bill 
come out of committee, and if that were terribly controversial 
and it would risk stopping the bill----
    Mr. Markey. Should it be controversial?
    Mr. Murray. I don't think it should at all, but I have 
worked with--let me restate that. I think that consumers 
absolutely deserve a strong wireless spam measure, and I would 
love to see it included in this bill. I would hope that it 
wouldn't be controversial on the committee or in the full 
House.
    Mr. Markey. So you do support it wholeheartedly, though.
    Mr. Murray. Absolutely.
    Mr. Markey. Okay. The Cellular Telephone and Internet 
Association, CTIA, estimates that last December wireless 
carriers processed more than 1 billion text messages, four 
times higher than just 1 year earlier. In Japan, the dominant 
wireless carrier, Dokamo, processes 1 billion messages a day, 
and some estimate that 80 percent of that is unsolicited 
messages. So from a--again, from a political perspective but 
more importantly from a consumer perspective, isn't this the 
time, isn't this the place to do it rather than waiting? We 
might not return to the issue for 4 or 5 years?
    Mr. Murray. Absolutely. I agree with that 100 percent. And 
as I noted earlier, there is the possibility that as we put in 
a location-based tracking system for cellular users, that we 
will see location-based spam, and I think that we should be 
working on killing wireless spam and all of its iterations.
    Mr. Markey. But you are saying that you don't want it to be 
delayed a day, though. How much time would you delay if there 
was opposition to protecting against wireless?
    Mr. Murray. I believe that that falls more clearly within 
your realm of expertise.
    Mr. Markey. Thank you so much, yes.
    And we will try to make that determination, because I don't 
think it would really be a good idea for us not to take this 
opportunity, which might not arrive for several more years if 
we don't take it as this train is leaving the station. And I 
think, to be honest with you, it would really irritate people 
so much more to be spammed on their cell phone than they ever 
feel in terms of irritation on their computer. I mean it just 
would wind up causing something that would match the reaction 
to the national do not call list that we have been seeing over 
the last 9 days in America. So I thank you, Mr. Chairman, very 
much, and I look forward to working toward the goal of 
including very strong wireless spam protection language in this 
comprehensive bill.
    Mr. Stearns. Okay. Mr. Beales, I understand you have to 
leave, and so we want to thank you very much for your kindness 
and patience in staying, and we will look forward to talking to 
you again.
    Mr. Beales. Thank you very much.
    Mr. Stearns. And Mr. Walden, you have 8 minutes. You didn't 
have an opening statement, so you are recognized.
    Mr. Walden. All 8 minutes was for Mr. Beales but that is 
okay. No, I am just kidding.
    Mr. Rubinstein, you talked about the idea of e-mail best 
practices and a seal that could accompany, I assume, the e-mail 
so you would know as the recipient. Is that how that would 
work?
    Mr. Rubinstein. Yes.
    Mr. Walden. Would there be some guarantee that the seal 
wouldn't be counterfeited by one of these spammers? Can you 
prevent that?
    Mr. Rubinstein. I think in order for such a seal to be 
effective, it would have to rely on digital signatures or other 
encryption techniques to prevent that type of spamming, which 
would certainly completely undermine the program.
    Mr. Walden. Right. And you are confident that technology, 
the encryption technology would work against these folks?
    Mr. Rubinstein. I think that would be the best approach 
from a security standpoint, but it might be harder to 
implement. Another possibility is to use IP addresses but then 
we would have to address some of the ways that those can be 
spoofed. So there are discussions underway looking at the 
appropriate technology.
    Mr. Walden. Ms. Selis, welcome as a fellow Northwesterner. 
I represent the district right up against Washington State. I 
wondered when we are talking about trying to track these people 
down, the way they make money is through people's credit cards 
on the Internet, I would guess, pretty much--I mean how do 
they--somehow they are getting paid for the porno or whatever. 
Is there a way to go after it from the financial side or the 
tax side?
    Ms. Selis. Well, your question brings up sort of the 
fundamental issues with tracking spammers. What we found in our 
cases is that almost inevitably the merchant, the one who is 
getting the credit card payment, is not the spammer. The 
merchant is getting leads from the spammer who in turn is 
contracting to somebody else to get leads, who in turn is 
contracting with somebody else, et cetera, et cetera. To give 
you an example, in one of the cases we brought against a 
company out of Minnesota, we had to send 14 pre-suit subpoenas 
to determine exactly who the sender was, and we couldn't do it 
through the merchant. The merchant was a debt-adjustment 
company who was in fact from credit card payments in Florida, 
but that merchant has bought a leave list from somebody else 
who in turn who had gotten the leads from somebody else, et 
cetera, et cetera. So would that we could do it that easily, it 
takes oftentimes--somebody pointed out that it took 2 years to 
track a spammer that way.
    Mr. Walden. I also want to ask about this issue of pop-up 
ads. How do they differ from spam if at all, and how do you 
nuke them? See, I am in favor of the death penalty for those 
folks, whoever they are out there. It is absolutely outrageous 
invasion of privacy, invasion of my private property that this 
stuff goes on, and there is no good, easy way to get rid of it, 
and I am curious, how do you feel either of these bills would 
address that issue, which I think is far more insidious than 
spam, which is bad enough. I agree with the former chairman's--
you know, putting them in the line of cockroaches, although I 
don't think cockroaches are this bad. Yes, Mr. Betty?
    Mr. Betty. Pop-ups, singularly, the largest thing people 
hate is spam, the second thing people hate most are pop-up ads. 
They are very different than spam. How you deal with those 
issues are different. Like we have done in the spam case, we 
took a leadership position in that. We offer our users a tool 
called Pop-up Blocker. I think I have gotten one or two pop-up 
ads in the last year. I mean there are technologies out there 
that can prevent these from coming to your web browser. You 
just have to go to the right people to get it implemented.
    Mr. Curran. Yes. Fortunately, that issue is much more 
amenable to technological solutions, and like Earthlink we have 
introduced pop-up blockers that enable users to deal with the 
issue at the browser level. So that is perhaps a good news 
story.
    Mr. Walden. Yes. Did anybody else have comments on that 
particular side of things? Yes.
    Mr. Misener. If I may, Mr. Walden, just to go back to the 
earlier question you asked Ms. Selis about the beneficiaries of 
spam and it has always seemed to me that the business model of 
spamming would dry up if no one ever paid----
    Mr. Walden. Right.
    Mr. Misener. [continuing] for the products advertised. And, 
therefore, we certainly would support any kind of an additional 
remedy given to either the State AGs, to the FTC, the Attorney 
General of the United States or perhaps the ISPs themselves for 
going after the beneficiaries, the knowing beneficiaries of 
spam. And as you may be aware, Chairman McCain offered an 
amendment to S. 877 recently which would do just that, and we 
certainly do support that approach.
    Mr. Walden. What about best business practices among 
businesses to make sure they know where they are getting their 
lists or put a privacy statement that says, ``We don't know 
where we are getting this list of e-mail contacts,'' so the 
consumers would know?
    Ms. Selis. Well, the notion of best practices, and it has 
been talked about here, I think it is important also to 
recognize that you can have best practices but if you have no 
enforcement mechanism for a violation of those best practices--
--
    Mr. Walden. Oh, yes. I am with you on that.
    Ms. Selis. [continuing] they are worthless. So I think it 
is an intriguing idea. If you put a burden on the merchant who 
purchases the list to disclose where he got the list or to say, 
``I don't know where I got the list,'' or to charge him what 
some level of liability for getting the list from a spammer. 
And I think there are some provisions in both of these bills 
that would do that with assisting and facilitating language. So 
I think there is fodder for that in the current legislation.
    Mr. Walden. Okay. The other issue, our own server in my 
company got hacked into and used as, I guess, a way to bounce 
e-mail through to other accounts. The only way we knew was 
because it quit working effectively for our uses, and it turned 
out it was somebody overseas doing it and it was porno and all 
of that. Does anything we do here in either of these bills give 
us the ability to go after these jokers that are operating on 
some island where there is no governance or in countries where 
we are unable to really track them down? And it is really a 
two-part question. One, what do you do in the ungoverned areas? 
And, two, it seems to me there is also an international trade 
component that needs to come up in our trade discussions with 
countries who don't enforce laws against spamming that we may 
want to have enforced here. And I would welcome your input on 
those two subjects.
    Mr. Curran. I think it is also important to consider that 
while your servers may have records showing that the spam came 
from an international source, it is also entirely possible that 
it is a U.S.-based spammer who relayed from an offshore 
computer back into your computer. So you don't necessarily want 
to assume too quickly U.S. spammers----
    Mr. Walden. Right. Good point.
    Mr. Curran. [continuing] who spam in the English language 
and negotiate their transactions in dollars are necessarily 
moving away from the United States when the opportunities are 
rich enough to, in effect, bounce offshore their computer----
    Mr. Walden. And then it comes back.
    Mr. Curran. Exactly. It is a series of piggyback moves. So, 
certainly, from our perspective, the U.S.-based spammer 
environment is target rich in terms of the need for 
enforcement, and we shouldn't let the prospect of potential 
international issues deter us from taking action against the 
U.S.-based spammers.
    Mr. Walden. All right. I appreciate that, and I will close 
with this one comment. I am not usually a big advocate for 
lawsuits, but I will tell you what, when you talk about $876 
per employee in a company, I can tell you it is happening 
because you have got to bring in some high-priced IT person to 
fix the problem and put in the latest firewalls and all of 
that. And I think there ought to be a private right of action 
with multiple damages. I mean I want to go after these people 
and shut them down and make them pay or it is going to destroy 
the usefulness of the Internet. It is already destroying small 
business out there, and something has to happen. So I 
appreciate all your comments and your testimony today, Mr. 
Chairman, and I yield back.
    Mr. Stearns. Thank the gentleman. Mr. Davis, recognized for 
8 minutes.
    Mr. Davis. Thank you, Mr. Chairman, and thank you to the 
witnesses for staying so long. First, I would like to know to 
what extent there is a consensus in the panel as to the target 
we have been discussing today, whether there is a prevalent 
business model for the spammer? Ms. Selis a little while ago 
described what seemed to be a former business model in terms of 
what is motivating the spammer, who ultimately is the client or 
beneficiary? Is there a consensus here? Is it clearly a profit-
minded agent who is motivated by the extent to which those few 
people are actually positively responding to the spammer and 
providing something of value? Does someone want to take a stab 
at this?
    Mr. Curran. I think there are a couple of different 
business models. There is the spammer who sends on their own 
behalf and transacts directly. There are professional spammers 
who rent their services out for hire and who will deliver a 
script on behalf of a particular advertiser. There is also a 
lot of lead generation spam where complex business structures 
are used to--that somebody is an independent agent or 
contractor, allegedly, will drive traffic toward a particular 
web site in effect generating leads and getting a cut. But you 
are correct that ultimately the name of the game is to 
facilitate even transactions by a fractional portion of the 
recipients.
    Mr. Davis. I would presume that from the ISP perspective 
there is obviously value to your bottom line in minimizing the 
pop-ups and spamming for the sake of your customers. Some of 
the written testimony suggests that perhaps not in the case of 
you but others in your industry you may have some conflict of 
interest here in two respects I would like you to comment on or 
anyone else. The first is the extent to which you are arguably 
spamming your own subscribers, and, second, the extent to which 
there is a temptation or opportunity for you to share in some 
of the profits these spammers are deriving by charging them an 
extra price for the privilege of using your network.
    Mr. Betty. We absolutely wouldn't take any money from a 
spammer, and we actively shut them down and sue them when we 
can find them. So that is not a concern of ours at all. We 
don't practice really--we don't rely on advertising-related 
revenues, we rely on the money we get on a monthly basis from 
our consumers as the basis of the relationship with them. So 
the monies we spend are trying to enhance our fundamental value 
proposition that we offer, and we will continue to do that if 
there are no other alternatives.
    Mr. Rubinstein. I would concur with that. Microsoft doesn't 
spam its customers, and we don't profit in any way from spam or 
sharing, making spam available to--making our customer list 
available to spammers. I would also add that we do send 
commercial e-mail to our customers, but it would qualify under 
this--it would not be treated as spam under this bill.
    Mr. Davis. Because of the prior existing relationship.
    Mr. Rubinstein. Either it is a strictly prior existing 
relationship or it is subject to an opt-out, so we would 
readily abide by all of the requirements in this bill.
    Mr. Misener. Mr. Davis, it seems to me that there is one 
other potential conflict here with the ISPs, which we have 
raised before, and, hopefully, it is not one that would ever 
come to pass. But the concern would be that many ISPs have 
multiple businesses. They not only are providing communications 
services but also running, for example, e-commerce businesses, 
certainly for profit. The concern would be that any self-help, 
any self-remedy offer to ISPs allowed them to filter e-mail in 
an anti-competitive fashion. And so we certainly would hope 
that none of the discussion today would allow--or none of the 
provisions of the bills that would be passed or considered in 
Congress or here in the House would envision ISPs being able to 
somehow skirt anti-competition law, and perhaps that can be 
taken care of in report language.
    Mr. Davis. To Ms. Selis, how would an aggregate damage cap 
affect your ability as an attorney general's office as well as 
others to bring suits against spammers?
    Ms. Selis. Well, there is frankly no reason for it. It 
would be problematic. When you talk about spammers, you talk 
about huge volumes. I recently deposed a defendant in one of my 
cases who sent out 55 million spams a day, and he did this over 
a period of time. And to put a cap on that kind of activity 
simply makes no sense, because it is such widespread activity, 
he is making so much money that if we put a cap o this, if we 
arbitrarily said X amount of dollars, $1 million, it wouldn't 
be an effective deterrent for somebody with that huge an 
operation. So I don't see any reason for it. There is no cap in 
any other kind of trade violation which this is under existing 
Federal law, and I don't see any good reason for it in this 
area either.
    Mr. Davis. The Burr-Tauzin bill contains a knowledge 
standard that you as an attorney general would have to prove as 
part of the bill. How do you think that would impact your 
ability to effectively enforce such a law?
    Ms. Selis. Well, again, I think that it is a real deterrent 
to good enforcement, and, again, it is unprecedented. Under 
existing trade law, intent is not an element of proof. It is an 
element of proof in a criminal case, and it should be because 
there are higher penalties in a criminal case, but under the 
consumer protection law there is no knowledge standard, and to 
have to prove a defendant's state of mind means more 
litigation, more cost to the States, more cost to the FTC, more 
cost to the taxpayers and less effective litigation in the long 
run.
    Mr. Davis. The Burr-Tauzin bill, obviously, in a good faith 
effort to try to boil down the solution here refers to primary 
purposes Representative Shadegg alluded to. It seems vague. 
Does anyone on the panel want to argue that that is not overly 
vague in terms of having meaningful enforcement here? Does 
anyone on the panel want to argue that there ought to be a 
separate opt-out request for each affiliate of a company?
    One of the other differences between Wilson-Green and the 
Burr bill is that Wilson-Green adopts--and I am co-sponsor of 
Wilson-Green as you can probably tell--adopts the post office 
standard in terms of protecting people as far as pornographic 
material. I am trying to stop my sons from growing up too 
quickly. It is a losing battle. This is a particularly good one 
for me. Does anyone question whether the Wilson-Green approach 
is the preferable approach on this particular issue or whether 
there is something in between?
    One of the other differences between the two bills is that 
Wilson-Green specifically targets as a violation dictionary 
attacks. I have talked to high schools in my home Tampa that 
are experiencing this. Does anyone question whether our bill 
ought to specifically be prohibiting dictionary attacks?
    Mr. Curran. That is definitely a positive addition.
    Mr. Davis. Mr. Chairman, thank you very much. That 
concludes my questions.
    Mr. Stearns. Thank you. The gentlelady is recognized for 5 
minutes.
    Ms. Wilson. Thank you, Mr. Chairman. I wanted to thank you 
all for your testimony, and I read your written testimony and 
have been listening to the testimony in the anteroom here. I 
appreciate your time and your patience. I had a couple of 
questions and first for Mr. Curran. Has AOL ever spammed its 
members?
    Mr. Curran. Spam is the No. 1 complaint that our members 
have about our service, so that is not something that we want 
to do. If we communicate with our members by e-mail, we always 
provide them an opt-out. And not only that, we offer them a 
general opt-out in our privacy policy so that they don't ever 
have to hear from us if they don't want to. And, obviously, 
that situation is quite different from the experience that many 
of our members have in the mailbox where they have the kind of 
outlaw spam that contains a non-working opt-out, completely 
falsified headers and no meaningful way for the consumer to 
exercise to choice.
    Ms. Wilson. Is ShopDirect.aol.com part of AOL or is that a 
false header?
    Mr. Curran. Shop Direct is in fact part of--is part of AOL. 
And Shop Direct--people who use the Shop Direct service may 
hear from Shop Direct, but they can always opt-out from those 
e-mails.
    Ms. Wilson. Mr. Chairman, I would just like to make this 
document as part of the record. It is actually a spam e-mail to 
me from America Online, I am one of your subscribers and 
requested multiple times to opt-out. It is a problem even under 
your service.
    Mr. Rubinstein, do you ever----
    Mr. Stearns. So ordered by unanimous consent.
    [The document follows:]

    [GRAPHIC] [TIFF OMITTED] T8428.001
    
    [GRAPHIC] [TIFF OMITTED] T8428.002
    
    Ms. Wilson. Thank you, Mr. Chairman.
    Mr. Rubinstein, does Microsoft spam their MSN or Hotmail 
members?
    Mr. Rubinstein. Like AOL, we communicate with our customers 
by e-mail, but we always offer an opt-out with one narrow 
exception, which is Hotmail sends a monthly subscriber letter 
and that is an opt-in letter that you agree to receive as part 
of the service, and it is one letter per month. Other than 
that, I am sure that we make every effort not to spam our 
customers, but we may have made mistakes in the past, and if we 
have, I would only emphasize that those are mistakes not a 
business practice. We don't profit from spam, and we try to 
avoid sending spam. And once this bill is passed, we would 
certainly comply with all the requirements under the bill.
    Ms. Wilson. Mr. Betty, in your testimony, in your written 
testimony anyway, you say that 20 million e-mails could be sent 
for $149 or less, and I am concerned--and Ms. Selis, you also 
addressed this same issue--of how do you--how can you make the 
penalty high enough to discourage the practice? How can you 
make the cost high enough to discourage the practice so that 
the potential cost is worse than the gain of continuing to be a 
spammer, at least on the civil penalty side? How do you go--how 
should we go about doing that in statute, and what are the most 
important things to keep in mind? I know that is something of 
an open-ended question but if you could address that.
    Mr. Betty. I think not having limitations on awards is a 
big deterrent. People that are repeat offenders if they get 
increasingly egregious, it would be okay. Our experience when 
you get to the most notorious of them they aren't making tons 
of money, they are scraping by a living, and even when you get 
these awards you are never going to get any recovery but it is 
such a deterrent that it does prevent them from continuing or 
they go to jail. So I don't--except for putting them in jail 
and making it easier for us to get to that point, there is not 
much we can do.
    Ms. Wilson. And perhaps, Mr. Murray, I would like to end 
with you, and I also found your testimony to be interesting on 
this issue of what is commercial e-mail. And from your 
perspective, having looked at both of these approaches and 
probably numerous others, what is the best approach to defining 
what it is that consumers have the right to opt-out of?
    Mr. Murray. Well, I will say for starters that I think 
primary purpose provides wiggle room that is just unnecessary. 
I know the representative from the Federal Trade Commission 
indicated that there were some e-mails we would like to allow 
through if it comes from a newspaper and it is an article with 
an advertisement attached. I don't see--even if we provide for 
an opt-out, that is not particularly onerous. So I don't see 
any reason to not have a broad definition of what is 
unsolicited commercial e-mail. I think that providing loopholes 
is just setting up consumers for more spam.
    Ms. Wilson. Thank you. And I want to thank all of you. I 
think Mr. Davis said something that I think was really striking 
is this question of should customers be required to opt-out of 
every affiliate, and nobody seems to think that that is the 
right approach. I think several of those questions were really 
telling. It is a very serious problem, and it is a--everybody 
thinks that they are not the ones who spam and it is all the 
other guys, they are all legitimate. But if I am the one who is 
cleaning it out of my mailbox, I should have the right to say, 
``Take me off your list. I didn't opt-into any of this.'' And 
as far as I am concerned, if I am paying for the service, I 
should have that right. I thank all of you for your time and 
your patience today.
    Mr. Stearns. I thank the gentlelady. The gentlelady from 
California is recognized for 5 minutes.
    Ms. Eshoo. Thank you, Mr. Chairman, again for having this 
important hearing and to all of the panelists. I think that you 
have given us a good deal of information today, and what I 
thought I would do since I am the last one, I believe, to make 
some comments and ask a question is to see if I can summarize 
because I listened very hard throughout this hearing to what 
your answers were to the questions that were posed.
    Does everyone agree that this has to be enforceable? All 
right. Everyone is nodding, so no one disagrees. That is 
applies to all commercial e-mail. Everybody agree on that? All 
right. That there be strong language that protects not only 
adults but most especially children from pornographic spamming 
and just the crap that is out there. I don't know what other 
way to put it. I don't want to dignify what is done, so maybe 
that is a good word for it. Everyone agree to that? All right, 
we have consensus on that. Do you all agree that affiliates be 
included in the opt-outs? I think that question was asked, but 
I want to be sure that everyone agrees on that. All right. Are 
you nodding too? Yes? All right.
    I am sorry that the gentleman from the Federal Trade 
Commission had to leave when he did. I was dying to ask him a 
few questions, but I think that as a committee we should pose 
to the Federal Trade Commission some questions, and that is how 
long did it take the FTC to develop the do not call list, and I 
think that a list that is developed on this is a cannot spam 
list. I mean we really have to be tough about it. But I think 
that we should go back and examine how that was constructed and 
what were the hurdles for the FTC? How long did it take for 
them to weed all of that out? Is there a possibility of 
including in legislation the whole notion of a cannot spam list 
through the FTC that they would help to make work and actually 
implement.
    It is my recollection, and I don't know if this is an 
accurate one, but my sensibilities tell me that they were not 
all that enthused very early on about a national do not call 
list, and we helped to make that work. I mean certainly there 
had to be an appropriation but we worked on that for a while. I 
think that what we do has to be able to weed out the worst of 
the worst who send and then flip around their e-mail address.
    And, again, Mr. Chairman, I hold--I am going to be really 
consistent about this, that if we don't get this right, we are 
going to have tens of millions of Americans on our back and 
justifiably so if we really miss the mark on this. And no one, 
I don't think, is going to be congratulatory if we put 
something on the books that cannot be enforced. And I think 
that, Ms. Selis, you have been enormously helpful today in the 
answers that you have given to several of my colleagues. So I 
don't know what other questions I would ask other than maybe I 
will ask Ms. Selis given what Washington State has adopted and 
you have that in place, do you have any recommendations to us 
that you would make that as strong as your enforcement is, is 
there something that was left out of this that we can--out of 
your experience that we can benefit from? Outside of the strong 
enforcement provisions, are there any other recommendations 
that you would make to us?
    Ms. Selis. Well, I think that the one thing we can't do is 
be 50 States or the Federal Government.
    Ms. Eshoo. Exactly.
    Ms. Selis. And----
    Ms. Eshoo. That was going to be one of my summary 
questions. Everyone here agrees that we would all benefit from 
a national law, a strong umbrella rather than--anyone ever try 
to open an umbrella in the rain when it is not working well? We 
all know what that is. So we need a strong Federal umbrella.
    Ms. Selis. Right. We need as many people, as many entities 
who can all do their own level of enforcement in order to stop 
this problem. One State isn't going to do it, five States isn't 
going to do it. ISPs, private citizens, a private right of 
action I think is really important here. It will take a lot of 
people to solve this problem.
    Ms. Eshoo. In listening to the panelists, I think that we 
always listen for on this side of the dias where you agree with 
one another and where you disagree, because those are the 
things--I mean we end up being referees in all of this and try 
to come out with the best product for the American people. 
Where are the disagreements here? It sounds to me like you are 
all kind of agreeing with each other. What are the 
disagreements amongst you? One of them might be private right 
to action, yes, and, most frankly, I don't think that would 
ever get out of a subcommittee or a full committee here. That 
is just my opinion, but is there anything else that is 
contentious? Gee, you were all so talkative, now you are so 
quiet. No. So there really isn't any--there aren't any great 
bones of contention between you?
    Mr. Rubinstein. I am not sure about between us but----
    Ms. Eshoo. Well, the panel. I mean you have listened same 
way as I have all day.
    Mr. Rubinstein. The panel did--several people expressed 
themselves in opposition to the do-not-spam list. I don't know 
if that is the consensus view of the panel, but that is maybe 
the trend from what I heard.
    Mr. Stearns. Time of the gentlelady is expired.
    Ms. Eshoo. Can he answer? Mr. Chairman, can he answer.
    Mr. Stearns. Sure. Oh, absolutely. Go ahead.
    Mr. Betty. There is very clear consensus on the key, key 
problems of dealing with all this outlaw spam. And as far as 
the other elements, they are more perhaps just differences of 
degree in terms of complementing the anti-outlaw provisions 
with things that provide for proper consumer choice but not a 
lot of disagreement.
    Ms. Eshoo. Okay. Thank you very much. And thank to you, Mr. 
Chairman.
    Mr. Stearns. I thank the gentlelady, and I remind all 
members that the record will remain open if members want to ask 
questions, particularly to the Federal Trade Commission 
Chairman. And I want to thank all the panelists for their time, 
their answers to our questions. And with that, the 
subcommittee--both subcommittees are adjourned.
    [Whereupon, at 4:50 p.m., the subcommittees were 
adjourned.]


</pre></body></html>
